<html>
<title> - CRIMINAL ACTIVITY AND VIOLENCE ALONG THE SOUTHERN BORDER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     CRIMINAL ACTIVITY AND VIOLENCE 
                       ALONG THE SOUTHERN BORDER 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INVESTIGATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 16, 2006

                               __________

                           Serial No. 109-96

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMT]
                                    

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

35-565 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























                     Committee on Homeland Security



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

                     SUBCOMMITTEE ON INVESTIGATIONS

                   Michael T. McCaul, Texas, Chairman

Christopher Shays, Connecticut       Bob Etheridge, North Carolina
Daniel E. Lungren, California        Bill Pascrell, Jr., New Jersey
Dave G. Reichert, Washington         Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bennie G. Thompson, Mississippi 
Officio)                             (Ex Officio)

                                  (II)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Investigations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Gene Green, a Representative in Congress From the 
  State of Texas:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................     6
  Prepared Statement.............................................    10
The Honorable Ted Poe, a Representative in Congress From the 
  State of Texas.................................................    11

                               Witnesses
                                Panel I

Mr. T.J. Bonner, President, National Border Patrol Council:
  Oral Statement.................................................    55
  Prepared Statement.............................................    57
Mr. Rick Flores, Sheriff, Webb County, State of Texas............    28
Mr. D'Wayne Jernigan, Sheriff, Val Verde County, State of Texas:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Colonel Russell Malesky, Counter-Drug Commander, Texas National 
  Guard:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Steve McCraw, Director, Governor's Office of Homeland 
  Security, Texas................................................    18
Mr. Alonzo Pena, Special-Agent-in-Charge, Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. Gordon Quan, Resident, Houston, Texas:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54

                                Panel II

Mr. Robert Eckels, County Judge, Harris County, State of Texas:
  Oral Statement.................................................    73
  Prepared Statement.............................................    77
The Honorable Adrian Garcia, Member, Houston City Council, State 
  of Texas:
  Oral Statement.................................................    94
  Prepared Statement.............................................    98

                           Panel II-Continued

Mr. Harold Hurtt, Chief of Police, City of Houston, State of 
  Texas:
  Oral Statement.................................................   100
  Prepared Statement.............................................   102
Mr. John Moriarty, Inspector General, Department of Criminal 
  Justice, State of Texas:
  Oral Statement.................................................    92
  Prepared Statement.............................................    93
Mr. Michael O'Brien, Sheriff's Office, Harris County, State of 
  Texas:
  Oral Statement.................................................    88
  Prepared Statement.............................................    90
Mr. Charles Rosenthal, District Attorney, Harris County, State of 
  Texas:
  Prepared Statement.............................................    83

                               Panel III

Mr. Jaime Esparza, District Attorney, El Paso County, State of 
  Texas:
  Oral Statement.................................................   134
  Prepared Statement.............................................   137
Mr. Dennis Nixon, Chairman, International Bank of Commerce:
  Oral Statement.................................................   128
  Prepared Statement.............................................   131
Mrs. Carrie Ruiz, Resident, Houston, Texas.......................   125
Mr. Steven Stone, State Trooper, Department of Public Safety, 
  State of Texas:
  Oral Statement.................................................   123
  Prepared Statement.............................................   124


                     CRIMINAL ACTIVITY AND VIOLENCE



                       ALONG THE SOUTHERN BORDER

                              ----------                              


                       Wednesday, August 16, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:38 a.m., at 
Civil Courthouse, 201 Caroline Street, Houston, Texas, Hon. 
Michael McCaul [chairman of the subcommittee] presiding.
    Present: Representative McCaul.
    Also Present: Representatives Jackson-Lee, Poe, and Gene 
Green.
    Mr. McCaul. Good morning. The Committee on Homeland 
Security, Subcommittee on Investigations will come to order. 
The subcommittee is meeting today to hear testimony on criminal 
activity and violence on our southern border.
    First, I would like to ask unanimous consent that Ms. 
Jackson-Lee, Mr. Green, and Mr. Poe be permitted to sit and to 
question during the hearing today. Hearing no objection so 
ordered.
    I also ask unanimous consent that statements by Shelley 
Sekula-Gibbs and George Benton be included for the record. 
Hearing no objection, so ordered.
    I have also been requested to state that photography and 
cameras are limited to accredited press only.
    First, I want to thank everybody for being here today. I 
want to thank the witnesses have attended this hearing. As a 
former Federal prosecutor, I sort of feel like I am back in 
Federal court again, although I have never sat at this level as 
a judge, although Judge Ted Poe has in his prior career.
    It has taken a lot of work to put this together, and I 
appreciate the interests.
    Because this is an official congressional hearing, as 
opposed to a town hall meeting, we have to abide by certain 
rules of the committee and of the House of Representatives. So 
we kindly ask that there be no applause of any kind or any kind 
of demonstration with regards to the testimony. It is important 
that we respect the decorum and the rules of this committee.
    Now today we will examine the expanding crisis of violence 
and criminal activity on America's border with Mexico. We will 
hear what I expect to be sobering testimony from Federal, State 
and local government officials and law enforcement, as well as 
the victims of violence committed by those in our Nation 
illegally. It is my hope that this hearing and the testimony 
will open the eyes of America to the violence, crime, drugs and 
overall far-reaching impact of our unsecured borders. Today we 
will hear the facts and understand the true effects of illegal 
immigration on our society.
    I would like to thank the witnesses for appearing here 
today, many of whom I have worked with when I was a Federal 
prosecutor. I am grateful for your presence here today, and I 
look forward to hearing your testimony.
    The violence our border patrol and local law enforcement 
encounter continues to increase at an alarming rate, and the 
organized criminal element on Mexico's side of our southern 
border is heavily armed and very dangerous. From 2004 to 2005, 
violent incidents against border patrol agents on the southern 
border increased more than 100 percent. Since October of last 
year there have been 630 violent incidents against our border 
patrol agents.
    In January 2006, the Department of Homeland Security sent a 
confidential memo to border patrol agents warning that they 
could be the targets of assassins hired by alien smugglers. The 
point is, America's border with Mexico is a violent and 
dangerous place today, and this is largely due to the drug 
trafficking along our southern unsecured border.
    Increasing violence on the border is directly related to 
the increased narcotics seizures. Last year, the border patrol 
seized more than 1 million pounds of marijuana, nearly 20 
percent more than last year. Today, there is also a 10 percent 
increase in cocaine seizures compared to last year.
    On top of this, the number of illegal aliens entering our 
Nation each year is staggering. Last year, well over a million 
illegal aliens were apprehended along our borders. But this 
number represents only those caught by the border patrol. It is 
estimated the number of those caught represents only a fraction 
of the illegal aliens who really enter the United States.
    This perpetual flood of illegal aliens into our country is 
also adding to the health care crisis and to increasing 
problems we are having in America's jails and prisons. Overall, 
the influx of illegal immigrants into our Nation is causing an 
increasing strain on nearly every social program in the United 
States, and at the end of the day, it is the American taxpayer 
who is economically dealing with that increasing stress.
    This threat posed by an uncontrolled border, narcotics 
smuggling and rising violence is the reality facing American 
communities. For instance, immigration investigators broke up a 
16-member smuggling ring in El Paso that brought thousands of 
illegal aliens into the United States. They were squeezed into 
two truck trailers with virtually no food and only one bottle 
of water.
    Powerful criminal organizations support their operations by 
torturing, kidnapping and murdering citizens on both sides of 
the border.
    Last year, 42 American citizens were kidnapped in Nuevo 
Laredo alone. Los Angeles county sheriff's deputy, David March, 
was brutally murdered by a three-time deported illegal alien 
during a routine traffic stop. David March's murderer escaped 
back to Mexico.
    Some 4 years later, Teri March is still awaiting the 
extradition of her husband's killer.
    According to the U.S. DEA, 65 percent of all meth consumed 
in the United States now comes from Mexican drug cartels and is 
distributed by gangs such as the MS-13. The gang, which is 
prevalent in Texas, MS-13, is engaged in violent crime on both 
sides of the border.
    And in the post-9/11 world, border security is not simply 
about immigration, but rather, it is an issue of national 
security. Before running for Congress, I was chief of 
counterterrorism in the U.S. attorney's office. I had the 
Mexican border in my jurisdiction. My job was to determine 
whether terrorist cells were in this country and if so where. 
But that question cannot be fully answered, and many, including 
myself, are concerned that they are already here. Our Nation's 
borders are our last line of defense in the war on terror.
    Just yesterday, an Afghanistan national was caught crossing 
into Hidalgo County. He is now being detained and questioned.
    Hezbollah has already brought sleeper agents into the U.S. 
across our southern border. On March 1, 2005, Mahmoud Youssef 
Kourani pled guilty to Federal charges of raising money for 
Hezbollah terrorist activities in Lebanon. Kourani was an 
illegal alien who had been smuggled across the border after he 
bribed a Mexican consular official in Beirut to get him a visa 
to travel to Mexico. Kourani and a Middle Eastern traveling 
partner then paid coyotes in Mexico to get into the United 
States.
    In another case, a cafe owner in Tijuana, Mexico was 
arrested for smuggling more than 200 Lebanese citizens 
illegally into the U.S., including several who are believed to 
have terrorist ties to Hezbollah.
    The Val Verde county sheriff's office warned that drug 
traffickers are helping terrorists with possible al-Qa'ida ties 
to cross the Texas Mexico border into the United States.
    An estimated 400,000 people who have been ordered out of 
the U.S., including many convicted criminals or those from 
terrorist States, are still living in the U.S. because Federal 
officials have failed to ensure their removal.
    Terrorist organizations, including al-Qa'ida, are seeking 
to exploit our porous border. Last year alone, 135,000 people 
who are not of Mexican descent were apprehended entering Texas 
illegally.
    The McAllen border patrol sector alone reports that it 
released more than 42,000 other than Mexicans, or OTMs, in 2005 
and more than 90 percent of those failed to show up at their 
court hearing.
    Mexican officials recently apprehended four Iraqis headed 
across the Texas-Mexico border.
    Our government recently seized an enormous cache of weapons 
in Laredo, Texas. U.S. authorities confiscated two completed 
improvised explosive devices, or IEDs, materials for making 33 
more, military style grenades, 26 grenade triggers, large 
quantities of AK-47s and AR-15 assault rifles, 1,280 rounds of 
ammunition, silencers, machine gun assembly kits, 300 primers, 
bulletproof vests, police scanners, sniper scopes, narcotics 
and cash.
    But Texas is doing something about the violence along its 
border with Mexico. This year, Texas Governor Rick Perry 
launched operations Rio Grande, Del Rio and Laredo in response 
to the increasing criminal activity and violence along the 
Texas-Mexico border. I look forward to hearing about these 
border security initiatives from the Texas homeland security 
director, Steve McCraw.
    Despite the lack of a real Federal response to the violence 
on the border, we in the House have worked hard to pass 
legislation aimed at securing America's border. Last year, the 
House passed a border and immigration bill which makes border 
security a paramount priority for America, as it should be. 
H.R. 4437 authorizes additional border agents, mandates 
detention thereby ending the catch and release program, 
supports our local law enforcement, including our border 
sheriffs to assist in securing the border. The bill also adds 
new penalties for alien smuggling and passport fraud, provides 
for the use of state-of-the-art technology and military assets 
on the border, and authorizes fencing along the southern 
border.
    The House immigration reform bill secures the border 
without amnesty. Today's illegal immigration crisis in the 
United States is a product of the failed amnesty policies of 
the past and the lack of enforcement of our laws on the books.
    However, in any attempt to secure America's border with 
Mexico, the Mexican government must cooperate. We share a 
common border with Mexico and a responsibility for developing 
effective policies to deter highly organized and armed criminal 
elements which threaten both of our Nations. We must hold our 
friend and our neighbor to the south to a high standard of 
cooperation and responsibility. This organized criminal element 
threatens the security and well-being of the citizens of both 
of our great Nations.
    The first duty, paramount duty, of the United States 
government is to protect and defend its citizens. Our borders 
cannot become the gateway for criminal enterprise, drug 
trafficking and terrorist activity.
    In closing, it is my sincere hope today, that we will work 
towards providing real results to these real and deadly 
problems and more safe and secure borders for America. There 
are those who will try to politicize the testimony and facts 
presented by the witnesses. For anyone to politicize this issue 
would mean playing politics with our national security, and in 
my view, that is unacceptable.
    [The statement of Mr. McCaul follows:]

          Prepared Opening Statement of Hon. Michael T. McCaul

    Today, we will examine the expanding crisis of violence and 
criminal activity on America's border with Mexico. We will hear what I 
expect to be sobering testimony from federal, state and local 
government officials and law enforcement, as well as victims of 
violence committed by those in our nation illegally. It is my hope that 
this hearing and the testimony will open the eyes of America to the 
violence, crime, drugs and overall far reaching impact of our unsecured 
border. Today we will hear the facts and understand the true effects of 
illegal immigration on our society.
    I would like to thank the witnesses for appearing here today, many 
of whom I have worked with when I was a federal prosecutor. I am 
grateful for your presence today, and I look forward to hearing your 
testimony.
    The violence our Border Patrol and local law enforcement encounter 
continues to increase at an alarming rate, and the organized criminal 
element on Mexico's side of our Southern border is heavily armed and 
very dangerous. From 2004 to 2005, violent incidents against Border 
Patrol agents on the Southern border increased more than 100%. Since 
October of last year, there have been 630 violent incidents against our 
Border Patrol agents.
    In January 2006, the Department of Homeland Security sent a 
confidential memo to Border Patrol agents warning that they could be 
the targets of assassins hired by alien smugglers. The point is, 
America's border with Mexico is a violent and dangerous place today, 
and this is largely due to the drug trafficking along our Southern 
unsecured border.
    Increasing violence on the border is directly related to increased 
narcotics seizures. Last year, the Border patrol seized more than one 
million pounds of marijuana, nearly 20% more than last year. Today, 
there is also a 10% increase in cocaine seizures compared to last year.
    On top of this, the number of illegal aliens entering our nation 
each year is staggering. Last year, well over a million illegal aliens 
were apprehended along our borders. But this number represents only 
those caught by the Border Patrol. It is estimated the number of those 
caught represents only a fraction of the illegal aliens who really 
entered the United States. This perpetual flood of illegal aliens into 
our country is also adding to the health care crisis and to increasing 
problems we are having in America's jails and prisons. Overall, the 
influx of illegal immigrants into our nation is causing an increasing 
strain on nearly every social program in the United States. And, at the 
end of the day it is the American Tax Payer who is economically dealing 
with that increasing stress.
    This threat posed by an uncontrolled border, narcotics smuggling 
and rising violence is the reality facing American communities. For 
instance:
        <bullet> Immigration investigators broke up a 16-member 
        smuggling ring in El Paso that brought thousands of illegal 
        aliens into the U.S. for as much $6,000 each, depending on the 
        point of origin. They were squeezed into two truck trailers 
        with no food and one water bottle.
        <bullet> Powerful criminal organizations support their 
        operations by torturing, kidnapping and murdering citizens on 
        both sides of the border,
        <bullet> Last year, 42 American citizens were kidnapped in 
        Nuevo Laredo alone,
        <bullet> Los Angeles County Sheriff's Deputy David March was 
        brutally murdered by a three time deported illegal alien during 
        a routine traffic stop. David March's murdered escaped back to 
        Mexico. Some four years later, Teri March is still awaiting the 
        extradition of her husband's killer.
        <bullet> According to the U.S. Drug Enforcement Administration, 
        65 percent of all meth consumed in the United States now comes 
        from Mexican drug cartels and is distributed by gangs such as 
        the MS-13,
        <bullet> The MS-13 gang is in Texas, and is engaged in violent 
        crime on both sides of the border.
    In the post 9/11 world, border security is not simply about 
immigration, but rather it is an issue of national security. Before 
running for Congress, I was chief of counter terrorism in the US 
Attorney's office in Texas. I had the Mexican border in my 
jurisdiction. My job was to determine whether terrorists cells were in 
this country, and if so where. But the question cannot be fully 
answered, and many are concerned that they are already here. Our 
nation's borders are our last line of defense in the War on Terror:
        <bullet> Just yesterday an Afghanistan national was caught 
        crossing into Hidalgo County, is detained and is now being 
        questioned,
        <bullet> Hezbollah has already brought sleeper agents into the 
        U.S. across our southern border. On March 1, 2005, Mahmoud 
        Youssef Kourani pleaded guilty to federal charges of using 
        meetings at his home in Dearborn, Michigan to raise money for 
        Hezbollah terrorist activities in Lebanon. Kourani was an 
        illegal alien who had been smuggled across the border after he 
        bribed a Mexican consular official in Beirut to get him a visa 
        to travel to Mexico. Kourani and a Middle Eastern traveling 
        partner then paid coyotes in Mexico to then get into the United 
        States,
        <bullet> In another case, a cafe owner in Tijuana, Mexico was 
        arrested for smuggling more than two hundred Lebanese citizens 
        illegally into the U.S., including several who are believed to 
        have terrorist ties to Hezbollah,
        <bullet> The Val Verde County Sheriffs Office warned that drug 
        traffickers are helping terrorists with possible al-Qa'ida ties 
        to cross the Texas-Mexico border in to the United States,
        <bullet> An estimated 400,000 people who have been ordered out 
        of the United States, including many convicted criminals or 
        those from terrorist states, are still living in the U.S. 
        because federal officials have failed to ensure their removal,
        <bullet> Terrorist organizations including al-Qa'ida are 
        seeking to exploit our porous border. Last year alone, 135,000 
        people who are not of Mexican descent were apprehended entering 
        Texas illegally,
        <bullet> The McAllen border patrol sector alone reports that it 
        released more than 42,000 OTMs in 2005, and more than 90% 
        failed to report to court,
        <bullet> Mexican officials recently apprehended four Iraqis 
        headed across the Texas-Mexico border,
        <bullet> Our government recently seized an enormous cache of 
        weapons in Laredo, Texas. U.S. authorities confiscated two 
        completed Improvised Explosive Devices (IEDs), materials for 
        making 33 more, military style grenades, 26 grenade triggers, 
        large quantities of AK-47 and AR-15 assault rifles, 1,280 
        rounds of ammunition, silencers, machine gun assembly kits, 300 
        primers, bullet-proof vests, police scanners, sniper scopes, 
        narcotics, and cash.
    But Texas is doing something about the violence along its border 
with Mexico. This year, Texas Governor Rick Perry launched Operations 
Rio Grande, Del Rio and Laredo in response to the increasing criminal 
activity and violence along the Texas-Mexico border. I look forward to 
hearing about these border security efforts from Texas Homeland 
Security Director Steve McCraw.
    Despite the lack of a real federal response to the violence on the 
border, we in the House have worked hard to pass legislation aimed at 
securing America's border. Last year, the House passed a border and 
immigration bill which makes border security a paramount priority for 
America. HR 4437 authorizes additional border agents, mandates 
detention thereby ending the catch and release program, and supports 
out local law enforcement, including our border sheriffs, to assist in 
the enforcement of immigration laws. The bill also adds new penalties 
for alien smuggling and passport fraud, provides for the use of state 
of the art technology and military assets, and authorizes fencing along 
the Southern border.
    The House immigration reform bill secures the border without 
amnesty. Today's illegal immigration crisis in the United States is a 
product of the failed amnesty policies of the past, including amnesty 
and the lack of enforcement of the laws on the books.
    However, in any attempt to secure America's border with Mexico, the 
Mexican Government must cooperate. We share a common border with 
Mexico, and a responsibility for developing effective policies to deter 
highly organized and armed criminal elements which threaten both of our 
nations. We must hold our friend and neighbor to the South to a high 
standard of cooperation and responsibility. This organized criminal 
element threatens the security and well being of the citizens of both 
of our great nations.
    The first duty of U.S. government is to protect and defend its 
citizens. Our borders cannot become the gateway for criminal enterprise 
and drug trafficking and terrorist activity.
    In closing, it is my sincere hope today that we will work towards 
providing real results to these real and deadly problems, and more safe 
and secure borders for America. There are those who will try and 
politicize the testimony and facts presented by the witnesses. For 
anyone to politicize this issue would mean playing politics with our 
national security and that is unacceptable.

    Mr. McCaul. The Chair now recognizes the gentlelady from 
Texas, Ms. Sheila Jackson-Lee, for any statement she may have.
    Ms. Jackson-Lee. I thank the chairman very much.
    Good, morning. I would like to ask for a moment of silence 
for National Guard Specialist Kirsten Fike. She was 2 hours 
into the first day of a border surveillance mission near Yuma 
when she collapsed and died in the 100-plus degree weather in 
Yuma, Arizona. She is from Pennsylvania and she is survived by 
her 13-year old son Cody.
    [Moment of silence.]
    Thank you very much, Mr. Chairman, for your service to this 
Congress and to this Nation. I have great respect for this 
committee and this Congress as a member of the Homeland 
Security Committee, and the ranking member on the House 
Judiciary Committee, two committees charged with the 
responsibility of listening to the American people on the 
question of comprehensive immigration reform. Thank you for 
accepting our invitation and my invitation to come to Houston, 
Texas.
    Houston, Texas, of course, the fourth largest city in the 
Nation, is blessed by its diversity and the ability for all of 
us to live harmoniously together. If it is not through our city 
council and mayor, to our Harris County commissioners and 
leaders of our Harris County government, it is to our city 
clubs and neighborhoods. We do live together harmoniously.
    We are very grateful for a very effective law enforcement 
system, both the county and the city, that works effectively 
together. We are some hundreds of miles away from the border. 
So the question of border violence is certainly a national 
question, but we in Houston are attuned to the fact that our 
responsibilities of our law enforcement officers are to ensure 
the protection of our local citizens.
    You are right, Mr. Chairman, this is not a political 
question. But I simply disagree with the perspective that has 
been put forward by the Republican majority.
    There is a House bill and there is a Senate bill. Out of 
regular order, the appropriate procedures would be that we 
would be in a conference, adjusting both of the legislative 
initiatives so that we could reconcile the issues and needs of 
the American people.
    As I expect to hear the testimony of many sheriffs from the 
border, they know that we have had vigorous discussions in 
Washington, and I have joined in their effort to be reimbursed 
on the work that they have had to do because of the failing 
funding of those who are on the front lines, the Federal 
authorities that are on the front line, and we thank those 
sheriffs who themselves have been engaged because of the 
Federal failures that we have had.
    Today, we will hear from 17 witnesses about criminal 
activities and violence along the borders. I would only say 
that that is an important question but we have a disagreement.
    We want to ensure that our borders, whether they are 
airports, ports, the northern border or the southern border are 
secure. I would simply say that immigration is a very important 
issue to the great State of Texas, as well as the Nation, but 
the concept is comprehensive immigration reform.
    As I indicated, as the ranking member of the House 
Subcommittee on Immigration and as an attorney, I know 
firsthand the complexities of the issue. That is why I am 
saddened by the simplistic and sometimes caustic rhetoric 
regarding immigrants and comprehensive immigration reform.
    I would hope that we would not engage as the chairman has 
asked us in traveling road shows and mock hearing and really 
digest and discuss how can we solve this problem, how can we 
secure our borders, how we can engage in a discussion of 
comprehensive immigration reform.
    This committee knows that 99 percent of all immigrants 
coming to this country do so because they want to work, improve 
their opportunities for success and reunite with their 
families.
    I was reminded of the Irish who fled Ireland in the 1800s 
because of the potato famine and that there is some fifty 
thousand undocumented Irish in this country, all, I hope, 
seeking an opportunity for status, not attempting to be a 
felon.
    President Bush recognized that fact in his May 15 address 
to the Nation calling for the passage of the Senate immigration 
bill.
    It is not lost on me that this hearing has been convened in 
a courtroom, more so than at a university or city hall. Let me 
thank Harris County for its hospitality, but, of course, many 
people think of a courtroom as an adversarial setting rather 
than one designed for the free-flowing exchange of ideas with 
the community members directly impacted by immigration.
    Mr. Chairman, I accept your challenge. I want to work with 
you to make sure that our borders are secure enough to keep out 
OTMs, al-Qa'ida and others, who might be interested in doing us 
harm, who might be left to run amock amongst the population. 
Let's stand united together for border security. But as we go 
through this hearing, it is my wish that we not smear the 
overwhelming number of decent persons who are hard working, tax 
paying, law abiding immigrants.
    We must also acknowledge that our border patrol agents and 
law enforcement officials do their best along the border but 
face challenges that include lack of support from this 
administration and the Congress.
    I want to congratulate the border patrol agents, because, 
in fact, they have stopped over 1.7 million-plus individuals 
who are attempting to come into this country illegally. Having 
walked along the borders of California and Mexico and New 
Mexico, I know their hard work and the confidence of the 
citizens along that border have been there in terms of their 
intent their decency and their commitment and their patriotism. 
I salute them and I thank them.
    I thank the National Guard that has been called into duty, 
even though their resources have been depleted and most of 
their resources as we learned in Washington State, some 60 
percent of that State's resources of the National Guard are 
behind the front line in Iraq.
    This is a difficult challenge for America. There are some 
who paint as criminals all who cross the border. Yet while the 
Republican leadership in Congress focus on the southern border 
with 10,000 border patrol agents stationed along the 2000-mile 
border with Mexico, only one-tenth of that amount is on the 
Canadian border, one that is 2.5 times as long as the Mexico 
border. Recent news stories document how people fly, drive, 
walk, sail, ski and sled across the northern border all the 
time. That, is why we must have a unified comprehensive 
approach to immigration reform.
    Now I know there is violence along the southern border. 
Criminal enterprises are trying to control their turf with 
trafficking and smuggling of human beings and drugs. We have 
seen the violence and tragedy in losing 19 individuals in a 
stuffed, if you will, conditions coming across the border, but 
we also know there is violence and there is trepidation on the 
northern border. We congratulate the Customs and Border 
Protection officer that stopped the individual coming across, 
the bomber. If had not been for their intuition, their insight 
and the ability to turn that person over to secondary, we might 
have had enormous tragedy on New Year's Eve of 2000.
    But that was because they had the resources to secondary. 
Mr. Chairman, the Customs and Border Protection are suffering 
because they do not have a enough resources for what we call 
secondary investigation. That is why the Congress needs to go 
back to work. That is why Congress and the President must do 
more than give lip service to securing the border. Since 9/11, 
House Republicans have rejected seven Democratic amendments 
that will increase, strengthen our borders by increasing staff 
and funding for necessary security measures.
    If Republicans had not defeated these Democratic efforts to 
enhance border security over the last 4 years, there would be 
6,600 more border patrol agents, 14,000 more detention beds, 
and 2,700 more immigration agents on the border.
    On December 16, 2005, all 219 House Republicans voting that 
day opposed a Democratic proposal to improve border security 
and immigration enforcement by fulfilling the 9/11 border 
security recommendations.
    The proposal would have hired more border patrol agents, 
ended the catch and release practice by authorizing 100,000 
additional detention beds and incorporating state-of-the-art 
surveillance technology, including cameras, sensors, radar, 
satellites and unmanned aerial vehicles in order to ensure 100 
percent border coverage. That happened to be H.R. 4437 and it 
was captured from my legislation, H.R. 4400, that I offered as 
a member of the House Judiciary Committee and Homeland Security 
Committee.
    I introduced H.R. 4044, the Rapid Response Border 
Protection Act, which calls the White House and call the 
Congress and indicate that there is a crisis in their State. It 
allows for the United States Government then to dispatch a 
thousand border patrol agents to that particular area. That 
bill was to meet our border security needs by providing the 
border patrol with the personnel, equipment and resources they 
needed to secure the border. Yet our Republican leadership in 
Congress has not allowed this bill to move forward.
    When the administration and Congress obstructs efforts to 
secure the border, State and local governments are left holding 
the bag. In fact, the reimbursement dollars that we have 
supported over the years, called SCAAP money, have been zeroed 
out by this administration. That would allow our district 
attorneys to be reimbursed for any of those individuals that 
might not be in status or incarcerated in our jails. Cities and 
States have to choose between funding schools versus doing the 
Federal Government's job of securing the borders.
    The President has acknowledged that our border security 
needs more than just fences and deportation, but we need 
leadership, not rhetoric, on this issue.
    The public needs to know these facts so that it is not 
duped into believing that Congress and the administration is 
now doing, or in the 5 years since 9/11, has not been doing all 
it can to protect our borders.
    In a forum yesterday, I was asked the question why do not 
these people just go into the United States military. Having 
just recently come back from Iraq, I can answer the question 
they do. On the front lines of Iraq and Afghanistan, we have 
soldiers who are not yet citizens, but they have been willing 
to carry the flag of the United States of America.
    I look forward to hearings that will confront their service 
in a reasonable, rational way: full funding for border 
security, comprehensive immigration reform, pathway to 
citizenship that allows those from Ireland, India, Pakistan, 
and places south to be able to get in line and assume their 
rightful place and commitment to the United States of America.
    I look forward to hearing from the witnesses about real 
tools that they need to secure our borders, and I look forward, 
as I said, to upholding the flag of the United States for all 
of those who choose to carry the flag, respect it and love it.
    Thank you, Mr. Chairman, and I yield back my time.
    [The statement of Ms. Jackson-Lee follows:]

         Prepared Opening Statement of Hon. Sheila Jackson-Lee

    Thank you Mr. chairman, and welcome to my district.
    I want to begin by asking for a moment of silence to honor fallen 
National Guard Spc. Kirsten Fike. She was two hours into the first day 
of a border surveillance mission near Yuma when she collapsed and died 
in the 100+ degree weather in Yuma, Arizona. She is from Pennsylvania 
and is survived by her 13 year old son, Cody.
    Today, we will hear from seventeen witnesses about criminal 
activities and violence along the border.
    Well, Mr. Chairman, Houston is quite a ways from the border. 
Nevertheless, immigration is a very important issue to the metropolitan 
city of Houston, to the great State of Texas as well as to the Nation. 
Moreover, I think it is imperative that we in Congress deal jointly 
with the inseparable issues of border security and comprehensive 
immigration reform rather than stall the process of much needed 
legislative reform.
    As the Ranking Member for the Judiciary Committee Subcommittee on 
Immigration, Border Security, and Claims and as a Member of the 
Committee on Homeland Security, I know firsthand the complexities of 
the issues surrounding border security and immigration reform. That is 
why I am saddened by the simplistic and sometimes caustic rhetoric 
regarding immigrants and immigration reform which is too often 
articulated in an attempt to fuel anti-immigrant sentiment.
    Mr. Chairman, 99% of all immigrants coming to this great country do 
so because they want to work, improve their and their families' 
opportunities for success, and reunite with their families. President 
Bush recognized that fact in his May 15th address to the Nation calling 
for the passage of the Senate immigration bill.
    It is not lost on me, Mr. Chairman, that this hearing has been 
convened in a courtroom rather than at a university or at City Hall. In 
other words, Mr. Chairman, we are in an adversarial setting rather than 
one designed for the free flowing exchange of ideas with the community 
members directly impacted by immigration.
    As we go through this hearing today, it is my wish that we not 
smear the overwhelming number of decent persons who are hard-working, 
tax-paying, law abiding immigrants.
    We must also acknowledge that our Border Patrol agents and law 
enforcement officials do an incredible job along the border, despite 
facing tremendous challenges which include lack of personnel, 
equipment, resources, and other types of support from this Republican 
Administration and Congress.
    There are some who paint as criminals all who cross the southern 
border. Yet, While the Republican leadership in Congress focuses on the 
Southern border with 10,000 Border Patrol agents stationed along the 
2,000-mile border with Mexico, only 1/10th that amount is on the 
Canadian border, a border that is 2.5 times as long as the Mexican 
border. Recent news stories document how people fly, drive, walk, sail, 
ski, and sled across the Northern border all the time. Furthermore, 
Operation Frozen Timber, a multi-agency probe targeting cross-border 
aerial drug smuggling along the U.S.-Canada border, uncovered one of 
the most brazen criminal schemes ever in which a network of criminal 
smuggling organizations used helicopters to ferry tons of drugs to 
remote wooded locations in Washington and British Columbia.
    Now I know there is violence along the Southern border. Criminal 
enterprises are trying to control their turf for the trafficking and 
smuggling of humans and drugs. That is why Congress and the President 
must do more than simply and opportunistically give lip service to 
securing the border. Since 9-11, House Republicans have rejected 7 
Democratic amendments that would have strengthened our borders by 
increasing personnel and funding for necessary security measures.
    If Republicans had not defeated these Democratic efforts to enhance 
border security over the last four years, there would be 6,600 more 
Border Patrol agents, 14,000 more detention beds and 2,700 more 
immigration agents on the border.
    On December 16, 2005, all 219 House Republicans voting that day 
opposed a Democratic proposal to improve border security and 
immigration enforcement by fulfilling the 9/11 Commission's border 
security recommendations.
    The proposal would have hired more border agents, ended the ``catch 
and release'' practice by authorizing 100,000 additional detention 
beds, and incorporated state-of-the art surveillance technology, 
including cameras, sensors, radar, satellites, and Unmanned Aerial 
Vehicles in order to ensure 100% border coverage, [HR 4437, Vote #660, 
12/16/2005, 198--221].
    In addition, I introduced H.R. 4044, the ``Rapid Response Border 
Protection Act'', to meet our border security needs by providing the 
Border Patrol with the personnel, equipment, and resources they need to 
secure our border. Yet, the Republican leadership in Congress has not 
allowed this bill to move forward.
    When the Administration and Congress obstructs efforts to secure 
the border, states and local governments are left holding the bag. 
Cities and states have to choose between funding schools versus doing 
the Federal governments job of securing the borders.
    The President has acknowledged that our border security needs more 
than just fences and deportations. But we need leadership, not just 
hollow rhetoric, on this issue.
    The public needs to know these facts so that it is not duped into 
believing that Congress and the Administration is now doing--or in the 
five years since 9/11 has been doing--all it can to protect our 
borders.
    I look forward to hearing from the witnesses honest, complete, and 
balanced testimony about the real tools they need to secure our border.
    Thank you Mr. Chairman. I yield the balance of my time.

    Mr. McCaul. The Chair now recognizes the gentleman from 
Texas who is probably more accustomed to sitting where I am 
rather than in the witness chair, Judge Ted Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thanks for having this 
hearing.
    It is great to be back in a Harris County courtroom, 
somewhat going through withdrawals. As soon as I walked in the 
door, I said get a jury to the bailiff, and then we get a jury 
made up of members of the press. I have never had a jury like 
that before.
    But it is great to be back here. Thank you for holding this 
hearing.
    As a member of the International Relations Committee and 
the subcommittee on terrorism, this is a vital, important 
hearing that the country knows exactly what is taking place on 
both our northern and southern borders, and I think if the 
American public was a jury, and they were deciding whether or 
not our government is guilty or not guilty of securing the 
border, our American jury would find the government guilty of 
failure to secure the national sovereignty of the United States 
on both borders, and that is why this hearing is extremely 
important.
    The issue is not legal immigration. The issue is those that 
come to this Nation illegally and what, if anything, should be 
done about that situation. You know, it is still illegal to 
come to the United States without permission and that 
permission is from the American people, the American 
Government, and the Federal Government has failed to secure the 
sovereignty of the United States.
    All of our troopers that are here in this room to testify 
later today do as good a job as the Federal Government will let 
them do, and because of people who come here illegally, some of 
them come here and commit crime. That should not be a surprise 
to anyone.
    We know that three drug cartels that work in Central 
America and Mexico have found a haven for their product in the 
United States, and they cross our southern border to sell that 
cancer among our people. We know those coyotes--what an 
appropriate name for those people, for money, smuggle other 
people, that human cargo, into the United States, but we know 
those coyotes, for a fee, will smuggle anybody in this country, 
including those people who wish to cause us harm, we call those 
people terrorists, and, of course, the gangs and the cartels 
work alongside these individuals.
    It is great to have one of my favorite sheriffs here, 
Sheriff Flores, because the Texas sheriffs do a tremendous job 
on border security, and thank you, Sheriff Flores, for being 
here today to testify.
    But we know that lawlessness on the border breeds more 
lawlessness in the hinterlands of America, including Houston, 
Texas. There are shootings on the border. There are burglaries. 
Our ranchers down on the Texas border lose property, livestock. 
Their homes are burned. That is all crime in America because of 
those people illegally coming in here.
    The GAO now has released a report that has stated that 25 
homicides a day are committed by people in the United States 
illegally in the United States. Twelve of those homicides are 
vehicular homicides for the drivers under the influence of some 
type of intoxicants. The other 13 are just old fashioned 
murders that occur in the United States. That is a staggering 
number of people murdered, both citizens, legal immigrants and, 
yes, even illegal immigrants by people illegally in the United 
States. It is because of the failure of our government to 
secure the dignity and sovereignty of our border.
    There have been 231 incursions by military police in the 
last 10 years into our southern border. Some people deny that 
this is the Mexican military by saying it's people playing 
dress up and wearing Mexican uniforms that come into the United 
States. Tremendous problem.
    This weekend, I spent the weekend with Sheriff Luca Trevino 
of Hidalgo County, another right-thinking American that is very 
concerned about the crime that occurs in Hidalgo County. He 
informed me of a little known fact that just a little over a 
month ago down at Hidalgo County two of his deputy sheriffs 
came under fire from automatic weaponry on the Mexican side of 
the river. These deputies received 300 to 400 rounds of 
automatic fire, fired from the Mexican side of the river, and 
of course, it is a little-known fact because for some reason, 
we do not print the truth that occurs, the lawlessness, on our 
borders.
    50,000 OTMs were arrested in this one county in 2005. 
42,000 of them were released back into our community, and as 
you have said, Mr. Chairman, most of those people with the 
promise to come back to court to have their deportation 
hearing, they did not show up. Why are we surprised? And they 
were from Iraq, Iran, Indonesia and from China, all over the 
world.
    The United States protects the borders of other Nations. 
Why do we not protect our own border? The Federal Government 
has a responsibility to protect the border and prevent 
incursions of those people who come here without permission.
    Our community has become a haven for people who are 
illegally here, and some of those people are committing 
felonies.
    The United States Government has prosecuted and ordered 
deported 135,000 convicted felons that are from eight Nations 
that refuse to take people back. One of those Nations is China. 
Another Nation is India. What I am saying, Mr. Chairman, is 
that these people have gone to our penitentiaries in the United 
States, 135,000. They have been deported or ordered deported 
and eight Nations refuse to take them back. So what happens to 
those individuals? These convicted felons, illegally in the 
country to begin with, are released back into the community 
because of our government's failure to encourage other Nations 
to take lawfully deported individuals back.
    We must do a lot. It is not rhetoric. It is not politics. 
We have the problem. We can solve the problem if the Federal 
Government has the will to support the effort to protect our 
borders.
    And I do want to thank all of the witnesses here from the 
military, to our local folks, to the sheriffs and to the 
individuals that work for the Federal Government, and I yield 
back the remainder of my time. Thank you, Mr. Chairman.
    Mr. McCaul. The Chair now recognizes the gentleman from 
Texas, Mr. Gene Green, for any statement he may have.
    Mr. Green. Thank you, Mr. Chairman, and I would like to 
thank both you and our colleague Congresswoman Jackson-Lee, who 
serves on the Homeland Security Committee. Both Congressman Poe 
and I serve on other committees, and I want to thank the 
chairman for allowing me to have an opening statement, because 
of this effort on these hearings around the country I was told 
about a month ago that unless I showed up at my Energy and 
Commerce hearing, which I was a given a week's notice for the 
hearings in Georgia and Indiana, I could not participate in 
these hearings. So, Mike, let me thank you for working our 
differences out in a Texas way.
    Like Judge Poe, I came to the courthouse for many years on 
behalf of the company I helped manage, but I was never on this 
side of the bench. So it is nice to sit here. I was always in 
front of the bench. It is much better, I can see, sitting here 
than out in front.
    Immigration has been one of the major political topics, not 
only nationally but in the Houston area, for decades. I have 
been honored to represent districts, with most significant 
Hispanic and Anglo populations, for many years, varying 
districts in the State and in Congress.
    I wanted to be present particularly today to express my 
support for my constituents from the 29th district, Mr. and 
Mrs. Ruiz, who will testify in the third panel, who lost a 
daughter in a terrible murder that occurred by someone who was 
here, as far as we know, illegally.
    I am glad to see the committee in Texas listening to our 
local concerns, but I am also worried that these hearings will 
be used to prop up some inaccurate stereotypes and promote some 
counterproductive policies.
    Of the estimated 12 million undocumented people in the 
United States, some of these people have certainly committed 
crimes, including terrible ones like the murder of the Ruiz's 
daughter, and we are working with local Federal law enforcement 
officials and the government of Venezuela to apprehend and 
bring this accused back to trial.
    Undocumented workers and legal residents should know by now 
that if they commit a serious crime or violent crime in our 
country, it is the fastest way to be deported after you pay 
your penalty and serve your time.
    I certainly hope that the majority's purpose with this 
hearing is not to try to blame Texas' crime on our Hispanic 
undocumented immigrants. Almost all of the crime in Nuevo 
Laredo and along the border involve drug traffickers, not 
immigrants.
    I also hope this hearing is not an attempt to support a 
ballot initiative that may or may not be on the ballot in the 
city of Houston to require the Houston police department to do 
the work of the Bureau of Immigration and Customs enforcement. 
The initiative is an unfunded mandate, and I think we will 
learn more about that when our second panel with council member 
Adrian Garcia, Houston Police Department Chief Hurtt testifys.
    Requiring the HPD to enforce Federal civil immigration law 
would mean they would have less time and resources to enforce 
our own State and local criminal law. If the ballot initiative 
passes, witnesses who are undocumented would not want to talk 
to the police or testify. We know that from the history. Legal 
residents and U.S. citizens in these communities will also be 
afraid of HPD because they may have undocumented members of 
their family.
    We do not want a 16-year old citizen who has witnessed gang 
violence, to refuse to talk to the police for fear that his 
mother may be deported.
    I have great sympathy for our witnesses from the border 
areas who are seeing a huge increase in border violence due to 
drug and kidnapping gangs and support their efforts.
    Congress promised an initial 8,000 beds in the 9/11 
Intelligence Reform Act, but Congress failed to put our money 
where our mouth is. Conflicts overseas and recent tax cuts have 
left little money on the table to fund border security 
properly. America must secure our borders and we have to 
sacrifice to do that, and that we should consider. If we are 
going to protect our country, we have to do that.
    The Democrat minority in Congress has offered several 
amendments to add 600 additional border patrol agents and 
14,000 detention beds along the border. When Judge Poe talked 
about the countries that will not take their folks back, then 
there is no reason they should be released into the population. 
They are felons. They ought to be detained here until that 
country, whatever country, will decide to take them back. We 
need to have that bed space.
    Our Texas colleague, Charlie Gonzalez, also offered a 
recent amendment to the House immigration bill to increase 
fines on employers that hire undocumented workers but the 
majority rejected this amendment.
    In 1999, the Clinton administration initiated fines against 
417 companies for hiring undocumented workers. In 2004, the 
Bush administration issued fines to a grand total of three 
companies. I do not think it is gotten any better since 1999. 
So I think we may be blaming the wrong folks for the increase 
in crime.
    The solution to our undocumented worker program is an 
increase in border security and enforcement on employers. I 
hope some of the hearings around the country will hear also not 
just about the criminal problem, but I want to talk about an 
incident, a case in my own district that I hope will get into 
the testimony.
    I had a young United States Marine from our district that 
was killed in Iraq, the first time the Marines went in 
Fallujah. He was a U.S. citizen as one of his sisters. In 
working with his family, we found out that one sister was not a 
citizen and is not a legal resident. His two parents who have 
been coming back and forth across the border for probably 25 or 
so years were not legal and actually had been picked up twice, 
and under our civil law now, if you are picked up once you are 
deported and you have a 5-year bar. You can never come to the 
United States in 5 years, no matter what the reason. If you are 
picked up a twice, you have a permanent bar. So they have a 
permanent bar under current law ever coming to the United 
States.
    I would ask you, those parents are here but do we want to 
have the parents of their son who died in Iraq, who volunteered 
as a United States Marine, be deported to Mexico? I do not 
think that is an issue. I think we ought to have a law that 
would address this, and we cannot do it unless we pass 
comprehensive immigration reform.
    We need to stop the leaks on the border. We need to deal 
with the undocumented population that is here. We need to 
deport the criminals and find the ones who have been here and 
not broken any criminal laws but may have broken our civil 
laws.
    Thank you, Mr. Chairman, again, for being fair. That may 
not be the case, in lots of jurisdictions under our committees.
    [The statement of Mr. Green follows:]

             Prepared Opening Statement of Hon. Gene Green

    Thank you Chairman McCaul and Congresswoman Jackson-Lee for 
allowing me to participate today.
    Immigration has been one of the major topics of political debate in 
the Houston area for decades.
    I have represented districts with significant Hispanic and Anglo 
populations for many years, so I am very interested in this hearing.
    I also wanted to be present to express my support for our 
constituents in the 29th District, Mr. and Mrs. Ruiz, who lost a 
daughter in a terrible incident and will be testifying today on the 
third panel.
    I am glad to see this Committee in Texas listening to our local 
concerns, but I am worried these hearings are being used to prop up 
some inaccurate stereotypes and promote some counter-productive 
policies.
    Of the 12 million undocumented people in the United States, some of 
these people have certainly committed crimes, including terrible crimes 
like the murder of the Ruiz's daughert
    Undocumented immigrants or legal residents should know by now that 
committing a serious or violent crime is the fastest way to be deported 
after you pay your penalty or serve your time.
    I certainly hope that the majority's purpose with this hearing is 
not to try to blame Texas' crime on Hispanic undocumented immigrants.
    Almost all the crime in Nuevo Laredo and along the border involves 
drug traffickers, not immigrants.
    I also hope this hearing is not an attempt to support a ballot 
initiative this November to force the Houston Police Department to do 
the work of the Bureau of Immigration and Customs Enforcement.
    The initiative is an unfunded mandate that will make us less safe. 
I hope we can learn more about that issue from our panelists like 
Councilmember Adrian Garcia and HPD Chief Harold Hurtt.
    Requiring HPD to enforce federal civil immigration law will mean 
they have less time and resources to enforce state and local criminal 
law.
    If the ballot initiative passes, witnesses who are undocumented 
will not want to talk to the police or testify. Legal residents and 
U.S. citizens in those communities will also be afraid of HPD because 
they may have undocumented family members.
    We do not want a 16-year old citizen who witnessed gang violence to 
refuse to talk to the police for fear that his mother will be deported.
    I have great sympathy for our witnesses from the border areas who 
are seeing a huge increase in border violence due to drug and 
kidnapping gangs.
    Congress promised an additional 8,000 detention beds and 2,000 more 
Border Patrol agents in the 9/11 Intelligence Reform Act, but Congress 
has failed to put our money where our mouth is.
    Conflicts overseas and recent tax cuts have not left enough money 
on the table to fund border security properly. America must secure our 
borders, and if we have to sacrifice to do that, then we should 
consider it.
    The Democratic minority in Congress has offered several amendments 
to add an additional 6,600 Border Patrol agents and 14,000 detention 
beds on the border, but these votes have failed due to the Republican 
majority's opposition based on budgetary reasons.
    Our Texas colleague Charlie Gonzalez also offered an amendment to 
the recent House immigration bill to increase fines on employers that 
hire undocumented workers but the majority also rejected his amendment.
    In 1999, the Clinton Administration initiated fines against 417 
companies for hiring undocumented workers. In 2004, the Bush 
Administration issued fines to a grand total of three companies.
    The solution to our undocumented worker program is to increase 
border security and enforcement on employers.
    We need to stop the leaks along the border and then we can deal 
with the undocumented population that is here--deport the criminals and 
fine the law-abiding ones.

    Mr. McCaul. Thank you, Gene. And it is my intention at this 
hearing, really, to get to the facts. No spin zone, no 
politics, let's just hear the facts.
    With that being said, I think it is fitting to set the 
stage at the very beginning of this hearing before the 
testimony to watch a video of real life down on the border in 
Nuevo Laredo, which illustrates the state of violence better 
than anything I could say up here. I would like to show this 
video, and Sheriff Flores, since you are the one who tendered 
the video, if you would narrate the video for us.
    Ms. Jackson-Lee. Mr. Chairman, might I inquire, is this to 
be played on the record.
    Mr. McCaul. Yes, it is.
    Ms. Jackson-Lee. Can the video testimony be submitted into 
the record.
    Mr. McCaul. Yes it can. Please proceed.
    [Video was played.]
    Mr. Flores. Mr. McCaul, distinguished members of the panel, 
I do not think the video is doing justice because of the 
volume. I think if you would have seen the beginning, the 
actual volume of this video, you will get to hear the gunfire 
of this incident that happened in Nuevo Laredo, and this is one 
of many incidents that have occurred in Nuevo Laredo.
    This one specifically is with the AFI, the Mexican 
equivalent to the U.S. FBI, against one of the narco-
trafficking cartels that is taking place on the Mexican border. 
Right now there is a turf battle between two cartels that, at 
least, I understand is in Texas, all the way up to California, 
between two cartels, which is the gulf cartel and the seno 
lauro cartel and that is gun battle. The AFI, which was the 
Federal police against the gulf cartel, and as you can barely 
hear, this gun battle took some time, and just listen to all 
the rounds that were spent during this battle.
    There was cars that was blown up, people that were killed, 
murdered in the streets, and you will actually get to hear one 
of the individuals stating that he is working for his cousin 
and calls him Lobo, Si Quinta Sia, which is known to be one of 
the cartel leaders of the gulf cartel.
    Mr. McCaul. Sir, can you describe the type of weapons 
involved.
    Mr. Flores. As far as we are concerned they are high 
powered weapons, AK-47s, even up to maybe 50 calibers, RPGs. As 
you can see the cars being blown up.
    Mr. McCaul. By rocket propelled grenade.
    Mr. Flores. Yes. The cartel is heavily armed. They have got 
the resources. They have more resources than we do. It is 
unfortunate, but I would like to add that these people who are 
causing this terrorism on the border are not from Nuevo Laredo. 
These are people that are coming from the Interior of Mexico 
who want to take control over the border and pretty much have 
taken control over the border but these are not people from 
Nuevo Laredo and actually the people from Nuevo Laredo are 
moving out of their communities and coming across into Laredo 
do to live, due to the fact of safety issues and concerns.
    We are talking businesses are opening up in Laredo do, 
closing Nuevo Laredo because of the safety and security. Mr. 
McCaul, you can see some of the bodies there but because we are 
not being able to listen, at any time if you wanted to, you can 
go ahead and stop the video.
    Mr. McCaul. I believe the sheriff is correct. I think 
everyone who sees this video and the destruction of bodies get 
the point of the level of violence that we are dealing with. 
This is the reality. This is what is bleeding over into our 
communities. This is the violence coming into the United 
States, and with that having been said, I will ask that we stop 
the video.
    Ms. Jackson-Lee. Mr. Chairman, let me simply acknowledge 
the video can be submitted, but I do want to acknowledge on the 
record that the videotape is of Nuevo Laredo in Mexico, another 
sovereign nation. The video is not of Laredo, Texas, and I 
think it is important that distinctions are made, having had a 
hearing in Laredo, and Sheriff Flores was there. The officials 
in Laredo indicated that they feel that they have their city 
under control, and this does not reflect the violence in 
Laredo, Texas.
    Mr. McCaul. Your comments are duly noted, Ms. Jackson-Lee. 
We will hear more about that from sheriff Flores on that issue.
    Ms. Jackson-Lee. Thank you.
    Mr. McCaul. I would like to say, a picture speaks a 
thousand words, and I think the pictures behind me are speaking 
1,000 words about the state of violence across the border that 
impacts our border, that impacts our communities all across 
this Nation.
    With that having been said, I am pleased to have a 
distinguished panel of witnesses before us today on this 
important topic, and I want to remind the witnesses that their 
entire written statement will appear in the record. We ask, due 
to the number of witnesses on our panel, that you try to limit 
your testimony to five minutes.
    The chair now recognizes the Texas homeland security 
director Steve McCraw for his testimony.

  STATEMENT OF STEVE McCRAW, DIRECTOR, TEXAS HOMELAND SECURITY

    Mr. McCraw. Thank you, Mr. Chairman, and members of the 
committee.
    On behalf of Governor Perry, I want to thank you for 
conducting this hearing here in Houston today. We think it is 
very important you do so, to get out in the field, and it is a 
reminder, and I see Chief Hurtt over here, is that what happens 
on the border certainly impacts the border, but also impacts 
Houston, Texas, and Houston police officers and the Travis 
County Sheriff Department are also faced with the residue that 
comes from the violence at the border.
    Quickly, you did a great job, all members, in terms of 
assessing the threat. I think you have got it nailed. You asked 
what's different than if you worked it 10 years ago, or 20 
years ago or from your career, Chairman, is that the, I will 
call it, ruthlessness and violence is it is a different breed 
in terms of impact.
    In fact, it is better categorized, there is less Mexican 
drug trafficking organizations and more organized crime 
families, not unlike what we saw previously at the height of 
the cosa nostra, the Sicilian mafia, and Russian organized 
crime because they are no longer focused on drugs, and they no 
longer just leave their drugs along the side of the road and 
run for cover. In fact, they get a piece of all the action that 
goes on between those corridors.
    That is why, as Sheriff Flores pointed out most 
appropriately, and he has to deal with it, they are competing 
in the Nuevo Laredo to gain that corridor. Why? Because it is 
organized crime. It makes money and it is not just in terms of 
drug trafficking that it matters. Human smuggling. They are 
getting a piece of it, and it is a very lucrative market. 
People do not realize that you can make anywhere from $2,000 
for a foreign national from Mexico up to 45,000 and beyond 
depending upon country of origin.
    So that is what you are up against right now. That is your 
enemy, Mexican organized crime families that are competing, and 
unfortunately they are the same names I recall 10 years ago 
when there was Vicente Furio Fuentes or Cardenas. We know who 
the enemy is. The difference is they are more ruthless and more 
powerful and well financed, and they are deeply engaged in 
intelligence collection on both sides of the border and can we 
say, yes, they are involved in corruption, and that is the 
situation that we face right now.
    The most significant threat to Texas is two things: 
catastrophic hurricane, number one, and this is the same, one 
in one, and an unsecured unprotected 1246-mile border. Customs 
and Border Patrol protection deserve great credit. The men and 
women everyday are risking their lives. They have been 
outstanding. We are very proud to work side by side with them.
    There are other parts of this threat, and you mentioned it 
very well: Number two, criminals. I think Congressman Poe 
brought that out. It is not just the ones that are attached to 
organized crime. America is the opportunity certainly for the 
economic emigre but it also the opportunity for criminals 
around the world. People from 134 different Nations were 
arrested along the southern border of the U.S. from different 
countries and some of those embedded in there unfortunately are 
criminals.
    The third, OTM, other-than-Mexican nationals, Texas, 
135,045 were arrested in 2005 by border patrol, apprehended. 
That constitutes roughly 85 percent of the OTMs that are 
captured Nationwide, including the northern border, and 
although the northern border, we could agree, is important, we 
need to recognize in terms of the impact on the southern 
border. The most significant threat in the prioritization has 
got to be southern border. In fact, 98.5 percent of all illegal 
apprehensions at the border including coastal, occur along the 
southern border. That is where Mexican organized crime do 
better.
    The other thing is transnational gangs. I never would have 
believed it. In 1995, we saw the first of it when Arellano 
Felix started working with San Diego-based gangs, but who would 
think that we would have MS-13, 80,000 members strong, and 
10,000 members in the U.S. and moving across the country. In 
fact, you know, the Canadians have a problem with MS-13, and 
they are not getting there with help from Alaska. They are 
coming through the southern border into Canada and other parts 
of the east coast. That is a concern.
    That said, what do we do? What is the governor to do? 
Because two things that line up here. It is a national security 
threat because we know that al-Qa'ida and now Hezbollah intends 
to exploit the southern border of our country and Texas to get 
in. So what do we do? And not just do something in terms of 
declare an emergency. Actually do something.
    One thing we found obviously, and I think the sheriffs, two 
of them here today deserve great credit in terms of leadership, 
hey, why don't we, one, work together and, two, what about 
increased patrol presence. It works in urban areas. What about 
along the border? And sure enough, they have demonstrated that 
guess what it does work along the border. Increased patrol 
presence decreases crime, all crime. That is very important.
    These traffickers, organized crime families, they do want 
to lose their human loads or drug loads. It forces them to shut 
down when this patrol presence is in there, and it is not just 
about the crime on American citizens. It is also crime on 
illegal aliens.
    People sometimes forget those that are most often raped, 
robbed and murdered are the illegal immigrants coming here for 
economic reasons, on both sides of the border that cross the 
border. In fact, their biggest friends is law enforcement in 
terms of rescuing them from these types of atrocities that 
occur. That is who comes to their rescue, border patrol, the 
sheriffs out in the middle of you know nowhere and desolate 
areas.
    It is important to remind that when it comes to the threat 
we are not talking about Laredo proper. We are talking about 
between the ports of entry and the sustainment in terms of 
movement across. Those are the key things we just wanted to 
talk about.
    The other part in terms of increased patrol presence if we 
look at the governor's strategy and you mentioned Rio Grande, 
trying to watch my time here, Mr. Chairman, the other parts of 
it is very simple. Increase patrol presence, okay, we have got 
that. What about centralized intelligence, intelligence-driven 
operations? Absolutely. There is no reason not to do that. Bad 
guys do it. We need to be doing it as well. We need to get 
inside the decision-making cycle.
    The third one simply is command and control. We don't need 
to be competing as law enforcement agencies. If the border 
patrol does something and sheriffs do something and highway 
patrol does something, it needs to be coordinated.
    Last, technology, leverage it, information share it across 
the board. Why not? We are confident and I will get back to the 
one recommendation you will get from Texas is simply leverage 
locals, leverage these professionals that know the threat 
better and are charged with protecting their citizens from all 
threats, foreign and domestic.
    [The information follows:]

                   Prepared Statement of Steve McCraw

    Good morning, Mr. Chairman and members of the Committee.
    Thank you for the opportunity to testify before you today on an 
issue of such vital importance to the nation. My name is Steve McCraw 
and I am Governor Rick Perry's Director of Homeland Security for the 
State of Texas.
    Criminal activity and violence along the porous Texas/Mexico border 
is not new to Texans; however, what is new is the escalating national 
security, public safety, and public health implications to our nation. 
In December of 2000, I had an opportunity to testify before the House 
Judiciary Subcommittee on Crime where I discussed the significant 
threat posed by the convergence of organized crime, drug trafficking, 
and terrorism. As I testified then, the convergence was a result of 
world-wide economic, political, social, and technological changes that 
resulted in a more dispersed, complex, and asymmetric threat to our 
nation. I specifically cited the Carrillo-Fuentes Drug Trafficking 
Organization based in Juarez, Mexico, to illustrate how violence had 
become an integral part of drug trafficking activities along our 
southern border. At the time, there were 300 drug related 
disappearances in Juarez, Mexico, including 27 U.S. citizens. In El 
Paso, there were 120 drug related homicides and 73 drug related 
disappearances. I also discussed the emerging alliance between Mexican 
drug traffickers and U.S. based gangs.
    Much has changed since 2000; most significantly, the events of 9-
11. Border related crime has also changed as Mexican Drug Trafficking 
Organizations have transitioned into powerful and ruthless Organized 
Crime Families that now dominate the lucrative U.S. drug and human 
smuggling market.
    Over a year ago, Governor Rick Perry tasked me to conduct a 
comprehensive border threat assessment as a result of the increased 
incidents of violence on both sides of the Texas/Mexico border to 
include the kidnapping and disappearances of U.S. citizens who lived in 
our border cities. That assessment will be the basis of the threat 
portion of my testimony today.
    The border threat is multi-dimensional and can be viewed as five 
interrelated parts; Mexican Organized Crime; transnational gangs; 
foreign criminals; foreign nationals from countries with a known al-
Qa'ida, Hezbollah and Hamas presence; and evolving public health 
concerns.
    For over a decade, U.S. law enforcement has successfully identified 
the leadership and hierarchy of Mexican Drug Trafficking Organizations 
which at one time isolated their criminal activities to drug 
trafficking in specific smuggling corridors along the southern border. 
These organizations were referred to either by the name of the 
organization, such as the Amado-Carrillo Fuentes organization, or 
geographic location, such as the Juarez or Gulf Cartels. These cartels 
engaged in other criminal activity such as violence in support of their 
drug trafficking operations and therefore were not considered Poly 
Crime Organizations similar to the La Cosa Nostra or Sicilian Mafia.
    Now many of these same drug trafficking organizations dominate all 
aspects of the drug trade; production, transportation, and distribution 
and have expanded their operations to other crimes, such as the 
lucrative human smuggling market where foreign nationals are charged 
anywhere from $2,000 to $45,000 per person based upon their country of 
origin.
    The fact is that Mexican Drug Trafficking Organizations of old have 
evolved to the point that they are best characterized as Mexican 
Organized Crime Families rather than drug cartels.
    To protect and expand their criminal operations, Mexican Organized 
Crime Families maintain a highly developed intelligence network on both 
sides of the border and have hired former military commandos. The best 
known group is comprised of former Mexican military commandos known as 
Los Zetas whose trade mark is overwhelming violence and they are 
universally feared by their adversaries and all levels of the Mexican 
government. Once they were strictly hired killers and now they profit 
from their own smuggling operations.
    The employment of former military commandos has had a reverberating 
impact along the Texas/Mexico border in particular, Nuevo Laredo, where 
Organized Crime families are battling for the highly treasured I-35 
corridor into the U.S. At one time, members or associates of Mexican 
Drug Trafficking Organizations would drop the drugs or abandon their 
vehicles when confronted by U.S. law enforcement. Similarly, human 
smugglers would simply give up when approached or stopped on the 
highway. The Mexican Organized Crime Families no longer tolerate such 
compliant behavior and loads of both, drugs and humans, are protected 
by direct confrontations, high speed chases and stand offs at the Rio 
Grande River. Border Patrol Agents are shot at from across the river 
and Troopers and Sheriffs' Deputies are challenged to duals with 
automatic weapons by members and associates of Mexican Organized Crime 
while others retrieve their drug contraband. Mexican Organized Crime 
now employ new highway tactics in Texas and when Police Officers 
attempt to stop a suspect vehicle they are rammed in a coordinated 
attack by other vehicles providing counter surveillance.
    Mexican Organized Crime Families have also corrupted certain 
Mexican military units to transport drugs into the U.S. A Texas Ranger 
investigation confirmed that this has occurred on at least one occasion 
and that there have been other border incursions that the evidence 
strongly indicates were done so by Mexican military units.
    The Mexican Organized Crime families that directly impact Texas are 
well known to U.S. and Mexico law enforcement. Osiel Cardenas Guillen, 
Ignacio Coronel-Villarreal, Joaquin Guzman-Loera, Juan Esparragosa-
Moreno, Arturo Beltran-Leyva, Ismael Zamada-Garcia, Vicente Carrillo 
Fuentes, and Benjamin Felix-Arellano.
    The five Organized Crime Families of Coronel-Villarreal, Guzman-
Loera, Esparragosa-Moreno, Beltran-Leyva and Zamada-Garcia have joined 
together to fight for control of the I-35 corridor in Nuevo Laredo. 
This consortium has been referred to as the ``Alliance.'' The Cardenas 
Guillen and Felix-Arellano families have joined forces to combat the 
Alliance. The result is unrelenting violence in the streets of Nuevo 
Laredo.
    The second area of concern is transnational gangs who now work for 
and with Mexican Organized Crime to conduct enforcement operations on 
both sides of the border. They also conduct their own criminal 
operations including retail drug distribution and human smuggling.
    These gangs include the Mara Salvatrucha, aka MS-13, Mexican Mafia, 
and the Texas Syndicate. MS-13 is the most problematic with 
approximately 80,000 members internationally and approximately 10,000 
members and growing in the U.S. They have long been associated with the 
Mexican Mafia and are well known for their use of torture, 
dismemberment, rape, and execution. Approximately 90% of U.S. MS-13 
members are illegal aliens and depend upon the Texas/Mexico border 
smuggling corridor to support their criminal operations around the 
nation. The Texas Syndicate is a Texas prison gang whose members also 
serve as mercenaries for Mexican organized crime on both sides of the 
border and street level drug distributors in Texas cities.
    The third aspect of the border threat is foreign criminals who come 
to the U.S. seeking crime opportunities. As these violent criminals 
cross the border, they rob, rape, extort, invade homes, and vandalize, 
forcing Texas land owners off their property. At one time, illegal 
aliens were non-threatening and appreciative when Texas land owners 
left them water and food provisions. This is no longer the case as 
Texans are now threatened by armed criminals on their own land. 
Recently in Tyler, Texas, two illegal aliens shot a DPS Trooper five 
times at point blank range after a traffic stop. When they were finally 
captured, it was discovered that they were fully armed wearing bullet 
proof vests and each had been arrested and deported to Mexico on two 
separate occasions. Foreign criminals also prey on other illegal aliens 
who rob, rape, kill, or abandon. On July 17, 2006, Victor Rodriguez was 
sentenced to 20 years in prison for his involvement in the death of 19 
illegal immigrants he was smuggling into the U.S. And on the same day, 
three criminals from Mexico were sentenced for smuggling young women 
and girls from Mexico to the U.S. and then using threats, deception, 
physical force, and coercion to compel their services as prostitutes in 
Houston area bars.
    Since the events of 9-11, Americans have been appropriately 
concerned about the ability of foreign nationals from countries with a 
known al-Qa'ida presence to leverage Mexican Organized Crime 
capabilities to enter the U.S. undetected. Mexican Organized Crime is 
motivated by money and they do not vet paying customers. In fact, there 
is no such thing as a ``no walk list.'' We even have a new term, Other 
Than Mexican Nationals (OTMs) to better delineate this problem. When 
assessing border crime it is important to recognize that International 
Terrorism Organizations are well financed and the high paying customers 
of Mexican Organized Crime are the least likely to be apprehended when 
smuggled into the U.S. The Customs and Border Patrol Fiscal Year 2005 
apprehension statistics illustrates well why all Americans should be 
concerned about the criminal activity along the southern border.
    In Fiscal Year 2005, 98.5% of all illegal alien apprehensions 
occurred along the southern border and 85.84% of all the OTMs arrested 
occurred on the southern border. Texas alone accounted for 87.12% of 
the OTM apprehensions.
    Crime along our southern border brings with it another threat that 
we should closely monitor, disease. In Fiscal Year 2005, the Customs 
and Border Patrol apprehended illegal aliens from 134 different 
countries including several with known disease problems. As the specter 
of pandemic flu looms, it will be increasingly important to secure our 
borders from this public health threat as well.
    Based upon the above assessment, Governor Perry ordered the 
development and execution of an evidence-based strategy to assist the 
Federal Government in securing our border and that it be done so with 
the sense of urgency it warrants.
    State efforts began in November of last year by first leveraging 
the local law enforcement expertise of the 16 Border Sheriffs to 
conduct increased patrols between the ports of entry in their Counties 
funded by the State. In addition, Texas Department of Public Safety 
Highway Patrol Troopers increased their patrols in the border area. 
Governor Perry expanded the scope of Texas border security operations 
in February, 2006, when he launched Operation Rio Grande which is 
comprised of four essential components; increased patrol presence, 
centralized command and control, centralized intelligence, and 
leveraging technology. Governor Perry's objective is to decrease all 
crime within the area of operation which includes all jurisdictions 
within 100 miles of the 1,240 mile Texas/Mexico Border. This, in turn, 
will decrease crime in other areas of Texas and the nation. It has long 
been demonstrated, whether in a rural or urban setting, increased 
visible patrols decreases all crime and is applicable to the Texas 
border region. In addition to more ``boots on the ground'' the State is 
conducting fully integrated, threat based, intelligence driven 
operations to attack criminal activity and deny foreign criminals and 
terrorists easy access to Texas and the rest of the United States. The 
focus is on targeted, short duration, high-intensity operations in 
predetermined hi-value areas. For example, in Operation Del Rio, 
Mexican organized criminal activity ceased in a three county area along 
the border and the crime rate in Val Verde County was reduced by 76% 
and by 27% in Maverick County. Similar results were achieved in 
Operation Laredo. The five county Laredo area operation realized an 
overall crime rate reduction of at least 65%. The fact is these intense 
operations work.
    In Operation Del Rio, four Federal agencies, the Texas Army 
National Guard, DPS and Border Patrol SWAT Teams, four separate 
aviation components, four separate water patrol units, including the 
Texas Parks and Wildlife, and seven different local law enforcement 
agencies participated in this unified effort. The same level of 
participation was evident in Operation Laredo and continued in 
Operation El Paso. Before I continue, I would like to publicly commend, 
on behalf of Governor Perry, the brave men and women of the Border 
Patrol who serve as the cornerstone of all successful border 
operations.
    I am aware that there are many well-intentioned people who view 
increased patrol presence along the border as a threat to law-abiding 
citizens here legally. Some have even downplayed the presence of those 
here illegally based on the fact that many are simply trying to feed 
their families and survive economically. While we can all sympathize 
with the desire, the fact is that you cannot look at someone who is 
crossing the border illegally and determine whether that individual is 
here merely seeking employment and opportunity, or to engage in 
criminal, or even terrorist activity, to harm our citizenry. In a post 
9-11 threat environment, it is imperative that those who cross our 
border illegally are properly vetted.
    The Texas Border Security Operations Center was established to 
centralize the coordination of border enforcement activities and 
operations in order to maximize the impact on the criminal 
organizations and terrorists while at the same time leveraging all 
available resources in a coordinated manner. The Texas Border Security 
Operations Center also provides a centralized intelligence capability 
providing a uniform view of the threat picture and operating 
environment on a 24/7/365 basis. We have learned that our adversaries 
have an extensive intelligence network and it is vitally important that 
we do as well. In fact, I can assure you they are monitoring this 
hearing today in Houston.
    Our Nation's adversaries also leverage technology and so must we. 
The technology plan for the Governor's strategy focuses on four 
essential areas: establishment of a virtual neighborhood watch; 
establishment of an integrated web-based information sharing tool for 
all law enforcement personnel in Texas; radio interoperability capable 
of supporting border enforcement operations; and the placement of live 
scan fingerprint booking stations in every county in Texas. The border 
is receiving many of these technologies on an expedited basis because 
of the threat to public safety that exists there.
    There has been an underinvestment in border security for decades 
which is no longer acceptable in a post 9-11 threat environment. 
Moreover, the scope and magnitude of the terrorism and crime threat to 
our state and the nation requires immediate action leveraging local and 
state expertise and resources. Governor Perry has announced that he 
will work with the Texas legislature to obtain $100 million dollars in 
state funding to support border security activities. The funding is 
needed to support increased numbers of local commissioned officers 
throughout the border region to include salary and benefits and the 
necessary equipment for these officers to include vehicles and weapons 
and air support.
    Let me close by saying this: while it is the responsibility of the 
federal government to enforce our immigration laws, it is wholly within 
the purview of state and local law enforcement to address illegal and 
criminal activity that occurs on Texas soil. And there are numerous 
instances in which a state or local officer, in stopping someone for a 
violation of our state law, determines that a person is in violation of 
federal law by being here illegally.
    This is unavoidable; not only along the border, but in cities and 
towns all across Texas as law enforcement faithfully executes its 
responsibilities. We make no apologies for implementing an aggressive 
criminal apprehension and prevention effort that in effect helps 
federal officials enforce our immigration laws even though that is not 
the specific purpose of our operation.
    Thank you. I would be happy to take your questions.

    Mr. McCaul. Thank you, Mr. McCraw, and I want to commend 
you for your efforts at the State level and the governor for 
your enforcement operations which should be a Federal 
responsibility. I think you all have really stepped up to the 
plate and you should be commended for that.
    Our next witness is Colonel Malesky and the Chair now 
recognizes you.

 STATEMENT OF COLONEL RUSSELL MALESKY, COUNTERDRUG COMMANDER, 
                      TEXAS NATIONAL GUARD

    Colonel Malesky. On behalf of Major General Chuck 
Rodriguez, I want to thank you for inviting us to provide 
testimony for this panel.
    As the commander of the counterdrug task force, I have been 
involved with supporting law enforcement agencies at the local, 
State and Federal agencies for about 16-1/2 years now. I want 
to grab a Yogism here from Yogi Berra, who is the one who said 
you can observe a lot by watching. I have been in a very unique 
position as a member of the Armed Services serving for the 
governor and the adjutant general as a member of the Texas 
National Guard to watch law enforcement, observe how they do 
their business, how committed they are to the job, and how 
daunting the threat is to a small amount of protection to our 
security.
    By providing additional services through the Texas military 
forces, the Texas Army Air National Guard, through the county 
drug program, we provide force enhancement with regard to 
providing aircraft, one vehicular airplane, some helicopters, 
some folks doing investigative case and analytical support to 
the various Interagencies, and in fact, one of those soldiers 
is sitting beside Mr. Pena from immigration and Customs of 
course. He is one of 223 on the counterdrug task force.
    In addition to the counterdrug task force, I have some 
limited oversight of the border support mission. One of the 
other uniform service members, they are in the back of the 
auditorium, who is the commander of the jump start mission, 
which represents approximately 25 percent of 6,000 soldiers and 
airmen from the National Guard who are working in support of 
border protection. So both of those missions we put together 
and call our law enforcement support cadre for the country.
    Texas represents 10 percent of the National Guard's 
counterdrug program. Congress capped that program back in 1990 
at 4,000 soldiers and airmen. Today there are approximately 
1,900 soldiers and airmen serving across the 54 States and 
territories on that counterdrug program.
    I would like to give you some facts, and it is the neat 
thing about being in uniform is that we can stay away from the 
politics and just stick to the facts.
    That one RC-26 that flies out of 147th fire wing in the 
last 10 months provided these numbers to me: 298.7 hours on the 
southwest border, which is 60 percent of their assigned mission 
hours. In that time, the results are the supported apprehension 
of 5,430 pounds of marijuana, 30 pounds of meth, 1,122 pounds 
of coke, 10 drug related arrests, and the byproduct, which we 
cannot claim because we are a counterdrug program, are the 
undocumented alien apprehensions of 173 bodies and 97 that were 
not apprehended because we couldn't get people to respond to 
the crossing and so on. Cash of $40,000, vehicles of eleven, 
and this one stands out in my mind, 16 fully automatic empty 
firearms cases in one recent takedown or weapons and 2,200 
rounds of ammunition in that particular one.
    That is just one element of the counterdrug task force in 
the State. That one airplane flies 1,200-plus miles of the 
border of Texas, and in this case, was able to fly the 200-mile 
segment of the border over 4 hours when the crossings took 
place, like a soda straw, as to focus in that one area. I 
myself fly the airplane and have been on that mission when we 
have been following crossings. While other sensors are going 
off and the border patrol agents in that area are focused on 
what we are looking at, there is further response with the 
additional guardsmen supporting a jump start hoping we could 
kind of help support law enforcement in getting a handle on 
those numbers.
    But the bottom line is the counterdrug task force is very 
small, a very small footprint. The operation jump start 
mission, slightly larger footprint on the southwest border. 
Geared to shut down in 2 years as border patrol hires the 
agents to replace those guardsmen who are in support roles to 
them. So it is force enhancement, force multiplier.
    The counterdrug program 17 years ago was stood up to being 
a force enhancement, a force multiplier for just a couple of 
years. Here we are 16 years later, still focused because over 
those 16 years we have developed military unique skills that 
work hand in hand with the Interagency partners of law 
enforcement.
    I am sure Mr. Pena would stand up since he has got a 
guardsman in the room and support what the National Guard has 
provided. Just 2 days ago, at one of the points there in 
Falfurrias 4,000 pounds of marijuana was apprehended in a 
tractor trailer. The guardsmen on the Operation Jump Start 
mission helped support that. That marijuana in that case was 
turned over to the DEA in Corpus Christi, where counterdrug 
investigative and analytical support personnel like the 
sergeant here are assigned to now further work that case for 
the DEA.
    So as the National Guard, we get the very unique 
opportunity to cross the Interagency barrier with uniforms that 
don't say DEA, Customs and border protection, FBI, narcotic, 
DPS, or whatever. We are the Texas Air National Guard, and we 
help in many ways bring the Interagency together through our 
relationship.
    As I close my testimony, I will end with a Yogism, the 
future ain't what it used to be. That is another way of saying 
in our realm tomorrow is a lot more scarier than it was 
yesterday because I have had a chance to see it firsthand.
    Thank you, sir.
    [The information follows:]

                 Prepared Statement of Russell Malesky

Purpose and scope: Provide an overview of the Texas Military Forces 
Joint Counterdrug Task Force (JCDTF) and demonstrate adaptability of 
Counter Drug resources to Homeland Security (HLS).

        1. The mission of the JCDTF is to provide highly trained and 
        experienced military personnel and equipment to support the Law 
        Enforcement Interagency effort as well as community 
        organizations to reduce supply and demand of and for illegal 
        drugs. The JCDTF currently consists of 148 Army National Guard 
        soldiers and 75 Air National Guard airmen on full time National 
        Guard Duty active duty status and seven Air National Guard 
        Active Guard Reserve (AGR) officers, all serving pursuant to 32 
        USC, under the Command and Control of the Governor and Adjutant 
        General of Texas, Major General Charles G. Rodriguez. These 
        personnel additionally serve in drilling/reserve status in 
        their military occupations while also in support to Law 
        Enforcement Agencies (LEAs) and Community Based Organizations 
        (CBOs).

                a. The Texas National Guard provides CD support to the 
                Texas Department of Public Safety, U.S. Drug 
                Enforcement Administration, U.S. Postal Service, DHS-
                CBP/ICE, the Federal Bureau of Investigation, the 
                Internal Revenue Service, other Federal and State drug 
                law enforcement forces, interagency Task Forces, County 
                Sheriff's Offices, and local police departments 
                throughout Texas. We are a broad interagency support 
                Task Force detailed in an annual State Plan approved by 
                the Adjutant General, State Attorney General and 
                Governor. Activities can be categorized into three 
                major functional areas: Supply Reduction, Demand 
                Reduction, and oversight of the National Guard 
                Substance Abuse testing program. The commander of 
                Counterdrug also maintains over sight of the Texas 
                STARBASE and ChalleNGe programs and is appointed by the 
                Governor as Texas' Law Enforcement Support Office 
                (LESO) Coordinator to transfer surplus federal 
                equipment to State and local agencies. Specific program 
                mission categories include support to CBOs and 
                educational institutions, youth leadership development, 
                coalition development and support, information 
                dissemination, investigative case support, intelligence 
                analysis, linguist support, photo development and 
                interpretation, aviation and ground reconnaissance, and 
                marijuana eradication. All of these programs are funded 
                by a Fiscal Year 2006 (FY06) budget of approximately 
                17.0 million dollars with the exception of the 
                separately Federal and State funded ChalleNGe and 
                STARBASE programs in Galveston and Houston, TX.

                b. The mission of the Drug Demand Reduction (DDR) 
                program is to organize and/or expand community efforts 
                to form coordinated and complementary systems that 
                reduce substance abuse in Texas. In FY05, TX-CD reached 
                more than 50,000 people in Texas with a drug prevention 
                message. Over 95% of these individuals are teenagers.

                c. Supply reduction activities consists of a variety of 
                CD missions in direct support of local, State, and 
                Federal law enforcement throughout Texas. Providing 
                unique military-oriented skills, the program is clearly 
                a force-multiplier for LEAs. The types of support 
                provided are diverse, focusing primarily on 
                investigative and interdiction efforts. For FY05, the 
                JCDTF was involved in locating and seizing 1,277 
                marijuana plants, 1,610,731 pounds of processed 
                marijuana, 138,672 pounds of cocaine and 313 pounds of 
                methamphetamine, 32,627 doses of ecstasy and other 
                drugs for a total street value of $934,222,550.00. To 
                date in FY06, the JCDTF has been involved in locating 
                and seizing 20 marijuana plants, 198,245 pounds of 
                processed marijuana, 84,171 pounds of cocaine, 269 
                pounds of methamphetamine, 5,862 doses of ecstasy and 
                other drugs for a total street value of 
                $716,149,451.00.
                        (1) Investigative support is provided in 
                        several different categories and helps tie 
                        Federal, State, and local agencies together by 
                        a network of Guardsmen spanning the interagency 
                        effort. Case support primarily focuses on file 
                        documentation and management, while LEA tasked 
                        and supervised Guard intelligence analysts 
                        employ advanced analytical skills to provide 
                        the interagency effort with tactical 
                        interdiction and investigative options.

                d. As part of its supply reduction efforts, surface and 
                air reconnaissance/observation draws on unique military 
                skills and equipment that various LEAs do not possess. 
                Highly trained personnel and aviators monitor 
                activities in remote drug corridors to include the 
                Border. Rotorcraft and fixed wing aircraft with thermal 
                imaging equipment, night vision devices, and high-tech 
                communications equipment operate to provide invaluable 
                information and support to LEAs.
                        (1) The JCDTF operates four TXARNG OH-58 
                        helicopters as part of its Counter Drug 
                        Aviation Element (CDAE). These aerial 
                        reconnaissance helicopters are equipped with an 
                        infrared thermal imaging system, a daylight TV 
                        camera, a law enforcement compatible Wulfsburg 
                        radio, and a Global Positioning System. After 
                        dark, they can be flown using Night Vision 
                        Goggles as well as a 30 million candlepower 
                        Nitesun. Additionally, they possess a video 
                        downlink capability.
                        (2) The JCDTF tasks one ANG Fairchild RC-26 
                        reconnaissance aircraft assigned to the 147FW, 
                        Houston, TX. Capabilities of this aircraft 
                        include a color TV imager with up to 900mm zoom 
                        and a state of the art thermal imaging system 
                        with remarkable clarity. Reconnaissance 
                        accuracy is significantly enhanced by the RC-
                        26's moving map display and high-resolution 
                        digital and color photo capability. The 
                        aircraft can stay airborne for several hours at 
                        a time and is ideally suited for aerial 
                        detection and monitoring. The radio 
                        communications suite includes secure voice 
                        Global Wulfsburg and 800Mhz capabilities. In 
                        times of National emergency, Counterdrug 
                        Aviation Element (CDAE) (OH-58) and RC-26 
                        aircraft provide critical command, control and 
                        coordination to law enforcement and rescue/
                        recovery operations, such as during the 
                        February 2003 Shuttle Columbia accident and the 
                        September, 2005 Hurricane Katrina search and 
                        rescue operation.
                        (3) The Special Observation Detachment (SOD) 
                        conducts low visibility observation and 
                        reconnaissance of Named Areas of Interest 
                        (NAIs) in support of Federal, State and local 
                        CD operations. (SOD) provides initial mission 
                        planning and coordination, command and control, 
                        field operators, and support personnel. (SOD) 
                        can deploy a single operator, a small element, 
                        or the entire detachment in support of the 
                        approved request. These personnel can be 
                        available within 2 hours of the request for 
                        deployment anywhere in the state of Texas to 
                        provide discreet photo, video, microwave and 
                        thermal imagery while establishing its own 
                        short range, secure voice VHF communications 
                        net that quickly adapts to interface with law 
                        enforcement VHF nets. (SOD) also trains LEAs in 
                        military skills critical to CD operations 
                        extremely applicable to Homeland Security.

                e. The Program also provides oversight for National 
                Guard substance abuse testing as part of the Internal 
                Substance Abuse Prevention Program in Texas which 
                consists of over 20,000 soldiers and airmen. The 
                Counterdrug Commander manages the substance abuse 
                program for the Texas Army and Air National Guard. The 
                substance abuse staff assigned to the program provides 
                administrative and logistical support to units while 
                overseeing the execution of individual drug testing 
                programs. Counterdrug personnel also provide 
                qualification training and expertise to drug testing 
                personnel at the unit level.

                f. The Texas Counterdrug President's Budget (PB) for 
                FY06 is $16.4 million. This budget is disbursed from 
                federal funding supporting all of the program's supply 
                and demand reduction activities to include 100% of the 
                223 service members' salaries. Every year the National 
                Guard Bureau disburses a Congressional supplemental at 
                their discretion. In the past, Texas has received a 10% 
                budget increase; this year Texas only received a 5% 
                increase to the budget.

        2. Considerations for Future JCDTF Application: This year the 
        JCDTF was heavily depended upon to leverage the initiation of 
        the Operation Jump Start (OJS) mission although funding was 
        required to be kept separate. National Guard Bureau Legal 
        Counsel determined Operation Jump Start was not sufficiently 
        related to narcotics, thus, for fiscal law reasons, the two 
        missions must be kept separate. In years past the JCDTF has 
        supported the Border Patrol under a clear drug nexus along the 
        Southwest Border. The ``by-product'' of CD support involved 
        deterring illegal immigration and facilitating counter-
        terrorism. Historical mission requests show that prior to OJS, 
        legal concerns were not emphasized that detoured Counterdrug 
        resources from supporting non-CD illegal activities as long as 
        original intent was CD focus. The OJS mission, though 
        separately funded, is already being partially measured 
        according to volume of additional illicit drug traffic seized. 
        The National Guard's current support of OJS is significantly 
        multiplying the effectiveness of USCBP and other law 
        enforcement agencies along the southern border with Mexico.
                a. In closing, based on seventeen years of JCDTF 
                experience several key factors are evident: 1) the 
                capabilities brought through operational daily National 
                Guard activity support roles to LEAs; 2) unique 
                military skill sets and technology provided to LEAs 
                that otherwise would not be available; 3) and the 
                continually developing and evolving unique Counterdrug 
                domestic military adaptability built through a daily, 
                operational active duty synergistic support with the 
                Interagency effort has matured the Joint Army and Air 
                National Guard Counterdrug mission into a premiere 
                interagency planning, coordination and executing 
                support capability. Strictly defining JCDTF's mission 
                capability according to funding restrictions limits 
                Homeland Security, stalls the flexibility of funding 
                necessary to keep the mission continually adaptable, 
                and creates unnecessary legal impediments to commit 
                proven capabilities to requirements (broader yet 
                related somewhat to CD) that are critical during time-
                sensitive scenarios. The Counterdrug mission can remain 
                the Counterdrug mission while adapting through 
                increased authority and further incremental funding for 
                it's law enforcement support role, to provide Homeland 
                Security through 1) Counterdrug, 2) Counter-Terrorism 
                and 3) Other assigned civil-military security measures 
                under local, State and Federal tasking modeled after 
                the highly successful CD mission. So that one agency is 
                not prioritized over another, percentages might be 
                assigned to support the various Interagency partners 
                who have come to depend on Counterdrug capabilities 
                according to what they are capable of doing. Today, 
                Counterdrug is a funding statement and not a 
                capability. It is now time to broaden explicitly the 
                allowable use of Counterdrug personnel and resources 
                for employment broadly against fast evolving threats to 
                our homeland brought on by adverse natural conditions 
                and sinister enemies, none who are bound by self 
                imposed funding application. The JCDTF capability 
                should be re-titled as National Guard Support to 
                Homeland Defense and Security.

Purpose and scope: Provide an overview of the Texas Military Forces 
Joint Task Force Texas Border Support (JTFTX-BS) support to the United 
States Border Patrol.

        1. The mission of the JTFTX-BS is to provide highly trained and 
        experienced military personnel and equipment to support the 
        United States Border Patrol in five sectors along the 
        Southwestern Border of Texas. The five sectors are Rio Grande 
        Valley, Del Rio, Laredo, Marfa, and El Paso. Within the five 
        sectors are forty-three locations were the Texas Military 
        Forces are providing support to Border Patrol, but are not 
        engaged in direct law enforcement duties. The JTFX-BS currently 
        consists of approximately 1,500 Army National Guard soldiers 
        and Air National Guard airmen on full-time National Guard duty 
        status all serving pursuant to 32 USC, under the Command and 
        Control of the Governor and Adjutant General of Texas, Major 
        General G. Charles Rodriguez.

        2. JTFTX-BS provides assistance to the Border Patrol in the 
        following missions: Clerical / Administrative, Law Enforcement 
        Communications Assistant (Dispatcher), Welder, Fleet Porter, 
        Control Room Operator, Mechanics, Supply NCO, Light Set 
        Servicing, Electronic/Technical Support, Camera Operator, 
        Sensor Support, Scope Truck, Sky Box / Sky Watch Tower 
        Operators, Security, Range Safety Officer / Armorer, 
        Engineering, Checkpoint Support, Criminal Analysis, Information 
        Analyst, and Entry Identification Team.

        3. JTFTX-BS support to law enforcement has resulted in 165 
        United States Border Patrol agents being returned to duty 
        outside station headquarters.

        4. With regards to the deployment of soldiers in assistance to 
        U.S. Border Patrol, apprehensions of Undocumented Aliens are 
        down in each of the five Border Patrol Sectors compared to the 
        same time in 2005 and 2004. There has been a considerable 
        increase in the seizures of narcotics in both the Rio Grande 
        Valley and El Paso sectors, as measured and reported by USCBP.

        5. Each BP Sector is reporting a noticeable increase in the 
        effectiveness of their wheeled vehicle garages. Sectors are 
        reporting they are receiving vehicles repaired and back in the 
        field anywhere from 35% to 50% more quickly since the arrival 
        of the Texas National Guard in their sectors.

        6. JTFTX-BS also is supporting the U.S. Border Patrol with 
        aviation and engineer support based on requests from the Border 
        Patrol Chief within each of the five sectors in Texas.

In closing the Texas Military Forces are having a positive effect on 
the security of the Southwest Border of Texas. The relationship between 
Texas National Guardsmen with the United States Border Patrol has been 
excellent.

    Mr. McCaul. Thank you, Colonel, and I want to thank you for 
your efforts and the Texas National Guard. I had the good 
fortune of working with your unit before I was elected to 
Congress, and I want to applaud your efforts and I am fully 
supportive.
    Next, we will hear from our good friend from Laredo, 
Sheriff Flores.

 STATEMENT OF SHERIFF RICK FLORES, SHERIFF, WEBB COUNTY, STATE 
                            OF TEXAS

    Mr. Flores. I wrote a speech and told I had 5 minutes. I am 
not going to go with my speech. I am going to speak from the 
heart.
    We have been having the battle with this type of terrorism 
along our border, and I am saying we, our colleagues, the 
Sheriffs Coalition, the Texas Border Sheriffs Coalition or the 
Southwest Sheriffs Coalition, have been battling with narco-
traffickers and drug cartels for a very long time. We have been 
dealing with these people for a very long time.
    And I am going to qualify what Ms. Jackson-Lee said. I am 
not concerned about the violence that is occurring in Nuevo 
Laredo. What I am concerned about is that these people have 
more resources than we do on this side. These people have 
rocket propelled grenades. They have got automatic assault 
weapons. They wear level four body armor and Kevlar helmets, 
actually, what our people in Iraq are wearing, and we don't 
have that type of equipment along the border.
    We are first responders. Anytime somebody calls 9/11, it is 
we, local law enforcement, who respond to the calls. It is not 
border patrol. It is not ATF. It is not FBI, DEA. It is local 
law enforcement who respond. We do not have the resources along 
the border to protect our border or to continue to protect our 
borders.
    And she is absolutely correct, the violence is not in 
Laredo. Thank God that we have it contained, but you know what, 
these people are willing to make a quick buck with people who 
are interested in coming to Mexico and use Mexico as a jumping 
board to come into the United States of America. The country 
that I love, that we all love Ms. Jackson-Lee, and I am 
concerned about the fact that the people are making their way 
through Mexico are people that are not interested in coming to 
work.
    Mexicans, and I will say this and make this clear, Mexicans 
are not terrorists. Many, most come to work. It is the other 
than Mexicans that we are concerned with, that I am concerned 
with, and that these people are willing to pay narco-
traffickers to come into this country.
    I have got a wife and two kids, and I work along the 
border. Do you think that those people want my head on a plate? 
Well, let me just tell you, in the 18 months that I have been 
in office, we have confiscated $17 million worth of narcotics, 
just the sheriff's department alone, $1.5 million in cash. And 
if they really wanted, they could get to me, they could get to 
Sheriff Jernigan and the rest of the sheriffs who are trying to 
protect our borders and who are interrupting their business.
    Thank you.
    The Mr. Flores's prepared statement is maintained in the 
committee file.
    Mr. McCaul. Sheriff, thank you for your heartfelt, sincere 
testimony. I want to personally thank you for what you do 
everyday on the front lines in this great struggle and in what 
I believe is a war, and as you know, in the bill we passed out 
of the House, we do provide funding and resources for the 
sheriffs.
    Notes
    Mr. Flores. Thank you.
    Mr. McCaul. Next, the Chair now recognizes Mr. Alonzo Pena, 
the Special Agent In Charge of U.S. Immigration and Customs 
Enforcement.

STATEMENT OF ALONZO PENA, SPECIAL-AGENT-IN-CHARGE, IMMIGRATION 
    AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Pena. Chairman McCaul, Representative Sheila Jackson-
Lee and the other Members, thank you for providing me the 
opportunity to speak with you today about U.S. Immigration and 
Customs Enforcement, better known as ICE, our efforts to combat 
border violence in south Texas.
    ICE is the largest investigative agency within the 
Department of Homeland Security, and our mission is to protect 
the American people by combating terrorism and other criminal 
activities that cross our borders and threaten us here at home. 
The men and women of ICE accomplish this by enforcing our 
Nation's Immigration and Customs laws.
    Our southern border is particularly vulnerable to cross-
border criminal activity committed by criminal enterprises 
whose primary motive is to make money. The crimes we see, 
murder, hostage taking, alien smuggling, contraband smuggling 
and money laundering, are all methods that the criminals use to 
gain and expand their market share to maximize profits of their 
criminal enterprises.
    At this time, I also would like to show a short video clip 
of the 2003 arrest of Oziel Cardenas-Guillen in Matamoros, 
Mexico, the border city located directly across the 
international bridge from Brownsville, Texas. The video 
provides a graphic image of the level of violence utilized by 
the cartels across the border.
    Mr. McCaul. Without objection, so ordered.
    [Video shown.]
    Mr. Pena. Thank you. ICE is acutely aware of the violence 
along both sides of the border. In January of 2006, in direct 
response to an increase in the violence, Secretary Chertoff 
announced the creation of an ICE-led border enforcement 
security task force, better known as BEST. The first task force 
was established in Laredo, Texas, to address the growing 
incidence of violence associated with cross-border smuggling.
    The BESTs routinely develop intelligence-driven 
investigations which focus on primary targets engaged in cross 
border crime. The BEST in Laredo incorporates personnel from 
ICE; Customs and Border Protection; Alcohol, Tobacco, and 
Firearms; the Drug Enforcement Administration; Federal Bureau 
of Investigation; the U.S. Marshal Service; police in Mexico, 
Laredo police department and other key State and local law 
enforcement agencies such as the Webb County Sheriff's 
Department, who is represented here today.
    This coordinated approach among Federal, State and local 
law enforcement officers has led to significant enforcement 
successes. For example, in January of this year, ICE agents 
from our Laredo office, along with ATF agents, Laredo Police 
Department Officers assigned to BEST, arrested several suspects 
for Federal firearms violations and executed Federal search 
warrants at two local residences and a commercial storage 
locker, resulting in the seizure of 10 live hand grenades, nine 
pipe bombs, a cache of fully automatic weapons to include AK-
47s, parts to manufacture automatic weapons, a silencer, 86 
grenade casings and numerous other grenade components. In 
addition to the weapons, methamphetamine and cocaine was also 
seized at the residence.
    Since the announcement of the BEST in Laredo, and in light 
of its great success, ICE and Customs and border protection has 
launched a second BEST in Arizona. We anticipate the additional 
task forces will be established along the southwest border in 
locations between 2006 and 2007.
    ICE agents face numerous challenges in the battle to combat 
crime and violence along the border. However, the violence 
often extends beyond the border and into the interior of our 
country. Transnational street gangs, often comprising foreign 
born members, pose one of the biggest threats to the safety and 
security of our towns and cities. Many of these violent gangs 
actively engage in human contraband and human smuggling, 
bribery, extortion, rape and murder.
    In response to this threat, in February of 2005, ICE 
initiated ``Operation Community Shield.'' As part of this 
effort, ICE frequently partners with State and local law 
enforcement and other Federal agencies, including ATF, Customs 
and Border Protection and the FBI, to combat violent street 
gangs.
    To date, ICE's efforts in Community Shield have resulted in 
the arrest of 369 transnational gang members in Texas and 3,354 
nationwide, and the majority of these individuals are foreign 
nationals, illegally present in the United States, and 
approximately half of these apprehended have violent criminal 
histories.
    As I stated earlier, criminal enterprises are businesses 
that engage in criminal activity to make as much money as 
possible. ICE is uniquely equipped with the skills and 
expertise to target these and focus our investigations on the 
financial lifeblood of these violent criminal border 
organizations. We aim to hit them where it hurts, and that is 
their wallets, to undermine their ability to fund their 
criminal activity and to employ their accomplices. The value of 
assets seized in immigration related cases has increased 
dramatically from little to none before ICE was created in 
March of 2003 to $34.3 million in fiscal year 2006.
    I hope my remarks have been helpful and informative, and I 
thank you for inviting me, and I am glad to answer any 
questions you may have.
    Mr. McCaul. Thank you, Mr. Pena. I appreciate your efforts 
as well.
    [The statement of Mr. Pena follows:]

                   Prepared Statement of Alonzo Pena

    Chairman McCaul, Ranking Member Etheridge and Members of the 
Subcommittee, thank you for providing me the opportunity to speak with 
you today about the Department of Homeland Security's U.S. Immigration 
and Customs Enforcement's (ICE) efforts to combat border violence in 
Texas and throughout the United States.
    ICE is the largest investigative agency within the Department of 
Homeland Security (DHS). Our mission is to protect the American people 
by combating terrorism and other criminal activities that cross our 
borders and threaten us here at home. The men and women of ICE 
accomplish this by enforcing our nation's immigration and customs laws. 
Working overseas, along our borders, and throughout the nations's 
interior, ICE agents and officers are demonstrating that our merged 
immigration and customs authorities constitute an effective tool 
against those who attempt to, or succeed in, penetrating our borders. 
Using these combined authorities, ICE has built a robust enforcement 
program along the borders and within the nation's interior and is 
working with our partners at U.S. Customs and Border Protection (CBP) 
and U.S. Citizenship and Immigration Services (USCIS) to identify 
criminal activities and eliminate vulnerabilities that pose a threat to 
our nation's borders, as well as economic, transportation and 
infrastructure security. However, to fully address these threats, we 
need comprehensive immigration reform that increases border security, 
establishes a robust interior enforcement program, creates a temporary 
worker program, and addresses the problem of the estimated 11 to 12 
million illegal immigrants already in the country.
    Our southern border is particularly vulnerable to cross-border 
criminal activity committed by criminal enterprises whose primary 
motive is to make money. The crimes we see--murder, hostage taking, 
robberies, drug smuggling and money laundering--are all methods that 
criminals use to intimidate and/or dominate rival criminal groups and 
law enforcement to maximize the profits from their criminal activities.
    ICE is acutely aware of the violence along both sides of the 
border. In January 2006, in direct response to this increased violence, 
Secretary Chertoff announced the creation of ICE-led Border Enforcement 
Security Task Forces (BESTs). The first task force was established in 
Laredo, Texas to address the growing incidence of violence associated 
with cross-border narcotics smuggling. With ICE and Customs and Border 
Protection (CBP) as core partners, the BESTs routinely develop 
intelligence-driven investigations that focus on priority targets 
engaged in cross-border crime. The BEST in Laredo incorporates 
personnel from ICE, CBP, the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF), the Federal Bureau of Investigation (FBI), Drug 
Enforcement Administration (DEA), U.S. Marshals Service, U.S. 
Attorney's Office, and key state and local law enforcement agencies.
    This coordinated approach among federal, state, and local law 
enforcement officers has led to significant enforcement successes. For 
example, in late January of this year, ICE agents from our Laredo 
office, along with ATF agents and Laredo Police Department officers 
assigned to BEST, arrested one suspect for federal firearms violations 
after he sold a fully automatic AK-47-type assault rifle and 
approximately 26 grams of cocaine to an undercover ICE agent. along 
with this arrest, BEST agents executed a federal search warrant at a 
residence and seized a cache of automatic weapons, parts to manufacture 
automatic weapons, a silencer, and other firearms related items. The 
agents also seized 1.5 pounds of methamphetamine, approximately one 
pound of cocaine, and other paraphernalia related to drugs and guns.
    The next day, BEST task force agents--acting on information from 
the FBI--executed a federal search warrant for a commercial storage 
locker used by the defendant's associates. Agents seized five grenade 
shells, nine pipe bombs, 26 grenade triggers, 31 grenade spoons, 40 
grenade pins, and other parts that are used to assemble explosive 
devices.
    A week later, ICE agents from Laredo, working with ATF agents and 
Laredo police officers, executed a federal search warrant at a related 
residence and seized 81 grenade casings, ten live grenades, two AK-47 
assault rifles, on Uzi submachine gun, and miscellaneous items. 
Following these seizures, BEST task force agents arrested a second 
subject for federal firearms violations four days later.
    Since the announcement of the BEST in Laredo and in light of its 
great success, ICE and CBP have launched an additional BEST in Arizona. 
We anticipate that additional task forces will be established in other 
Southwest border locations throughout 2006 and 2007.
    ICE actively investigates all manners of smuggling. In a recent 
incident in Hudspeth County, Texas, several individuals wearing 
military-style camouflage clothing and carrying long guns provided 
protection for a cross-border narcotics smuggling attempt. At least one 
vehicle employed by the smugglers was a military-style vehicle more 
popularly known as a ``Humvee'' or ``Hummer.'' Regardless of the 
affiliation of the individuals involved, the Hudspeth incident was 
dangerous in light of the repeated and regular incidents of violence by 
armed smugglers and the tensions this creates for U.S. law enforcement 
agencies and citizens who live near the border.
    ICE agents face numerous challenges in the battle to combat crime 
and violence along the border. However, violence often extends beyond 
the border and into the interior of our country. Transnational street 
gangs, often comprising foreign-born members, pose one of the biggest 
threats to the safety and security of our towns and cities. Many of 
these violent gangs actively engage in human and contraband smuggling, 
robbery, extortion, rape, and murder.
    In response to this threat, in February 2005, ICE initiated 
Operation Community Shield. Initially, Community Shield targeted the 
MS-13 street gang, one of the largest and most violent gangs of its 
kind. However, because of ICE's great success in combating MS-13, the 
program as soon expanded to encompass investigation of all 
transnational criminal street gangs. As part of this effort, ICE 
frequently partners with state and local law enforcement and other 
federal agencies--including ATF, CBP, and the FBI--to combat violent 
street gangs.
    To date, ICE's efforts in Community Shield have resulted in the 
arrest of 369 transnational gang members in Texas and 3,354 nationwide. 
The majority of these individuals are foreign nationals illegally 
present in the United States, and approximately half of those 
apprehended have violent criminal histories. Under Community Shield, 
ICE has initiated the removal of those gang members who are illegally 
present in this country or who have otherwise violated their 
immigration status.
    The violence associated with illegal immigration and our borders is 
not limited to transnational gang members, however. It also affects 
innocent victims who are smuggled into and throughout the United 
States, and of course, those who die during their journey. In case 
after case, smugglers and traffickers show an utter disregard for the 
lives of those they exploit. Many try to flee poverty or abuse, only to 
be forced to travel in squalid conditions without adequate food, water, 
or even air. Moreover, their smugglers frequently subject them to 
brutal abuse, forced labor, and sexual exploitation after arriving at 
their destination.
    In one human smuggling case in Houston, Texas, a smuggler 
attempting to extort a smuggling fee dragged a relative of one of the 
migrants to his death behind a speeding car. The smuggler then 
threatened the migrants themselves with a handgun and, after a 
struggle, his weapon discharged. Fortunately, ICE's investigation, 
conducted in collaboration with the Houston Police Department, led to 
the rescue of the smuggled migrants and the arrest of the smuggler. Of 
note, the investigation disclosed that the gun used in this incident 
had been used in another murder of an undocumented migrant in Texas.
    In one particularly disturbing trafficking case in McAllen, Texas, 
two smuggled women from Central America were found on the side of a 
road beaten and without clothing. Their captors intimidated the victims 
by firing bullets into the walls and ceiling as they raped them. ICE's 
enforcement efforts led to the rescue of two additional victims and the 
arrest of seven traffickers. The lead defendant was sentenced to 23 
years imprisonment, one of the longest sentences ever obtained under 
the Trafficking Victims Protection Act.
    As I stated earlier, criminal enterprises are businesses that 
engage in criminal activity to make as much money as possible. ICE is 
uniquely equipped with the skill and expertise to target and focus 
investigations on the financial lifeblood that sustains the violent 
criminal border activities. We aim to hit them where it hurts--their 
wallets--to undermine their ability to fund criminal activity and 
employ their accomplices. The value of assets seized in immigration-
related cases has increased dramatically, from little to none before 
ICE was created in March 2003, to $34.3 million so far in Fiscal Year 
(FY) 2006.
    From the start of FY 2005 to May 31, 2006, ICE human smuggling and 
trafficking investigations yielded approximately 4,900 criminal 
arrests, 2,400 indictments, and 2,500 convictions. Last fiscal year 
alone, our drug investigations resulted in the seizure of more than 
275,000 pounds of cocaine, 1 million pounds of marijuana, nearly 3,300 
pounds of heroin, 3,400 pounds of methamphetamine, and thousands of 
pounds of other smuggled drugs. These successes have disrupted violent 
smuggling organizations by taking away their product and their profits.
    While ICE is a relatively new agency, with newly integrated 
authorities, many of our agents and officers have a long history in the 
field, with extensive experience gained from previous federal law 
enforcement service. We are leveraging the best of the former agencies' 
expertise, cultures, and techniques to build ICE into a federal law 
enforcement agency that is greater and more effective than the sum of 
its parts. In case after case, our agents and officers put into 
practice the powerful advantages that flow from our merged authorities 
and use them on behalf of the American people. The net result is a 
greater contribution to the Nation's national security and public 
safety.
    I hope my remarks today have been helpful and informative. Thank 
you for inviting me, and I would be glad to answer any questions you 
may have at this time.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. McCaul. Next, I would like to introduce another 
sheriff, a great American, Sheriff Jernigan from Del Rio, 
Texas.

 STATEMENT OF A. D'WAYNE JERNIGAN, SHERIFF, VAL VERDE COUNTY, 
                             TEXAS

    Mr. Jernigan. Good morning, Chairman, committee members. I 
want to thank each of you for your service to our country and 
what you all are doing.
    My written testimony and its attachments provide you just a 
thumbnail view of the organizations and their weaponry that is 
currently engaged in the violent trade of illegal drugs and 
human smuggling on the Texas/Mexico border.
    Just recently in Val Verde County, illegal aliens were 
apprehended during a burglary near the port of Langtry. One of 
the aliens fled on foot and was apprehended by deputies and 
agents of the Border Patrol. The alien who was apprehended 
inside the residence was later identified as a career criminal 
with a 24-page rap sheet. His criminal career included offenses 
in Florida and Texas. His clothing was still wet from his 
illegal entry, crossing the Rio Grande River.
    June 7, 2006, just recently, saw an increase in the 
violence in the city just across the river from Del Rio, Cuidad 
Acuna. Armed subjects attempted to take a male subject who was 
in the custody of Mexican police officers in their marked 
police vehicle. A uniformed officer was killed and several 
officers were wounded and one of the armed subjects, who was 
identified by Mexican authorities as a narcotrafficker, was 
also killed in the confrontation.
    Prior to this incident, I had been visited by several 
professional people from Acuna and elected officials from 
Acuna, warning of the violence that they anticipated would be 
occurring shortly in Acuna and warning us on the U.S. side; and 
also they were pleading for help from the U.S., stating that 
they could not trust their own officials. This violence 
continues to grow as the cartels, as was testified earlier by 
others, struggle for control of this area up and down the 
river.
    The Texas Border Sheriff's Coalition is very concerned 
about the unique problems along our border that I have 
addressed in my written testimony. The United States Border 
Patrol is doing the best that they can with the resources that 
they have been provided, but immediate help is needed for them 
and for the protection of our country.
    We have implemented Operation Linebacker, a second line of 
defense in the protection of our country. We have conducted 
several operations in concert with our Federal and State 
partners.
    Our governor, the Honorable Rick Perry, did not wait for a 
peace officer to be killed along the border to take action. He, 
just as the border sheriffs, is very much concerned about the 
violence up and down the border. To date, he has provided 
approximately $9 million to the border sheriffs to conduct 
increased enforcement activities. This much-needed assistance 
provided by Governor Perry has already produced measurable 
results in those counties that have performed the operations, 
but this assistance is only a stopgap measure.
    Mr. Chairman, help is necessary if we are to see an 
acceptable level of security exist on the border. The problems 
along the border will continue to grow exponentially unless our 
Federal Government does something about it soon. I question, 
how many officers and how many citizens must die before our 
Nation will act?
    I have addressed many of the enforcement issues facing the 
border today in my written testimony, but another crisis faces 
us. The judicial system on the border is strained to failure. 
In Val Verde County, for instance, the annual budget for jury 
trials was just recently exhausted before the end of the fiscal 
year, and an examination of the caseload of the United States 
District Court for the Western District of Texas demonstrates 
this crisis irrefutably.
    I have attached a report that demonstrates the 10-year 
record of civil filings within the Western District of Texas. I 
have marked it as Attachment 6.
    The number of filings of civil cases across the district 
has remained fairly level with only some minor increases 
consistent with population growth in other places.
    If you examine the criminal filings, however, in Attachment 
7 for the same period, an alarming trend is quite evident. The 
two U.S. district courts on the border have seen dramatic 
caseload increases with little or no population increase.
    Attachment 8 shows the caseload of the two United States 
magistrates in Del Rio. As you can see, each of their caseloads 
equals the caseload of the other magistrates in the Western 
District combined.
    The other district courts in the Western District have seen 
some small increases in their caseloads. What is not in these 
statistics is the number of criminal subjects who are 
apprehended with commercial quantities of drugs, but who fall 
under the quantity threshold arbitrarily established by the 
United States attorney's office.
    These subjects who have been apprehended by authorities are 
released without prosecution. Remember that only a percentage 
of all drug and alien traffickers are apprehended, and then a 
portion of those apprehended are released without prosecution 
due to budgetary constraints up and down the border. The 
criminals grow more educated by the system each time they are 
handled.
    We must restore justice to the border by immediately 
providing additional district judges, magistrates and 
prosecuting attorneys, as well as economic subsidies to the 
affected State district courts and the prosecuting attorneys 
that have become incapacitated by the increasing crime on the 
border.
    Mr. Chairman, I am convinced that by funding additional 
deputy sheriffs on the border our Nation will accomplish a 
cost-effective and immediate solution to the burgeoning scourge 
of violence that is creeping north into our Nation. Along most 
of the border, just as Sheriff Flores mentioned, it is a deputy 
sheriff, our local police officer, who receives that first call 
of suspicious activity and encounters subjects who may be 
crossing the border only for a new and a better life in the 
north or who may have far more sinister intentions. No matter 
how much more efficient that we are made by the utilization of 
emerging technology, it is still necessary that a trained and 
experienced officer is available to respond to the identified 
threat.
    I thank you for the opportunity to testify here today and 
appreciate what you all are doing for our country.
    [The statement of Mr. Jernigan follows:]

                 Prepared Statement of D'Wayne Jernigan

    Mr. Chairman and Members of the Subcommittee, it is an honor and a 
privilege to be invited to appear before you to discuss strategies to 
combat Criminal Activity and Border Violence along the United States 
border and the Republic of Mexico.
    On April 18th, 2005, Sheriff Sigi Gonzales sent out letters to the 
16 Texas Sheriff's whose counties border the Republic of Mexico. The 
letter invited us to a meeting to discuss unique problems that we face 
along the border. This was done out of frustration in what we felt was 
the inadequacy of our federal government to protect our border in 
preventing a potential terrorist from entering our country. We felt 
that as citizens of this great country, our almost 2,000 miles of 
border was very porous, that many people whose intentions were unknown 
were coming into our country. If their intentions were to commit acts 
similar to or worse than what happened on September 11, 2001, then very 
little was being done to stop them. All of us expressed the same 
frustration since we had mentioned this many times to federal and state 
legislators. We felt that perhaps speaking as one voice we would be 
heard. We realize that we are a bi-partisan multi ethnic coalition of 
Law Enforcement professionals. The crisis that we face on our border is 
not a racial issue, or even one of politics. This crisis is a red white 
and blue national security crisis.
    On May 4th, 2005, we met in Laredo, Texas. As a result we formed 
the Texas Border Sheriff's Coalition. The first and foremost priority 
of our coalition is protecting all residents of this country against a 
terrorist act without regard to race, sex, or ethnic origin. We 
continue to believe that many persons have entered our country with 
intentions of harming us. We are sincere when we tell you that we are 
not blaming the agents of the United States Border Patrol but, rather, 
we criticize the policies that they have been shackled with.
    I want to make you aware that the Law Enforcement experience of the 
member sheriffs of this coalition total almost 460 years including 101 
years of experience as sheriffs. The oldest serving sheriff of this 
coalition is El Paso County Sheriff Samaniego with 22 years. I have 
attached the list of member sheriffs of the coalition with their years 
of experience and have marked it as Attachment #1. I have served more 
than 29 of the 42 years of my Law Enforcement career on the Texas/
Mexico border. We have seen the border become more violent and 
criminally active than at any point in our careers. Our officers rarely 
encounter the socio-economic illegal alien of the past, but routinely 
encounter criminal illegal aliens.
    I have been asked to briefly relate to you some of the problems 
that we have encountered along the border, specifically the violence 
along the border and incursions, among other matters.
    All of us are concerned that the border with Mexico is being used 
as the open door to this country. Most of the illegal immigrants from 
countries of special interest that are apprehended are apprehended 
along the southwest border. I have attached these lists and have marked 
them as Attachment #3 [see page 43--46].
    Through intelligence information we have also learned that several 
murders in Laredo, Webb County, Texas, have been orchestrated by 
members of drug cartels operating in both countries. These drug cartel 
enforcers cross the Rio Grande River, commit their murders in the 
United States, then head back to Mexico, again, via the Rio Grande 
River. We have all seen in the media the reports of the murders in 
Nuevo Laredo, 24 in the first 36 days of 2006. These murders are 
connected to organizations in both Mexico and the United States. In 
February, a Task Force in Laredo Texas confiscated Improvised Explosive 
Devices as well as items used to make explosive devices. Two such 
explosive devises of similar construction have been found in Val Verde 
County. Border Patrol agents and deputy sheriffs have been shot at from 
Mexico on a routine basis. Earlier this year a sniper in Mexico shot at 
agents that were working along the banks of the river in the area of 
the cities of Rio Bravo/El Cenizo. This continued, sporadically, for 
three days. Agents reported seeing several individuals wearing military 
style uniforms on a hill on the Mexican side, one of them was using 
what was believed to be a high powered rifle with scope.
    The Rio Grande Valley, Cameron, Hidalgo, and Starr Counties, have 
continuous problems with pseudo-cops coming from Mexico to extort and 
kidnap citizens in these counties. This area is the fastest growing 
area in the nation. They have seen their share of terrorist activity as 
it relates to the migration of many members of ruthless gangs that come 
into this country for reasons other than legitimate employment. 
Sometime last year, a woman was taken off an airplane at the McAllen, 
Texas, airport. She had come in from Mexico, through the river, as her 
clothes were still wet, and had a passport from Africa. She was from a 
special interest country and had come in to Mexico using a passport 
from a friendly country to avoid detection. Who knows what her 
intentions were. Thanks to an officer at the airport she was taken off 
the plane.
    During this same time period, a high-ranking member of the Mara 
Salvatrucha, or MS-13, was apprehended in the Brooks County area, also 
in south Texas. He had entered the country illegally. This MS-13 member 
is believed to have been responsible for the killing of close to 30 
persons, or more, in a bus explosion in his native country. It is my 
understanding that he had a lengthy criminal record in the United 
States. This person, as many others, find it very easy to come into our 
country through a very porous, wide-open, and unprotected border. 
Twenty seven members of the MS-13 were apprehended entering the United 
States in the Del Rio area of operations during the month of January, 
2006.
    We have received information that the drug trafficking 
organizations immediately across our border are planning on killing as 
many police officers as possible on the United States side. This is 
being planned for the purpose of attempting to ``scare us'' away from 
the border. The recent activities of the drug trafficking organization 
operating in the Hudspeth, El Paso County areas have included threats 
against the families of Deputy Sheriff's. In one incident subjects made 
threats to the wife of a Hudspeth County Sheriff's Sergeant at their 
home. The drug trafficking organizations have the money, equipment, and 
stamina to carry out their threats. They are determined to protect 
their illicit trade. It is my opinion that these drug trafficking 
organizations may form an alliance with Islamo Fascist terrorist 
organizations. The Department of Homeland Security recently issued 
Officer Alerts warning their agents of such potential threats.
    The cartels operating in Mexico and the United States have 
demonstrated that the weapons they posses can and will be used in 
protecting their caches. I have attached photographs showing some of 
the weapons that these cartels possess. The photos have been marked as 
Attachment #4.
    Local, state, and federal officers have found many items along the 
banks of the Rio Grande River that indicate possible ties to terrorist 
organizations or members of military units of Mexico. Currency, and 
clothing, are common finds. Recently, a jacket with patches was found 
in Jim Hogg County, Texas, by agents of U. S. Border Patrol. The 
patches on the jacket show an Arabic military badge with one depicting 
an airplane flying over a building and heading towards a tower, and 
another showing an image of a lion's head with wings and a parachute 
emanating from the animal (lion). It is believed from an undisclosed 
document that Department of Homeland Security translators concluded 
that the patches read ``defense center'', ``minister of defense'', or 
``defense headquarters''. The bottom of one patch read ``martyr'', 
``way to eternal life'' or ``way to immortality''.
    On January 28th, 2006, USBP Chief David Aguilar was asked by a 
reporter from KGNS television station in Laredo, Texas, what the 
outcome of the investigation of the jacket was. Chief Aguilar responded 
that the patches were not from al' Qa'ida but from countries in which 
al-Qa'ida was known to operate. He also stated that the investigation 
was turned over to the proper authorities who had already concluded 
their investigation. He knew nothing further.
    On February 2nd of this year, deputies in Zavala County discovered 
an 18'' duffle bag approximately 8 miles North of Zapata by the highway 
right of way. This duffel bag had ``Armada de Mexico'' embroidered on 
the bag. Inside the bag were several items that are commonly used to 
maintain higher levels of physical exertion. Inside the bag, a bus 
ticket with an origin of Veracruz, Mexico was found. I have attached 
photographs of the duffle bag and marked it as Attachment #5.
    Employees of our offices have also seen incursions into this 
country of persons dressed in battle dress uniforms (BDUs), carrying 
what officers believe to be automatic weapons, very clean cut, and in 
very good physical condition. On March 3rd, 2005, several officers 
assigned to do surveillance by the Rio Grande River by the Zapata/Webb 
County line observed approximately 20-25 subjects dressed as indicated 
above. The subjects were walking on a gravel road, coming from 
riverbank, and marching in a cadence. The deputy observed these 
individuals through his borrowed night vision goggles. These 
individuals were carrying large duffle bags and walking two abreast. 
They were each armed with assault rifles.
    In the town site of Zapata, residents report subjects getting off 
boats wearing BDUs, backpacks, and carrying weapons. The residents 
describe them as soldiers.
    In Val Verde County, two illegal aliens were apprehended during a 
burglary near the Port of Entry. One of the aliens fled on foot and was 
apprehended by Deputies and Agents of the Border Patrol. The alien who 
was apprehended inside the residence was later identified as a career 
criminal with a twenty four page rap sheet. His criminal career 
included offenses in Florida and Texas. His clothing was still wet from 
his illegal entry that night. For over a year, groups of male subjects 
illegally crossed the river into the United States and burglarized 
remote ranch homes. These subjects took items from the homes that they 
burglarized, and would abandon the property at the next home that they 
burglarized. The only items that they routinely kept were firearms. 
During one burglary the subjects brought electric hair clippers with 
them and cut their hair in a distinctive pattern. When theses subjects 
would encounter law enforcement they conducted sophisticated escape and 
evasion tactics to break contact. In one incident the subjects traveled 
twenty miles a day on foot across harsh landscape. The last subject 
apprehended in that group had traveled over eighty miles on foot before 
his arrest. The subjects were always physically fit. It is my opinion 
that these subjects were trained for escape and evasion.
    June 7, 2006 saw an increase in the violence in Ciudad Acuna. Armed 
subjects attempted to take a male subject who was in the custody of 
Mexican Police officers in their marked Police vehicle. One uniformed 
officer was killed and several were wounded. One of the armed subjects, 
who was identified by Mexican authorities as a narco-trafficker, was 
killed in the confrontation. This gunfight took place in the downtown 
area of Acuna, several miles from the international port of entry. 
Prior to this incident I had received information from several 
professional people in Acuna telling me of armed confrontations 
occurring in public places. This violence continues to grow as the 
cartels struggle for control of the area. See attachment #2 which is 
the newspaper story reporting the shootout. [See committe file.]
    The Texas Border Sheriff's Coalition is very concerned about the 
unique problems along our border. The United States Border Patrol is 
doing the best that they can with the resources they have been 
provided. Immediate help is needed for them and for the protection of 
our country. We have implemented Operation Linebacker, a second line of 
defense in the protection of our country. The problems along the border 
are federal problems. Our governor, the Honorable Rick Perry, did not 
wait for a peace officer to get killed along the border to take action. 
He, just as we, is very much concerned. He has appropriated 
approximately $9 million for Texas Border Sheriff's Coalition to 
conduct increased enforcement activities. This much needed assistance 
provided by Governor Perry has already produced measurable results, but 
this assistance is only a stopgap measure. More help is necessary if we 
are to see an acceptable level of security exist on the border. The 
problems along the border will continue unless our federal government 
does something about it soon. How many more officers must die like the 
unfortunate Starr County correctional officer, who was assassinated 
last month, before our nation will act?
    I have addressed many of the enforcement issues facing the border 
today in my written testimony, but another crisis faces us. The 
Judicial system on the border is strained to failure. In Val Verde 
County, the annual budget for jury trials will be exhausted in March, 
only half way through the fiscal year. An examination of the caseload 
of the United States District Court, Western District, demonstrates 
this crisis irrefutably. I have attached a report that demonstrates the 
ten year record of civil filings within the Western District of Texas. 
It is marked as Attachment #7. The number of filings of civil cases 
across the District has remained fairly level with only minor increases 
consistent with population growth. If you examine the criminal filings, 
Attachment 7, for the same period an alarming trend is evident. The two 
District Courts on the border have seen dramatic caseload increases 
with little or no population increase. Attachment 8 shows the caseload 
of the two United States Magistrates in Del Rio. As you can see each of 
their caseloads equals the caseload of the other Magistrates in the 
Western District combined. The other District Courts in the Western 
District have seen small increases in their caseloads. What is not 
reflected in these statistics is the number of criminal subjects who 
are apprehended with commercial quantities of drugs, but who fall under 
the quantity threshold arbitrarily established by the United States 
Attorney's office. These subjects who have been apprehended by 
authorities are released without prosecution. Remember that only a 
percentage of all drug and alien traffickers are apprehended, and then, 
a portion of those apprehended are released without prosecution due to 
budgetary constraints. The criminals grow more educated by the system 
each time we handle them. We must restore Justice to the Border by 
immediately providing additional District Judges, Magistrates and 
Prosecuting Attorneys, as well as economic subsidies to effected State 
District Courts and Prosecuting Attorneys who have become incapacitated 
by the increasing crime on the border.
    I am convinced that by funding additional Deputy Sheriff's on the 
border, our nation will accomplish a cost effective, and immediate 
solution to the burgeoning scourge of violence creeping North into our 
nation. Along most of the border, it is a Deputy Sheriff who receives 
the first call of suspicious activity and encounters subjects who may 
be crossing the border only for a new and better life in the North, or 
who may have far more sinister intentions. No matter how much more 
efficient we are made by the utilization of emerging technology, it is 
still necessary that a trained and experienced officer be available to 
respond to the identified threat.
    I want to express my most sincere appreciation for allowing us the 
opportunity to appear before you and thank you for the work you do for 
our country, the United States of America.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. McCaul. Sheriff, thank you so much. Thank you for your 
service, and as with Sheriff Flores, you are on the front lines 
everyday and put yourself in harm's way. We all appreciate what 
you do for this country.
    I would also ask that anybody that has a BlackBerry or 
electronic device, turn that off as it is causing some 
disruption with respect to the testimony.
    Having said that, the Chair now recognizes Mr. Quan for his 
testimony.

 STATEMENT OF GORDON J. QUAN, ESQ., FORMER MAYOR PRO TEMPORE, 
  AT-LARGE COUNCIL MEMBER, CITY OF HOUSTON, TX, AND DIRECTOR, 
                   ASIAN CHAMBER OF COMMERCE

    Mr. Quan. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you, to yourself, to 
Congresswoman Sheila Jackson-Lee, Congressman Gene Green and 
Congressman Ted Poe.
    My name is Gordon Quan. I was former mayor pro tem of the 
city of Houston, an at-large council member and a Director of 
the Asian American Chamber of Commerce. As Congress considers 
new ways to look at national security, I would ask that it not 
divert essential Federal responsibilities to our local 
government.
    Like many major cities across America, Houston has seen a 
dramatic demographic change in the past 20 years. Roughly one-
third of our population is Hispanic, one-third Anglo, and other 
third black and Asian. With 80 consulates in Houston, we have 
the third largest consular corps in the United States. Our Port 
of Houston ranks number one in foreign tonnage in the U.S. We 
are truly an international city.
    Since September 11, local law enforcement across the Nation 
has improved security of our cities. In our city of Houston, we 
spent over $15 million to secure the city since that tragic 
day. We are providing security at the city's water plants, 
airports, extra helicopter flights among other things. We are 
also securing city hall and other soft targets such as local 
temples and synagogues.
    Let me say emphatically that the role of the local 
government is clear. Local police have a responsibility to 
cooperate with the Federal Government to apprehend specific 
persons identified as having committed crimes and violated U.S. 
immigration laws and who have been located by the Federal 
Government. However, local personnel cannot be conscripted into 
Federal service because the Federal Government has decided not 
to fund and staff its immigration enforcement agencies to meet 
the demands. This type of action can divert our shorthanded 
local personnel from their primary responsibilities and 
constitute a cost shift on to our local government.
    I would also like to categorically state, and it was 
pointed out in a recent editorial in the Houston Chronicle, 
that we do not consider ourselves as a sanctuary city. The city 
of Houston's police policy adopted in 1992, which I am sure 
Chief Hurtt will address in more detail, states that 
undocumented immigrant status is not in itself a matter for our 
local police department. Unlawful entry is not treated as an 
ongoing offense occurring in the presence of local police 
officers.
    Simply put, police officers may not stop or apprehend 
individuals solely on the belief that they are in the country 
illegally. This order serves our people well and is a model for 
other cities as well. To say otherwise, I think, would cheapen 
and demean the officers who have put their lives on the line 
every day.
    It is often said that Texans talk slow. Oftentimes we 
pepper our speech with a little drawl, but by no means are we 
stupid. We understand all too well that to force State and 
local government to carry out what is essentially a Federal 
function is unfair. Securing our borders is, first and 
foremost, the responsibility of the Federal Government. 
Therefore, I am asking the Members of Congress today to 
dispense with rhetoric and provide the necessary resources to 
secure our borders.
    I believe everything that these gentlemen have said here. 
On June 2, Rick Perry signed a memorandum of understanding to 
deploy 2,300 National Guard troops to assist with the building 
of a fence along our southern border, but just 2 days prior to 
that the Department of Homeland Security announced it is going 
to cut homeland security funding for Texas, the State with the 
longest international border, by 31 percent over last year's 
allocation. Governor Perry has said the funding disparity, 
combined with continued Federal inaction, jeopardizes our 
security and reinforces the belief that Texas must never wait 
for Washington to act.
    The governor has proposed plans to ask the State 
legislature for additional funding for local enforcement along 
the border and to provide border security operations, including 
a virtual border watch program. This, again, is taking moneys 
away from our schools and our roads, our highways, that we have 
difficulties with funding already.
    Second, I want to just say that also looking at how we 
secure the border, criminalization of aliens has not proven to 
be a deterrent. In 1996, Congress passed the Illegal 
Immigration Reform and Immigrant Responsibility Act, which 
sought to increase the number of criminal offenses which would 
bar an individual from immigrating. Furthermore, it expanded 
the definition of aggravated felony to include several offenses 
for which a sentence of 1 year was imposed. Whether it is 
served or not, whether it was probated or not. If you had a 1-
year imposition, that was an aggravated felon.
    Despite these measures, there has been an increase in the 
number of persons seeking to enter the country illegally. We 
don't need laws that make aliens criminals. It would simply, as 
Sheriff Jernigan said, clog our judicial system further and our 
overcrowded jails. As you may know, Harris County is under a 
mandate because of overcrowding, as it is already. Most of 
these people, it has been said repeatedly, are only seeking a 
better life in the United States.
    Third, I would caution against efforts to preempt local and 
State laws that bar law enforcement officers from assuming the 
Federal responsibility of enforcing Federal immigration laws. 
Efforts in Congress to withhold funds from States and cities 
like Houston, that have routinely assisted the Federal 
Government to apprehend, house and feed undocumented criminal 
suspects in our city jails until the bureau of immigration 
dispatches its officers to retrieve these suspects, is 
unjustified.
    More often than not, the staff reimbursement is less than 
the financial burden by the local police departments, and as 
has been said previously, staff funding is being zeroed out. So 
here you are penalizing us for working with you, and you are 
not reimbursing us.
    In short, it is unfair to demand that the local governments 
take on the responsibilities of the Federal Government. It is 
unreasonable to mandate such responsibilities on State and 
local governments without full fiscal support.
    As a former local official and a lawyer practicing 
immigration law for the past 29 years, I know all too well that 
communication, visibility and trust are the foundations for 
effective community policing. Victims of crime must know that 
they can turn to the local police without threat that they will 
be detained or deported simply because of their immigration 
status.
    In closing, I respectfully ask the panel to understand the 
American public wants government to find effective tools to 
combat illegal immigration. I submit that the most effective 
tools are not preemption, unfunded mandates, deteriorated 
community policing, and racial profiling. Rather, the most 
effective tools are improved coordination, planning, training, 
and technology.
    Thank you for this opportunity to testify before you.
    [The statement of Mr. Quan follows:]

                   Prepared Statement of Gordon Quan

    Thank you, Chairman McCaul (R-TX), Congresswoman Sheila Jackson Lee 
(D-TX), and members of the Texas delegation for the opportunity to 
speak with you today.
    I am Gordon Quan, former Mayor Pro Tem and At-Large Council Member 
from Houston, Texas and a Director of the Asian Chamber of Commerce of 
Houston. As Congress considers new ways to improve the nation's 
security, I ask that it does so without diverting essential federal 
responsibilities onto local governments.
    Like many major cities across America, Houston has seen a dramatic 
demographic transformation in the past twenty years. Houston is roughly 
one-third Anglo, one-third Hispanic and the remaining third Black and 
Asian. With 80 consulates in Houston, we have the third largest 
consular corps in the U.S. The Port of Houston ranks number one in 
foreign tonnage in the U.S. We are truly an international city.
    Since September 11, local law enforcement across the nation has 
improved the security of their cities. In my city of Houston, Texas we 
have spent more than $15 million more on securing the city since that 
tragic day. We are providing security at the city's water plants, 
airports, extra helicopter flights, among others. We are also securing 
City Hall and ``soft targets'' such as local temples and synagogues.
    Let me say emphatically that the role of local government is clear. 
Local police have a responsibility to cooperate with the federal 
government to apprehend specific persons identified as having committed 
a crime and violated US immigration laws and who have been located by 
the federal government. However, local personnel cannot be conscripted 
into federal service because the federal government has decided not to 
fund and staff its immigration enforcement agencies to meet demand. 
This type of action can divert local personnel from their primary 
duties and constitute a cost shift onto local governments.
    Also, I categorically reject attempts to paint the local policy of 
Houston as a ``sanctuary'' city. The City of Houston's policy, adopted 
in June 1992, states that that undocumented immigration status is not, 
in itself, a matter for local police action and unlawful entry is not 
to be treated as an on-going offense occurring in the presence of a 
local police officer. Simply put, police officers may not stop or 
apprehend individuals solely on the belief that they are in the country 
illegally. This Order has served the people and the law enforcement 
community of Houston, TX well since its adoption. State and local 
police officers continue to adhere to their sworn duty to protect and 
serve the people of Houston. To characterize the policy and City of 
Houston as a sanctuary city is an unfair characterization that cheapens 
and demeans the officers who put their lives on the line everyday.
    It is often said that Texans talk slow. Although we pepper our 
speech with a drawl, we are by no means stupid. We understand all to 
well attempts to force state and local governments to carry out what is 
essentially a Federal responsibility. Securing our borders is first and 
foremost the responsibility of the Federal government. Therefore, I am 
asking the Members of Congress here today to dispense with the rhetoric 
and provide the necessary resources to secure our borders.
    On June 2nd, Gov. Rick Perry signed a Memorandum of Understanding 
(MOU) authorizing the deployment of 2,300 National Guard Troops to 
assist with the building of the fence along the southern border. Just 
two days prior, the Department of Homeland Security announced it cut 
homeland security funding for Texas--the state with the longest 
international border--by 31 percent from last year. Governor Perry said 
this funding disparity, combined with continued federal inaction 
``jeopardizes our security and reinforces my belief that Texas must 
never wait for Washington to act.'' The governor the proposed plans to 
ask the Texas legislature for additional funding for local law 
enforcement along the border and border security operations, including 
a virtual border watch program. As a former local elected official who 
had to decide on matters such as transportation, school, and public 
health funding, I cannot help but think that state and local 
governments are picking up tab for the Federal government's failure to 
fund border security programs.
    Second, I am also asking that we secure our border in responsible 
ways. Criminalization of aliens has not served as a deterrent. In 1996 
Congress passed the Illegal Immigration Reform and Immigrant 
Responsibility Act which sought to increase the number of criminal 
offenses which would bar an individual from immigrating. Furthermore, 
it expanded the definition of aggravated felony to include several 
offenses for which a sentence of one year or more was imposed, whether 
actually served or probated. Despite these measures, there has 
continued to be an increase in the number of persons seeking to enter 
the country illegally. We don't need more laws that make aliens 
criminals. It clogs our judicial system and jails with persons who are 
really not criminals.
    Third, I would caution against efforts to preempt state and local 
laws that bar their law enforcement officers from assuming the federal 
responsibility of enforcing federal immigration laws. Efforts in 
Congress to withhold funds from states and cities like Houston that 
have routinely assisted the federal government by apprehending, housing 
and feeding non-documented criminal suspects in our city jails until 
the Bureau of Immigration dispatches its officers to retrieve the 
suspects. More often than not, the SCAAP reimbursement is less than the 
financial burden assumed by the local police departments. In short, it 
is unfair to demand that local governments undertake the federal 
government's responsibilities. It is also unreasonable to mandate such 
responsibilities upon state and local governments without full fiscal 
support.
    Fourth, as a former local elected official and immigration lawyer 
with over 29 years of experience, I know too well that communication, 
visibility, and trust are the foundation of effective community 
policing. Victims of crime must know that they can call us without the 
threat that they will be detained or deported simply because of their 
immigration status.
    In closing, I respectfully ask that this panel understand that the 
American public wants the government to fund effective tools to combat 
illegal immigration. I submit that the most effective tools are not 
preemption, unfunded mandates, deteriorated community policing, and 
racial profiling. Rather the most effective tools are improved 
coordination, planning, training, and technology.
    Thank you for the opportunity to testify before this body.

    Mr. McCaul. Thank you, Mr. Quan, and thank you for your 
insight. And I happen to agree with you, this is a Federal 
responsibility. The Federal Government for the past couple of 
decades has failed in that responsibility; and I believe, as 
you do, the time to act is now.
    I would like to make the request again that anybody who has 
a BlackBerry, please turn that off as it is disruptive to the 
testimony.
    And now I would like to recognize Mr. T.J. Bonner, who is 
President of the National Border Patrol Council.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
  COUNCIL OF THE AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, 
                            AFL-CIO

    Mr. Bonner. Thank you Chairman McCaul, Ranking Member 
Jackson-Lee, other Members of Congress.
    On behalf of the 10,500 frontline Border Patrol agents who 
risk their lives day and night protecting our Nation's borders, 
we thank you for the opportunity to present our views about 
this very serious problem of crime and violence along the 
Southwest border.
    This is not an issue that affects just the border 
communities. The crime and violence obviously spill over into 
many communities throughout the United States. As people in 
Houston know, and people in Los Angeles, all major and even 
smaller cities are painfully aware of, people who come across 
the border, intent on committing crimes, find easy pickings in 
many of our communities.
    When I came into the Border Patrol 28 years ago there were 
about 2,000 agents, with a budget of a couple hundred million 
dollars, and we apprehended about a million people crossing our 
borders illegally. Our frontline agents estimated that for 
every person we caught, two or three got by us. Twenty-eight 
years later, there are about 12,000 Border Patrol agents, a 
budget of close to $2 billion, and we still catch about a 
million people, and we still estimate that 2 or 3 million 
people get by us every year. We haven't made much progress 
despite all of the expenditures.
    It was a dangerous job back then. It is even more dangerous 
now. The level of violent crime has risen dramatically.
    Now, there has been offset in the property crimes, and I 
think that fencing and more personnel along the border have 
been responsible for driving down property crimes in some of 
the border areas, but I don't think that we need to make a 
choice between property crime and violent crime. I think that 
with the proper strategies, we can put an end to both of those.
    We know why most people come across the border. They are 
looking for work. Probably 98 percent of those 3 or 4 million 
people who cross the border every year are seeking employment. 
If we do deny them that employment through proper enforcement, 
proper laws, such as H.R. 98, which would create a counterfeit-
proof Social Security card, we could put the smugglers out of 
business overnight, the people, smugglers, which would leave us 
with the 2 percent, the criminals, the terrorists, that most 
Americans are interested in stopping from coming into our 
country.
    In other words, 98 percent of the traffic is clogging up 
probably 99.9 percent of our resources, not allowing us to 
focus on the criminals and terrorists coming across. What we 
are doing is essentially searching for the needle in the 
haystack. What we need to do is to eliminate the haystack so 
that we can focus on the needles, which would require a change 
in the law enforcement strategies.
    The drug smugglers should not be confronted with the choice 
of taking out one or two law enforcement officers in order to 
get away and escape justice. Their choice should be, do I go to 
prison or do I try and shoot it out with 2-dozen heavily armed 
law enforcement officers?
    We need help along the border. It is becoming increasingly 
violent, and part of the reason for that is the fact that the 
cartels are now taking over much of the human trafficking. The 
cost of smuggling has risen tenfold over the last several 
years, which means that this is an extremely lucrative 
enterprise for the cartels, and they are very interested in 
making money. If we don't stop doing things the way we are 
doing them now, there is no reason we should expect a different 
result.
    I appreciate the ranking member's introduction of H.R. 
4044, which provides many of the tools that the Border Patrol 
needs; I appreciate the provisions within H.R. 4437, which 
contain many of the elements that are needed. But the missing 
piece in both of these is the ability to crack down on the 
employers. If we don't crack down on the employers, we are 
going to continue to have a revolving door immigration policy.
    Personally, I have caught the same group of people four 
times in an 18-hour shift, and this is where our resources are 
going. We are catching people in the cartels who exploit this 
weakness. They will sacrifice a group of 25, 50 people, knowing 
that it is going to consume the resources of the Border Patrol 
for several hours as we try and round these people up, guard 
them, process them, send them back to their country of origin; 
and in the meantime, they are free to move loads of drugs and 
who knows what else.
    We need to change the way we are doing business if we 
expect different results. And we need different results. Our 
Nation is vulnerable in this post-9/11 environment. We simply 
cannot afford to have open, porous borders any longer.
    Thank you.
    Mr. McCaul. Thank you, Mr. Bonner.
    [The statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner

    The National Border Patrol Council appreciates the opportunity to 
present the views and concerns of the 10,500 front-line Border Patrol 
employees that it represents regarding the persistent problems of 
criminal activity and violence along the border between the United 
States and Mexico. Despite substantial increases in funding during the 
past two decades for personnel, technology, and equipment for Federal 
law enforcement agencies along the southern border, the levels of crime 
and violence in that region remain unacceptably high. Although property 
crimes along the border have fallen dramatically, there has been an 
increase in violent crimes, including attacks against law enforcement 
officers. Last year, the number of assaults against Border Patrol 
agents more than doubled, with 778 reported incidents, compared to 374 
the previous year. There have also been a number of armed 
confrontations initiated against U.S. law enforcement officers by rogue 
Mexican military and police units. Power struggles among some of the 
drug cartels have transformed the city of Nuevo Laredo, Mexico into a 
war zone where hundreds of people have been killed in the streets 
during the past several years. While other border cities are not 
experiencing this same level of violence, they are by no means immune 
from this scourge.
    Although there are several reasons for these emerging trends, the 
Border Patrol's ``strategy of deterrence'' is undoubtedly one of the 
primary factors responsible for these changes. Under this initiative, 
the Border Patrol has concentrated its resources near large cities 
along the southern border. Reinforced fences have been built in many of 
those areas, and agents are stationed in fixed positions in close 
proximity to the border. The theory behind this strategy is that people 
will be discouraged from crossing the border illegally because of the 
increased law enforcement presence. In reality, the number of people 
apprehended crossing our borders illegally has remained fairly 
constant. The strategy has merely caused the illicit traffic to shift 
to other parts of the border where there are fewer law enforcement 
resources. It has also induced more people to rely upon smugglers to 
help them cross the border, which has resulted in a dramatic tenfold 
increase in smuggling fees. In turn, this has caused more criminal 
organizations to become involved in smuggling people. The propensity of 
these organizations to utilize force as a means of achieving their ends 
has caused an escalation in violent crimes along the border.
    While there is an undeniable relationship between the rise in 
violent crime and the decline in property crime, there is no need to 
choose between the two, as a sensible border security strategy would 
substantially reduce both of these types of crime. Unfortunately, the 
current strategy focuses almost exclusively on the border, largely 
ignoring the root cause of illegal immigration. As long as illegal 
aliens can readily find employment in the United States, millions of 
people will continue to violate our immigration laws every year. This 
will ensure that the smuggling trade flourishes, greatly contributing 
to crime and violence along our borders.
    The enactment of H.R. 98, the ``Illegal Immigration Enforcement and 
Social Security Protection Act of 2005,'' would eliminate the 
employment magnet that lures so many people to our country, and would 
also put human smugglers out of business almost overnight. No rational 
person would pay a smuggler to help him or her cross our borders if the 
odds of obtaining employment were remote. This would enable the Border 
Patrol and other law enforcement agencies to concentrate their limited 
resources on stopping criminals and terrorists from crossing our 
borders.
    It is important to note that this legislation differs markedly from 
proposals that are premised upon the Basic Pilot Program. as the 
Government Accountability Office reported last August, that system is 
highly susceptible to identity fraud because it allows impostors to use 
a separate, easily counterfeited document to assume the identity of the 
legitimate owner of a Social Security number. No employment 
verification system can be effective unless it utilizes a single 
counterfeit-proof document that establishes the bearer's identity as 
well as employment eligibility.
    None of the other border security initiatives currently being 
considered would be nearly as effective as the foregoing measure. For 
example, fencing has not stopped people from illegally crossing our 
borders. Despite the placement of several hundred miles of reinforced 
border fences, illegal crossings have not subsided at all. 
Apprehensions of illegal aliens have varied little since construction 
of these barriers began fifteen years ago, and front-line Border Patrol 
agents still estimate that for every person who is caught, two or three 
manage to slip past them. While this type of fencing has helped reduce 
property crimes in urban areas, most border cities that are not 
adjacent to the Rio Grande already have such barriers, so further 
reductions in property crimes are likely to be minimal. Moreover, such 
fencing, combined with the static deployment of Border Patrol agents, 
is partly responsible for the increase in assaults against these and 
other law enforcement officers. It is also noteworthy that statistics 
concerning the number of violent crimes committed against illegal 
aliens traveling near the border are highly inaccurate, as they are 
generally not reported unless the injuries are severe or the victims 
are apprehended by the Border Patrol.
    Similarly, technology alone is incapable of deterring people from 
crossing our borders illegally. While the proper devices can serve a 
useful purpose as extra eyes and ears, they are incapable of 
apprehending a single person. Without adequate numbers of Border Patrol 
agents available to respond to the intrusions detected by sensors and 
cameras, thousands of people will continue to successfully slip across 
out borders illegally every night.
    Augmenting the size of the Border Patrol with temporary help until 
additional agents can be hired and trained is not an effective solution 
either. The experience to date with the National Guard deployment 
indicates that Border Patrol has spent more hours training, 
supervising, and guarding \1\ these troops than the number of hours 
that are being spent patrolling the borders by the few agents who have 
been reassigned from administrative to field duties. The proposal to 
deploy armed guards with limited training as a stopgap measure would 
create an entirely different set of problems, greatly increasing the 
probability of unwarranted detentions and false arrests. Our 
immigration laws are extremely complex, and those who are charged with 
enforcing them need to receive the appropriate training in order to 
properly discharge these duties. Simply stated, there are no shortcuts. 
The only effective way to increase the size of the Border Patrol is to 
hire and train additional agents, provide them with the tools that they 
need to do their jobs, and ensure that they are paid and treated fairly 
in order to be able to attract and retain the best and brightest 
employees. H.R. 4044, the ``Rapid Response Border Protection Act of 
2005,'' would achieve many of these goals, and should be enacted 
without delay.
---------------------------------------------------------------------------
    \1\ Since most of the troops assigned to perform tasks along the 
border (such as building, maintaining and repairing roads and fences) 
are unarmed, the Border Patrol is assigning agents to protect them 
against assaults.
---------------------------------------------------------------------------
    In summary, solutions to the vexing problems of border crime and 
violence will remain elusive as long as the current enforcement 
strategies are pursued. Addressing these problems in a meaningful way 
will require two dramatic changes. First, the employment magnet needs 
to be eliminated, which will reduce the flow of illegal traffic across 
our borders from a flood to a trickle. Second, reliable and cost-
effective technologies need to be utilized to detect border intrusions, 
and sufficient numbers of law enforcement officers must be deployed in 
a manner that enables large numbers of them to rapidly respond to each 
incursion, minimizing the incentive for criminals to attempt to avoid 
capture through violent means. Since both of these measures could 
easily be implemented, there is no excuse for continuing to tolerate 
high levels of crime and violence along our borders.

    Mr. McCaul. We will now have questions from the members. I 
will limit it to one round of questions, try to keep it as 
close to 5 minutes as possible, and the Chair recognizes 
himself for 5 minutes. I want to talk about several issues and 
then put a question to the panel.
    I remember when I worked in the Justice Department I had 
the Mexican border in my jurisdiction, and the Border Patrol 
told me about a policy that was relatively little known at the 
time and it was called the catch-and-release policy. When they 
explained it to me, they said, Well, what happens is, when we 
have people coming from countries other than Mexico, South 
America being a gateway to countries like the Middle East, 
China, Africa, and we don't have enough detention space.
    I said, Okay, so what do you do? We give them a notice to 
appear at a hearing and we let them go.
    I said, Well, how many of those people show up? About 10 
percent if we are lucky.
    In my view, that was probably one of the most dangerous 
loopholes in our national security policy, and it was 
unacceptable before 9/11. It is certainly unacceptable after 
the events of September 11.
    When I got elected to the Congress, one of the first things 
I did was to author the Mandatory Detention Act, which calls 
for the detention of all of the other-than-Mexicans crossing. 
Now, the Mexicans who voluntarily returned, the OTMs gave 
notice to appear. This bill would end the catch-and-release 
policy; this bill is part of H.R. 4437.
    The House bill provides help. It provides funding for the 
sheriffs; it provides employer verification; it provides for 
more Border Patrol agents; it provides for all the security 
needs that we need in this Nation. And I call upon my 
colleagues in the Senate to pass it.
    Also, I have been working with Steve McCraw. I have 
introduced a bill, the border area security initiative, which 
calls for the Secretary of Homeland Security to designate 
various areas along the border that are high-risk areas, and in 
an integrated, multiagency, multitask force approach, work to 
secure the border. It provides funding and it provides funding 
to hire deputy sheriffs as well.
    These are all important measures, and there are many more.
    I want to thank everyone for being here, but I do want to 
thank particularly the sheriffs and Mr. McCraw, whom I had the 
great fortune to work with when he was at the FBI, working 
counterterrorism, and I was at Justice; we worked together on 
threat assessments then.
    And I would like to know today from you, Steve, about your 
view of the current threat assessment which, in my view, is 
greater than it was when we were working together. I would like 
to hear from both you and the sheriffs about your perception--
as you are on the front lines in this struggle, I would like to 
hear your perception about the threat assessment; and then, if 
you could elaborate, as you worked together on these 
enforcement operations, how those exactly worked and what the 
Congress can do to help you in that effort.
    Mr. McCraw. Just quickly, Chairman, I couldn't agree with 
you more in terms of the significance of the threat. Over a 
year and half ago, the governor simply asked me what is the 
most significant threat to Texas, and clearly, unfortunately, I 
had to come back and report, a porous U.S. border with Mexico. 
That was the most significant national security, but also 
public safety threat as well. And, you know, that is without 
question.
    So the second part is what do you do, and fortunately for 
us, we had some sheriffs who were thinking about that already 
and already recognized through Operation Stonegarden, which was 
supported by DHS homeland security grant funds that, hey, when 
they get increased patrols in a threat period, between the 
election in November and the inauguration in January of our 
last election, something remarkable happened. More patrol 
decreased crime, and leveraging, based upon the success of 
that, simply is just more State resources.
    And thank goodness for David Aguilar, the Chief of Border 
Patrol, willing to work with all the border sector chiefs to 
come together and work. Unlike the days of old where we built 
investigative strategies, this is different. It is patrol-based 
strategies, because as important it is to do the 
investigations, there is no substitute when we are trying to 
decrease crime to have patrol presence, to the extent we 
leverage intelligence--and I can't state that enough--usually 
intelligence, and command and control and coordination and 
technology to support it.
    But one key thing, if there is one thing we can get--and 
the reason the governor has gone to the legislature and asked 
them for $100 million; it is most appropriate, by Mr. Quan, to 
bring that up--it takes away from something else that is a 
matter of prioritization. We have wished, and he wished, he 
didn't have to do that, but it is so important we help Border 
Patrol and Customs--or excuse me, Customs and Border Patrol, 
help secure the border that we need to do something now.
    That is how we are doing it, and I will defer to the 
sheriffs, Flores and Jernigan.
    Mr. McCaul. If you could comment also on the statistics, I 
think the three enforcement operations you ran, which is a law 
enforcement operation, as I understand, was greatly successful.
    Mr. McCraw. Again, it is like--it is not rocket science. 
That is why I understand it, okay; and it is physics for 
police, if you will.
    We started off in Operation Del Rio, and I will let the 
sheriff talk about it, but those numbers are pretty high in 
terms of crime reduction.
    Mr. Jernigan. Yes, Mr. Chairman and Members, during the 
month of June, part of June, we conducted a special operation 
in connection with Border Patrol and Customs and game wardens, 
DPS, many other agencies; and as he mentioned earlier, using a 
large number of uniformed officers, 24/7, throughout our 
county.
    Our crime rate during that time period the operation was 
conducted was reduced by 67 percent just in our county alone, 
which was a significant drop. We can't sustain that under 
current budget restraints, but we were able to prove that a 
uniformed presence in the area does prevent crime, does reduce 
crime significantly.
    Mr. McCraw. That is one of the reasons why we are looking 
for more money, the governor is, because how do we sustain 
these operations.
    Sheriff Flores, obviously Operation Del Rio was built 
around--`and Sheriff Jernigan, Operation Laredo, Webb County; 
Sheriff Flores in terms of the five-county--we kind of expanded 
to five counties in your area right, Rick?
    Mr. Flores. Expanded to five counties and our initiative 
was a little different than the President's. Our initiative was 
to have a greater impact on arresting people and putting people 
behind bars.
    We learned a lot, and one of the most important things that 
we have learned is that all of us--communicating together and 
sharing intelligence, we can make a greater impact in helping 
reduce the criminal elements or the criminal enterprises along 
the border.
    Interoperability is also very important. We lack 
interoperability, but basically the gathering of intelligence, 
communicating with each other was very, very important and very 
successful.
    We thank the governor's office for taking the lead on that 
in getting these operations together so we could learn more 
about us as an agency and working together collaboratively with 
other law enforcement agencies.
    Mr. McCaul. Well--and Sheriff.
    Mr. Jernigan. I would like to add, Mr. Chairman, as a 
result of this operation, Chief Randy Hill, Chief of the Border 
Patrol for the Del Rio sector, and DPS and the Val Verde 
sheriff's office agreed and have actually formed a joint 
intelligence unit based at the Border Patrol to address some of 
these issues. It has just been established, so we are all going 
to be watching to see if it really works.
    A couple of other issues that we are looking at besides the 
joint intelligence efforts are the sheriff's office and the 
Border Patrol are exploring the possibility of joining our 
communications centers in one center, probably to be located at 
the Border Patrol. We have technicians and others coming in the 
next couple of weeks to evaluate that possibility, to see if it 
will work. Off the cuff, I think it will improve our 
communications between the multitude of Federal agencies in our 
jurisdiction and within the county.
    One other issue that we have initiated that has to do with 
the heavy caseloads at the U.S. attorney's office: Many cases 
not being prosecuted because of the threshold levels that have 
been established. Through the governor's office we were able to 
secure funding to establish a full-time prosecutor working at 
the U.S. attorney's office to assist us in the additional cases 
that are flowing in their direction.
    Mr. McCaul. Well, thank you. I commend you for your efforts 
and your success. As usual, Congress and those of us at the 
Federal level have a lot to learn from States and locals.
    And Steve.
    Mr. McCraw. Chairman, we have concluded this week--we just 
happened to coincidentally conclude Operation El Paso this 
week. We will be doing an after-action report. We are going to 
do it next Tuesday, and the preliminary statistics we are 
getting back right now are 70 percent reduction in all crime.
    And that is an important part. Remember, all crime, that 
is, the home invasions--those are the things that the sheriffs 
are held accountable for: home invasions, robberies, rapes, 
murders. It is a very important statistic.
    The only reason that number drops is because the bad guys, 
Mexican organized crime, shut down their activities. There is a 
direct correlation between when you reduce the smuggling acts 
of these that come across the border and the amount of crime 
they have to deal with in their particular counties.
    Would you guys agree with that?
    Mr. Flores. I agree.
    Mr. McCaul. It is a great model for us to learn from.
    I believe that the House bill, passed by the Senate, will 
provide the support that you need.
    And I would like to close with the issue I brought up 
initially, and that is the catch-and-release policy. If 
anything, we need to get this passed. It is absurd. You don't 
have to look back too far in history to know that in 1992 a guy 
name Ramzi Yousef came into this country and was given a notice 
to appear at a hearing, failed to show up, conspired to blow up 
the World Trade Center, fled the country, met with Khalid 
Sheikh Mohammed, who turned out to be the mastermind of 9/11. 
They discussed in the mid-1990s the flying of airplanes into 
buildings.
    As we recently saw in England, those plots are still 
ongoing with airplanes. That is why this policy is so 
important, and that is why it is so important that we pass 
this.
    I now yield to recognize the gentlewoman from Texas, Ms. 
Jackson-Lee.
    Ms. Jackson-Lee. Let me thank you again, Mr. Chairman, and 
thank you for allowing me to serve this morning on a 
subcommittee that I am not on Homeland Security as the ranking 
member and, therefore, allowing me, as well, to also be a fact 
finder but to bring a sense of balance.
    Mr. Pena, Mr. McCraw, Colonel Malesky, Sheriff Flores, 
Sheriff Jernigan, Mr. Quan, Mr. Bonner, let me thank you for 
the patriotic Americans that you are and for the service that 
you have given. Both sheriffs know that we have spent a lot of 
time together in Washington, D.C. I have even called the 
sheriff before my Subcommittee on Immigration, Border Security, 
and Claims of the House Judiciary Committee.
    We have heard your voices, and frankly my frustration, as I 
listened to Mr. Flores, is the fact your life is still in 
jeopardy, that we don't have the resources right now for you to 
take advantage of.
    So my frustration is not to suggest that it is not a 
dangerous border--I know that; I have spent time there at 
night--but obviously the hours that you spend, you are a living 
witness, all of you are. So I think the challenge for us today 
is to really call upon the Congress, to roll up our sleeves, 
and if I had the--my, if you will, desires or the opportunity, 
I would call the House back in and the Senate back in, because 
I think it is important to note that there is a House bill and 
there is a Senate bill.
    Both of these bills have enforcement aspects because it is 
a given, it is an obvious. I don't know if Yogi Berra had some 
quote that it is all about obviousness. We understand that we 
are confronting a new enemy.
    My concern here today is that testimony that you have given 
is welcoming for Houston to hear it, but it is already in our 
congressional records. When you left us in June and July and in 
the spring when you came up, your challenge to this Congress 
was that it was necessary for us to go to work.
    Well, we have gone to work, and might I say to the 
chairman, I would like to join with him on his initial 
legislation, because H.R. 4044, as he well knows, OTMs, other-
than-Mexicans, the problem with the catch-and-release was the 
lack of detention beds. So the rapid response bill that I 
authored that--Mr. Bonner, that you have supported or the 
National Association of Border Patrol, gives you a 100,000 
detention beds. It is not a pretty sight, but it does speak to 
this whole question of security.
    So I want to take you, if I might, in a series of rounds of 
questioning that might be helpful for me to understand.
    Sheriff Jernigan made a point that is valuable. We are 
safer today in light of the terrorist plot that was discovered 
in the last 2 weeks because of intelligence. That is the first 
line of defense for you gentlemen that are here today, to get 
the intelligence so that you can be in front of the violence, 
if you will. And then, of course, it is the necessity of 
providing the funding.
    I have joined in, as we have, to help support sheriffs who 
need a reimbursement in funding, because you are on the front 
line as first responders, but I think the crisis is that--what 
I am hearing is, is all local effort.
    Immigration and the protection of the border and the 
protection of the United States is a Federal responsibility. It 
has to be. So let me simply--and I think I heard Mr. McCraw say 
that there is going to be a $100 million request by the 
governor of the State of Texas?
    Mr. McCraw. Yes, ma'am, that is correct.
    Ms. Jackson-Lee. Let me ask you whether or not a format 
such of this would be helpful as well: a provision in law that 
would allow the governor of a State to declare an international 
emergency at their border--and we have New Mexico and 
California, among others--to go directly to the Secretary of 
Homeland Security, who consults with the President of the 
United States; and at that point the DHS dispatches 1,000 
Border Patrol agents to that State that has declared an 
emergency.
    Would that be a vehicle that would be useful to the State 
of Texas which you represent?
    Mr. McCraw. The short answer is yes. One thousand more 
Border Patrol agents, where do we sign up.
    Ms. Jackson-Lee. So a format that would allow that 
declaration would be a helpful format.
    Mr. McCraw. Yes, ma'am.
    One thing I want to caution, though: A declaration without 
resources means nothing.
    Ms. Jackson-Lee. Absolutely. So that the connection is that 
once you make the declaration, those 1,000 Border Patrol agents 
would be dispatched, short of adding money in the other areas.
    Mr. McCraw. Yes, ma'am, we would love to have that.
    Ms. Jackson-Lee. That is a provision in H.R. 4044, which I 
authored. And, frankly, I hope that at a conference--that is 
what we are supposed to be doing--that we will be able to reach 
that point of reconciliation and get a provision in the 
conference that generates a bill that answers this immigration 
issue comprehensively, border security and, as well, working 
with the States for their security and immigration reform.
    Let me also ask Mr. McCraw why I think it is important for 
you to have these Federal resources. The governor is going to 
be asking for 100 million. I know that you are tightening your 
belt. I know what is happening to the State schools and our 
health care system. I know that we are literally in a crunch, 
and I am saddened to say that when it came to making a decision 
about Federal funding for urban initiative grants under the 
Department of Homeland Security, as Mr. Quan has said, we were 
cut 31 percent under this administration.
    But I do want to ask, with the effort that you have had at 
the border, tell me why you need more resources. We know that 
GAO investigators just went to the border, and they were able 
to transport radioactive materials, enough to build two dirty 
bombs, across borders in two locations, including Texas. If we 
had a State effort by the governor--the question is, why didn't 
we catch these individuals?
    What is it that you would need if you were at the border? 
The governor did expend funds, but yet these two individuals or 
this group of individuals were able to come across with the 
dirty bombs, and Texas did not catch it with the resources.
    Mr. McCraw. I think if you will check, you will find they 
went through the ports of entry. That is how they did it.
    I will refer to Mr. Pena in terms of that--or you wouldn't 
know, you are ICE. Forgive me. There is nobody here that is at 
the port of entry. That is how they entered.
    It doesn't matter. They could have gotten in a number of 
different ways, certainly through the ports of entry, but in 
between the ports of entry.
    The fact is, the answer is, secure the border. If the 
border is secure, that is the important point, because just 
because people don't, you know--that is the most important 
thing and that is where we will continue to focus and talk 
about.
    Ms. Jackson-Lee. You are absolutely right, and reclaiming 
my time, your time was well spent in your answer. That was 
basis of my question, that whether the governor spends $100 
million of State funds, if we as a Federal entity don't fund 
this at the highest amount, which is included in a 
comprehensive view of this immigration question, then we are 
begging the question, we are forcing States to spend their 
money, and we still have people crossing the border with the 
ability to create havoc.
    Mr. Pena, what happened there? What do you need more to 
help you in avoiding that kind of entry? And I know that you 
are ICE, internal, but if you could suggest what might be 
helpful if investigators were able to cross the border with two 
dirty bombs.
    Mr. Pena. Unfortunately, Congresswoman, I am not as well 
versed on that incident that you referred to. I am familiar 
with the previous--I think it was a Dateline that happened up 
on the northern border.
    Ms. Jackson-Lee. This is a GAO study. You can give your 
best guess as to what kind of funding you would need to help 
thwart that type of activity.
    Would it be an intelligence funding increase? Would it be 
more resources, more personnel?
    Mr. Pena. You touched on it. It is comprehensive.
    I think we need intelligence; I think some of the things 
that are going on right now, as far as a coordinated effort, 
which I think is demonstrated here, of how we are working 
together in these task forces where there is not a 
compartmentalizing of information anymore.
    I think that 9/11 has opened the windows that every agency 
realizes no one wants to withhold that piece of information 
that could have helped the other agency detect the dirty bomb.
    We are working closely together. We are sharing our 
information. We are intelligence driven, working with our 
foreign partners.
    That is the other key, which I hope was noted in my 
testimony about working with the Mexican Government. We do need 
their cooperation to help us, and we have begun an initiative 
where we are working closely with Mexico intelligence. We have 
got to work with foreign governments, also.
    Ms. Jackson-Lee. I think that is excellent and is part of 
the comprehensive approach we are trying to take by meshing the 
Senate bill and the House bill together. You cannot have 
enforcement only because you must separate out the criminals 
from those who are seeking to come into the country with legal 
status or even those who are already here in the United States. 
I think if we mesh that we become confused.
    Let me just pose these questions quickly to Sheriff Flores 
and Sheriff Jernigan. If you were to get, along with resources 
at the border, more helicopters and power boats, both working 
at the Border Patrol and you would have the opportunity to 
utilize some of that equipment, helicopters, power boats, motor 
vehicles, portable computers, radio communication, handheld 
global positioning system devices, night vision equipment, body 
armor, would that be helpful, in conjunction with the support 
of the Border Patrol, getting that equipment as well?
    Mr. Flores. Yes, ma'am.
    Ms. Jackson-Lee. And so that would be helpful as you are on 
the border and assisting us in border security.
    Mr. Flores. If I may add, one of the things that 
distinguished Webb County from the other counties is that 
Laredo is, if not the largest inland port in the Nation, 
possibly in the world, we have got 60--to 70,000 commercial 
trucks going northbound across our borders; and commercial 
vehicle enforcement would be very, very important for us to be 
able to have--to be able to inspect some of the truck traffic 
that is crossing our bridges undetected. So technology is of 
vital importance in addition to all the others.
    Ms. Jackson-Lee. Let me just say, that too is in H.R. 4044, 
which I authored.
    And let me just have my last question to Mr. Bonner if I 
could. I just want to show you the comparison of what we have 
had over the last couple of years, border security by the 
numbers.
    The average number of new Border Patrol agents added per 
year in 1993 to 2000 was 642. Under this present Congress and 
over the last years since 2001, it has been 411. INS fines for 
immigration enforcement, 417 in 1999; present administration, 
only three in 2004.
    Seventy-eight percent fewer completed immigration court 
cases. In 1995, we had 6,455 before the 1996 immigration bill; 
and now in 2003, the very span of time that this committee and 
this chairman are talking about, 2003 from 1999, we have gone 
down.
    My other poster shows the number of apprehensions at the 
border has declined by 31 percent under this administration and 
this Congress. In 1996 to 2000, you had 1.52 million; in 2002, 
2004 you have had 1.5 million.
    I would commend that the question is resources. Would you 
want to analyze that, Mr. Bonner, why we have seen such a 
drastic decrease and has the funding been equal to the needs?
    Mr. Bonner. Obviously, the funding has not been equal to 
the needs because our borders are still porous, and I think 
there is enough blame to be spread around all over the place.
    The question now is, when are we going to get down to 
business and solve the problem and secure the border; and I 
think that that is going to take both sides of the aisle to get 
together in good faith and come up with solutions that really 
work. I don't want to sit here and preach to the Members of 
Congress, but the American public wants our borders secure. I 
hear that every day from ordinary citizens who ask me, Why 
aren't our borders secure; and I have to refer them over to 
their lawmakers.
    Ms. Jackson-Lee. So you want us to get to work and to 
reconcile those two bills.
    Mr. Bonner. I want the problem solved.
    Ms. Jackson-Lee. We will get to work to reconcile those two 
bills. Thank you very much.
    Mr. McCaul. Thank you.
    Mr. Bonner, we hear that message every day as well, secure 
the border, and that is what we are trying to do.
    The Chair now recognizes Judge Ted Poe.
    Mr. Poe. Thank you, Mr. Chairman. Mr. Bonner, preach on, 
preach on. It is what you ought to be doing. Sometimes people 
say Washington, D.C., is the only city in America surrounded by 
reality. So you need to keep preaching. I would encourage you 
to do that.
    Several comments--most of my questions will be directed to 
you, Mr. Bonner--I just tell you that so you can listen to what 
I have to say--and also Sheriff Flores.
    I understand there are 8,000 documents the Border Patrol 
has to be versed in in determining whether a person from Mexico 
or Canada or the Caribbean islands is lawfully from that 
country when they come into our legal ports of entry.
    Is that a fair statement?
    Mr. Bonner. Those would be the Customs and Border 
Protection officers, Border Patrol agents, most of the people 
that we apprehend do not have any documents, but we run into 
those situations where someone has some type of document; and 
then we have to get on the radio and say, What the heck is this 
thing, and generally we get sent off to those folks at the 
ports of entry who have to be expert in this. And I don't want 
to take up too much of your time, Congressman, but--
    Mr. Poe. Let me cut you off then, Mr. Bonner. I want to 
keep my 5 minutes.
    At the lawful ports of entry, as you know, we have a 
Western Hemisphere exception. If you are from Mexico, Canada, 
the Caribbean islands, you can come into America without the 
use of a passport. You can use everything from a baptismal 
certificate on.
    The 9/11 Commission recommended that the United States do 
away with that absurd policy and for security reasons require 
all people entering the United States to have a passport. It 
would speed up the entry to the United States, but also it 
could record who comes in and who leaves this country, which we 
do not do in this Nation any longer.
    The 9/11 Commission report recommendation has been 
postponed, continues to be postponed, so that we do not have 
the passport policy in this country. We have a passport, a 
universal document legislation, that I have introduced. The 
person has a visa with a photograph and a thumbprint on it. 
Then when an individual goes to a business and wants to work, 
that business uses this lawful visa as opposed to some Social 
Security number that businesses are supposed to use, and then 
we could prosecute the businesses that fail to or that continue 
to hire illegals.
    Do you think maybe using this 9/11 Commission report is 
something that Congress ought to adopt, requiring everybody 
entering the United States to have a passport so we know who 
these people are? Just your opinion.
    Mr. Bonner. Absolutely. As it stands now, if you speak 
English, you can get into this country; because they ask you 
where were you born, and if you can speak English well enough, 
you can convince that inspector that you have a right to be 
here. They don't want to know who you are, so you could be--you 
could have committed a heinous crime the day before or the week 
before and have an APB, but they are not asking you who you 
are.
    Mr. Poe. And I agree totally with you that the Federal 
Government ought to prosecute the businesses that make a profit 
in dealing in the cash economy, paying people illegally in the 
country in cash; those people receive illegal money, and the 
businesses profit. The Federal Government needs to prosecute 
those.
    That is well said. Good advice.
    Detentions, as the chairman has mentioned, regarding OTMs, 
those people from other nations that are coming here, captured, 
released. I don't know why we can't use the abandoned military 
bases. Homeland security has 10,000 FEMA trailers sitting up in 
Hope, Arkansas, that were supposed to be used down here in the 
gulf coast for the hurricanes, but FEMA has apparently some 
regulation you can't take trailers to flood-prone areas. So we 
never got the trailers for the refugees from Katrina and Rita, 
another absurd policy.
    But they are sitting up in Hope, Arkansas. Maybe those 
could be pulled down to the border and used on a temporary 
basis to house people that are OTMs from other nations. It is a 
national security problem, as well as an economic security 
problem, to allow unlawful entry into the United States.
    I have a specific question regarding an incident that has 
occurred with the Border Patrol, a couple of border agents 
being arrested for, what I think, doing their job in West Texas 
and being prosecuted for doing their job. Now they are getting 
ready to be sentenced Friday for apparently shooting at some 
drug dealer, and the Federal Government gave the drug dealer 
immunity to prosecute the two border agents.
    What is the policy of the Border Patrol on use of force and 
apprehensions of people coming across the border illegally, 
like drug dealers? Can you tell me what the policy is?
    Mr. Bonner. The policy is that Border Patrol agents are 
entitled to use deadly force to defend themselves or an 
innocent third party. In that case, that is exactly what 
happened. The drug smuggler wheeled around upon command to 
stop, pointed a shiny object at them, and they opened fire. 
They don't have to wait until someone shoots at them. They did 
not violate policy.
    Mr. Poe. I agree with you. It seems very ironic our Federal 
Government seems to be on the wrong side in doing the 
prosecuting in that particular case.
    Sheriff Flores, I would like to ask a couple of questions 
to you. Been down to the border and seen you a couple of times 
and all the deputy sheriffs and the sheriffs in Texas. Once 
again, we appreciate what you do.
    And when y'all came to Washington, D.C., the 16 border 
sheriffs walking down Pennsylvania Avenue, sheriffs from Texas, 
you are stopping traffic, people are looking. Who are these 
guys? The sheriffs are in town, 16 new ones.
    But we thank you for what you do.
    You have a person that used to work as a Texas Ranger 
working for you by the name of Doyle Holdridge and he has made 
a comment about what the border is like after sunset between 
Nuevo Laredo and Laredo.
    Would you like to comment on what Doyle Holdridge, his 
comment?
    Mr. Flores. His comment is and still is that ``It gets 
Western,'' and his definition of ``Western'' is that, you know, 
our deputies have to be on extremely high alert when they 
travel into some of the communities in the south that are 
situated along the Rio Grande because of the narcotrafficking 
and the illegal smuggling.
    Mr. Poe. Do you think that we have, as a nation, control of 
our southern border.
    Mr. Flores. We do not have control. We are doing the best 
that we can with what we have, but we surely could use more.
    Mr. Poe. Okay.
    Mr. Flores. But we do have a pulse on the violence and some 
control. We don't have a large spillover on this side, and I 
think that definitely when we had our operations or have been 
having our operations, the more vigilance and the more manpower 
that we have along the border, these people tend to hunker 
down.
    Mr. Poe. Well, obviously, I think all of the departments 
are doing--Federal and State, local, National Guard are doing 
the best job our Federal Government will let them do.
    Last question, Sheriff. In a perfect world, how would you 
solve the border problem? How would you do it? If you could 
preach to us, as Mr. Bonner wants to do, what would you preach 
to the Federal Government on what we could do to secure the 
southern and even the northern border?
    Mr. Flores. I think Ms. Jackson-Lee pretty much had the 
laundry list. We need additional manpower. We need more 
technology. We need more resources allocated not only to 
Federal agencies, but to local agencies.
    We are first responders. County governments are a small tax 
base. They don't have enough money to fund sheriff's 
departments as they should, or I think they probably would 
want, but that would be perfect in an ideal world.
    More boots on the ground--
    Mr. Poe. Probably more immigration judges, as well.
    Mr. Flores.--and, of course interoperability to communicate 
with each other. Post-9/11, we are still not interoperable in a 
lot of places in the United States.
    Mr. Poe. Thank you, Sheriff Flores.
    I yield back Mr. Chairman. Thank you.
    Mr. McCaul. Thank you. I just want to add, it is amazing to 
me that two Border Patrol agents who are doing their job, 
getting fired at all the time on the front lines, with their 
hands tied behind their backs, when they try to defend 
themselves, end up getting prosecuted.
    With that, the Chair will now recognize Mr. Green.
    Mr. Gene Green. Thank you, Mr. Chairman. And like my 
colleagues, I want to thank both local law enforcement for 
going what is really a Federal responsibility; and I just 
regret we have to be here.
    But in all honesty, both the House bill and the Senate bill 
have the tools to deal with what you are having to address with 
right now--the OTMs, the additional resources. The difference 
is that the Senate bill deals with the 10 to 12 million we have 
that are undocumented.
    But I don't think any side--the Senate, the House--wants to 
skimp on protecting our country, but the Senate bill does have 
the same thing. That is what the conference committees are for. 
If one side is better than the other, then the conference 
committee ought to meet, but this one hasn't met and that is 
our problem right now.
    I wish I could say we will do it this year. In all honesty, 
I don't see it happening this year, because with the shortness 
of the time the Congress is in session in September and October 
and the lame duck session. We want to do it; there is an 
obligation to do it.
    It is interesting though, Mr. McCraw; I don't know you, but 
I served in the Texas legislature. The only time I heard your 
name before was when I watched some things on trying to look 
for the legislators in Oklahoma and New Mexico, and I hope we 
have a lot better chance at this than we did that.
    Mr. McCraw. Wrong person. I was working for the FBI at that 
time.
    Mr. Gene Green. Okay. Good. Different McCaul. Thank you.
    Mr. McCraw. It is McCraw. That is close enough.
    Mr. Gene Green. One of the things I would like to know is, 
what are the rules of engagement on the Federal level and the 
local level.
    Sheriff Flores, if your deputies are fired on and cross the 
international boundary, what is your standard operating 
procedure? I would like to know the Federal agencies, the 
Border Patrol, if someone fires at you from across the border, 
what is your option?
    Mr. Flores. You take cover.
    Mr. Gene Green. You don't have the right to return fire.
    Mr. Flores. Not right now; we are just--we pretty much 
wait. And we have actually seen Border Patrol fire back and--
because they have been in many situations like we have been in, 
but we have not fired back.
    Mr. Gene Green. So local law enforcement, if you happen to 
be in a neighborhood in South Laredo and you are along the 
border, I mean, it could be Laredo, it could be El Paso, it 
could be anywhere, you don't have the right under national law, 
or is it State law, to be able to return fire.
    Mr. Flores. Okay. If we are in the United States, you know, 
we are going to go ahead and protect ourselves if we are in a 
very difficult situation.
    Now, if they are shooting from an international 
countrySec. 
    Mr. Gene Green. Across the border.
    Mr. Flores. Across the border.
    --we are just different. We are very careful. We don't want 
to cause any problems. We do notify law enforcement. We call 
our dispatch. Dispatch calls Mexican law enforcement. We try to 
get Mexican law enforcement to respond, but we do not take the 
initiative to start firing back.
    Mr. Gene Green. Well, I guess that bothers me, Mr. 
Chairman, because frankly our law enforcement should be able to 
protect themselves. And I know we don't want to cause an 
international incident, but in all honesty, if somebody is 
shooting, at your deputies or a Brownsville police officer or 
anyone else, I think that--I mean, they ought to be able to 
defend themselves.
    I don't know what we need to do. I don't think that has 
been addressed in any of the bills we have talked about, but I 
am glad these Border Patrol agents have a right to return fire.
    I also know that if you can't, if the country of Mexico 
can't stop that from happening--and we have the same right to 
protect our citizens; and law enforcement, particularly, ought 
to be able to protect themselves. I am going to see how we can 
work on changing that.
    Sheriff Jernigan, in Val Verde County you talked about the 
need for communication equipment so you can communicate with 
other. Is it State and local law enforcement, or is it also to 
work with Federal law enforcement?
    Mr. Jernigan. Also, Federal, sir.
    I did a recent study here a while back, trying to come up 
with some figures on what it would cost if we did a 
communications project for all the agencies, particularly on 
the Texas border, and came up with a figure a little in excess 
of $40 million. But we can't communicate right now between 
various agencies.
    Mr. Gene Green. In all honesty, we had that same problem in 
Houston, in Harris County and the Houston Police Department; 
and we are working at it. Even the Port of Houston that is in 
our district, we are trying to develop the relationship between 
all my local jurisdictions and the FBI and the Federal law 
enforcement to do the same thing, because that is one of our 
problems from 9/11.
    Even in New York, the firefighters cannot communicate with 
the police officers.
    Mr. Flores. Well, I would like to say, if Washington was 
interoperable, it would be great for all of us.
    Mr. Gene Green. Wouldn't that be nice.
    Mr. Flores. It is not a partisan issue. It is a red, white 
and blue issue, and I think y'all need to spread that to your 
colleagues and let them know that.
    Mr. Gene Green. And I agree. I think interoperable would be 
nice. We should be interoperable on lots of other issues other 
than just communication equipment. I think that is something we 
need to realize, that along the border between the Federal 
agencies and the local agencies, they ought to be able to call 
each other, instead of having to go through dispatch and get on 
another system, because delay can mean injury or death.
    One of the things I am amazed at, and a good friend of mine 
and ours actually is Congressman Silvestre Reyes from El Paso. 
He was the District Director of the Border Patrol for many 
years, and I remember the controversy he had when he had to 
hold the line in El Paso. I saw the number of petty crimes, 
number of burglaries went down because of that effort. We know 
that worked.
    I know the Border Patrol for years has tried to implement 
that along the border, but you have to have the people. It 
doesn't do you any good to have a fence. Somebody has to watch 
that fence; that is what is frustrating.
    Are we still dealing with something that shows that it was 
successful in El Paso in the early 1990s or the mid-1990s in 
holding the line, you can do it, whether it is Laredo, or urban 
areas particularly, but Laredo or El Paso.
    Mr. Flores. In Laredo, I know. And I can't speak for Border 
Patrol, but I know that their virtual technology has been 
working. I know the governor is expanding on that, and I think 
that is going to serve well to have additional cameras and 
sensors along the border. We need to have more of that. And 
again, I just can't overemphasize the importance of technology.
    Mr. Gene Green. Again, it should be Federal funding instead 
of having the local taxpayers or even the State taxpayers do 
that.
    Mr. Flores. Well, like I said, we don't have the money.
    Mr. Gene Green. Mr. Quan, you mentioned in your testimony 
the concern about punishing cities who may not particularly 
make it an effort to be INS agents. I guess that bothers me 
because in the city of Houston, we have a shortage of police 
officers although--and we are doing overtime and everything 
else. I don't know the numbers on the Federal funding, but do 
you know from your years on the council--and maybe the chief 
would know when he gets here--what impact that would have on 
the city of Houston if all of the sudden we lost funding from 
the Federal Government?
    Mr. Quan. I don't have the exact numbers on that, Congress 
Member, but in a recent discussion we talked about just the 
fact that FEMA, we are asking reimbursement for the number of 
police officers because of the additional people from Katrina 
and Rita; and there are several millions of dollars.
    If we are forced to try to look at criminal aliens in the 
city of Houston, it is estimated we may need an extra 1,000 
officers in the city. So where are we going to get that type of 
funding? That is one-fifth of our force as it is right now.
    So I don't have the figures on how much we get now, but 
again, I don't think it comes close to reimbursing what the 
costs are.
    Mr. Gene Green. In all honesty, living in the city of 
Houston, if my house were broken into, I would much rather the 
cost and service time be much lower, and if I have somebody I 
think is not here legally, I would be more than happy to call 
the INS instead of the HPD.
    Mr. Quan. That is what the mayor believes and most citizens 
of Houston believe.
    Mr. Gene Green. Thank you.
    Thank you, Mr. Chairman.
    Mr. McCaul. Gene, let me associate myself with your 
frustration and concerns about law enforcement's inability to 
respond once these cartels have gone back into Mexico.
    I recently chaired a hearing on Neeley's Crossing in hopes 
that the county would arrest cartel members and individuals 
dressed in military uniform who crossed into the United States 
and then fled back across the river. We saw on the videotape 
law enforcement's inability to do anything, even though they 
were being fired upon, and I think it is something we should 
look into in this committee, and also I think it calls for a 
greater need for cooperation with Mexico. I think that is 
probably the answer to that.
    The committee will now take a short recess of 5 minutes.
    Ms. Jackson-Lee. Mr. Chairman, this panel is leaving.
    Mr. McCaul. Yes.
    Ms. Jackson-Lee. May I just ask you to yield to me?
    Mr. McCaul. I yield to the gentlewoman from Texas, Ms. 
Jackson-Lee.
    Ms. Jackson-Lee. Mr. Chairman, we have worked on a number 
of committees together, but specifically the Homeland Security 
Committee, and what I have gleaned from these witnesses is that 
we have a drug cartel, violent problem at the border, mostly 
dealing with drug smugglers, money launderers. And I hope maybe 
that you will accept my invitation for a hearing at the border 
on the depressed Colombian drug trafficking which has now come 
to Mexico, which is the crux of the increased violence that you 
all are facing. That is a more or less parallel but separate 
issue which would include public enforcement officers and FBI 
and others. And in order to be able to look at this in its 
wholeness, I would hope we would be able to have that kind of 
hearing and provide the necessary funding for that response as 
well.
    Mr. McCaul. I think that is an excellent idea, and the 
Chair will take that into consideration. The committee will now 
be taking a short recess of 5 minutes for the next panel.
    [Recess.]
    Mr. McCaul. The committee will come back to order.
    First, I would like to thank Judge Martha Jamison for 
opening up her courtroom to us today to hold this hearing. I 
really appreciate all the hospitality, not only from the judge 
but from the Harris County officials, sheriff's office, and all 
of the Harris County officials who have made this possible here 
today. I know it has not been easy. I know there have been 
security concerns, and I certainly appreciate everything you 
have done. Thanks so much.
    With that said, we are going to go ahead and start into the 
testimony. I will try to keep us on a fairly tight clock so we 
can all move on. I understand there is an Astros game at one 
o'clock, and some of you may be attending that.
    With that being said, the Chair now recognizes Mr. Robert 
Eckels, Judge Eckels, Harris County.

   STATEMENT OF ROBERT A. ECKELS, COUNTY JUDGE, HARRIS COUNTY

    Judge Eckels. Thank you, Mr. Chairman, members. Again, I 
will try to be brief. I have submitted previously written 
testimony. We do welcome you to Harris County Civil Courthouse. 
You are the first congressional hearing in our courthouse. We 
are very happy to have you here. I wonder about Judge Poe not 
being at the bench here. I will have to get used to this.
    We welcomed Congressman Lee and Congressman Green earlier.
    Like many other large communities in the United States, we 
are relying on the Census Bureau to talk a little bit about 
ourselves. And one of the high points, in 2005 we were 
estimated to have a population approaching 3.7 million. That 
was pre-Katrina. So I would estimate that Harris County now 
pushes that 4 million number.
    As you look at our population here, it is about 20 percent 
growth rate over the decade. A large percentage of our 
population, as has been earlier estimated, is immigrant 
population and foreign-born population. We do have a very 
international community and a large border presence through the 
Port of Houston, in spite of the fact that we are not on the 
southern border.
    Houston, through our port, is a gateway to Mexico. We are a 
larger Mexican port than any other Mexican port, at least in 
terms of transporting goods through our port. It also makes us 
more vulnerable to criminal activities. So we are particularly 
interested in the issues regarding our community, and I 
appreciate your being here today.
    We did receive port security grant funding which has 
enabled us to begin electronic surveillance and waterside 
patrols which are currently in the planning side. We appreciate 
that. We are partnering with the port in their grants, and the 
Coast Guard as well, in working together, and I do want to 
compliment the Coast Guard and the Homeland Security Department 
for their efforts to work with us on our interjurisdictional 
partners for security in both regions.
    You asked me to focus on three efforts: the impact of 
illegal immigration on the public school systems, health care 
and our law enforcement and criminal justice systems.
    I have become increasingly aware, as I have tried to 
prepare this testimony, that it is very difficult to gather 
information on the impact of illegal aliens and illegal 
immigration with criminal activity because citizenship 
statistics are not routinely gathered by most entities of the 
State or local government.
    It is standard practice, for example, in public health when 
they are conducting case investigations--when we did a 
reportable condition of communicable disease--to identify the 
potential risk to the community and inform us of those risks 
and track down the disease, ensuring that no one else is placed 
at risk. In doing so, they do not get into the issue of 
citizenship because that often impedes their ability to track 
down people who might be carrying diseases in the community.
    Paul Bettencourt, our tax assessor, had testified 
previously to Congress and the Committee on House 
administration about the noncitizen voting and the Federal 
Election Integrity Act, and mentioned the possibility of having 
a reliable national database, a citizenship database, and to 
check for protocol on citizenship. Such a database would be 
helpful to us as we deal with the other issues as well, not in 
a deliberative service, but in the maintaining of the records 
in the county on the people we deal with every day.
    On public education and public schools, the Texas system of 
independent school districts, again created by the legislature, 
have been given primary responsibility in educating children in 
our State. There are 26 ISDs wholly or partially within Harris 
County.
    We do operate our own educational program, an alternative 
education in criminal justice, a charter school within our 
detention centers for juveniles in Texas. The TEA and the local 
independent districts provide the bulk of our education.
    There are over a million children or people under 18 years 
of age in Harris County. We are a relatively young county. They 
break down in the State of Texas and in the Houston area, for 
African American, about 21 percent; 41 percent, Hispanic; 31 
percent, Anglo; 2 percent, Native American; and a little over 5 
percent, Asian Americans.
    So it is again difficult, or almost impossible, to gather 
information about citizenship, and that goes back to the Plyler 
v. Doe case. That is referenced in my written testimony. But 
again that overturned a State law in Texas that prohibited 
reimbursement of State and Federal to local districts for 
children who were not ``legally admitted'' to the Texas 
schools.
    It established a principle of don't ask, don't tell in the 
public schools. They cannot be denied a public education 
because of citizenship status. There is no doubt that problems 
have existed or have existed for generations in the classrooms 
on providing services both for our local community as well as 
for the alien community, both legal and illegal, but there is 
also no way to deny that as a result of our work we have 
educated many students who have come to this country and have 
enriched our State and our Nation.
    The starting point for gathering data for the education 
levels, though, in our education citizenship status will be the 
bilingual education programs. According to the TEA, about 14 
percent, or 631,000 of students in Texas public schools, were 
enrolled in bilingual or ESL programs. Some 25,000, or 8.4 
percent of all teachers of these programs, and $965 million, or 
4.2 percent, were spent on public education for these programs.
    In our region, the region IV area, 17 percent of our 
students were enrolled in bilingual or ESL programs. That is 
slightly larger than that State average; 9.5 percent of the 
teachers teaching those programs and over $332 million, or 
close to 7 percent, was spent on those programs.
    This has been trending upward in the past decade and 
continues to do so. Again, they don't reflect the actual number 
of undocumented students in the region IV schools, but they can 
help the committee establish the growth.
    We did learn after Hurricane Katrina that rapid growth can 
be a problem for us in our schools. We continue to deal with 
the planning issues that go with the growth of the population 
and the immigrant population that hits our system, but it 
complicates the process to have the folks coming in as the 
schools try to plan, because you don't build a school 
overnight. And again it is referenced in the written material, 
but we would be happy to work with the committee and appreciate 
your interest on that impact.
    We find as we go through and look at education and social 
services and health care and the criminal activities, they are 
all interrelated, and as was mentioned in the earlier panel, 
and draw resources that would otherwise be spent on services in 
the community.
    I am able to provide better data on the impact of illegal 
or undocumented aliens on our public health care delivery 
system. Harris County has prepared a report at the request of 
the Harris County Commissioners Court which is referenced in 
the material and has been supplied to the committee.
    Essentially it talks about three cost centers: outpatient 
care, inpatient care and undocumented workers patients, as well 
as pharmacy-only care. We saw from 2002 to 2005 a 17.7 percent 
increase of undocumented inpatients served and over a 50 
percent increase in costs for the services rendered. The total 
cost for inpatients for 2005 was over $82 million, and the 4-
year total was over $272 million.
    During that same period, the District received payments and 
reimbursements totaling $106 million, leaving $166 million that 
had to be picked up by the local property taxpayers. Of this 
undocumented population in our district, 83 percent were people 
from Mexico, 6 percent from El Salvador and Guatemala; the 
remaining 11 percent were from Great Britain, Canada, Haiti, 
India, Iraq, Iran, Nigeria, Vietnam, Nicaragua, other countries 
around the world.
    When you look at outpatients, the outpatient clinical 
activity grew from 177,000 in 2002 to 272,000, a 52 percent 
increase during that same period. In 2005, they generated 
approximately 18 percent of our outpatient visits. Again, costs 
up to $38 million in 2005.
    I would caution as you look at the outpatient numbers that 
sometimes Federal policy tends to drive people out of those 
services into inpatient services which are much more expensive. 
So as you are addressing these issues, as we address these 
issues, we need to be careful of the law of unintended 
consequences and the impact sometimes we have as we try to cut 
costs. Again, many times the outpatient visits are a public 
health issue that, without that visit, it would spread other 
diseases in the community.
    Pharmacy-only patient visits also increased, and annual 
pharmacy-only visits grew from 75,000 plus in 2002 to over 
156,000 in 2005. Again, an increase of more than a hundred 
percent. Costs grew at 125 percent, for a 4-year total of over 
$19 million.
    Payment reimbursement for that period was $2 million, 
resulting in a net cost of $17.5 million for the district. That 
undocumented population that sought district pharmacy-only 
visits in 2005, of that group, 86 percent were from Mexico, 4.5 
percent were from El Salvador and Guatemala; another 9.5 from 
those countries I mentioned earlier.
    The total cost for all of this for 2005 was $128,400,000. 
We received payments and reimbursements of $31 million, a net 
cost of over $97 million. Four-year reportable cost of $403 
million, with reimbursements of $116 million. This is covered 
in the written testimony.
    In addition to the cost, though, of Harris County taxpayers 
that you may not look at, 99 million-plus, or 85 percent, of 
the reimbursed costs came in reimbursements from the TP30, a 
Federal Medicaid program for emergencies. Those funds are, of 
course, paid by the Federal taxpayers, so we are not 
reimbursed. Our total amount, Harris County contributes a 
second time to that Federal tax base as well.
    Another finding that may be pertinent to your investigation 
is how the $27 million in emergency Medicaid reimbursements 
were used in 2005. Of the 11,000 births performed by the 
district, 7,900 were to undocumented mothers. That is 71 
percent of all the births and 80 percent of the emergency 
medical reimbursements to the district.
    Again, in perspective, our budget for 2002 to 2005 was 
about $2.6 billion for the district, and so within this, this 
is about 20 percent of our total budget.
    Our criminal justice, I have to defer largely to the law 
enforcement folks here. You have heard a lot of testimony about 
that before. I do have in the written testimony reference to 
the MS-13 gang. Mr. McCraw earlier talked about the MS-13 gang. 
We worked with Joe Newhouse of the James Baker Institute.
    And we are concerned that the MS-13 gang is much more than 
a street gang. It is particularly vicious and well organized. 
It is large. It has had earlier reports in Honduras from the 
former Minister of Security, Consul General here, Oscar Avarez. 
This gang is a very young gang. It started in Honduras; 77 
percent of their initiates are 15 years and younger when they 
are initiated into the gang; 62 percent are between 12 and 17 
years old. We are seeing a lot of youth gang activity in this 
community as well, but we are concerned as well that the human 
trafficking of the gangs has become more profitable than the 
drugs and look at that as a major security issue for our 
community.
    Our pretrial services department provides services that do 
allow us to collect citizenship status as we look for bail 
hearings. Over the past 4-year period, 19 percent of the 
misdemeanor defendant interviews were of non-U.S. citizens. 
About half of those, 51.2 percent, were undocumented or 
illegal. Again, 10.2 percent of the total misdemeanors were 
illegal aliens.
    The numbers are similar for felonies, about 11.5 percent 
for non-U.S. citizens; 52 percent were undocumented. Again, 
similarly on combined misdemeanor felony trials. Sixty-plus 
percent were from Mexico; 67 percent of those from Mexico were 
in Harris County illegally.
    Again, there is no real correlation between the illegal 
aliens and the general population in reference to our justice 
system, but you can look at the impact. Our region is estimated 
to have between 400,000 and maybe 430,000, up 30,000 from the 
year 2000 in the Houston region in 2005. And, absent any other 
information, that is the best data we can get.
    If there were a national citizenship database, I would urge 
the Federal Government to allow local governments to have 
access for us to decide how we could best use that database, 
not perhaps in the denying of services but in the ability to 
better deliver and target our services in the population we are 
dealing with.
    We again do have the concerns that were expressed earlier 
about the porous borders, the jihadist Web sites that are 
talking about the open border. Recently, there was a bomb in 
Karachi in a stadium, but the pattern of that attack followed a 
Web site that pictured the Dallas, Texas stadium in Irving 
where the Cowboys play. It had suggestions about infiltrating 
our borders and who to use for suicide bombers within the 
stadium. It is a threat to the community.
    So we do want to follow up with, again, we are very 
concerned about those issues in our community. We have shared 
the concerns with the other sheriffs in the community and 
continue to work with them. Again, we will continue to work 
through our intelligence with Major O'Brien and touch on this 
with the sheriff's office with comments made by the U.S. 
attorney's office about Hezbollah and Mexico and the arrests 
this spring of Hezbollah operatives within that country.
    I remain available for questions and defer again on most of 
the law enforcement issues to the rest of the panel.
    [The statement of Judge Eckels follows:]

                 Prepared Statement of Robert A. Eckels

    Mr. Chairman and Members of the Committee, I am Robert Eckels. I 
serve as the County Judge of Harris County, Texas and I would like to 
welcome you and your staff to Harris County and to our new Harris 
County Civil Justice Center. Since the ribbon-cutting ceremony this 
past March, you are the first congressional committee to grace us with 
your presence in this room.
    For those who are not familiar with our system of government here 
in Texas, a County Judge is the presiding officer of the five member 
Commissioners Court, the governing body of the county. I represent all 
the citizens of the third most populous county in the United States in 
much the same way county executives do in other parts of our country.
    Harris County is 1,756 square miles in area and, with our 2005 
population estimate of just under 3.7 million, is more populous than 23 
states. There are 34 municipalities within the county, including the 
City of Houston, our county seat, the fourth largest city in the 
country. More than 1.3 million people live in unincorporated Harris 
County and rely on the county to be the primary provider of basic 
government services.
    Like other communities around the United States, we rely on the 
U.S. Census Bureau to tell us about ourselves. On August 4, 2006 the 
U.S. Census Bureau released its mid-decade statistics on growth 
entitled ``State and County Characteristics Population Estimates--for 
July 1, 2005.'' The official estimate for the population of Harris 
County--3,693,050--is up 292,472 from the 2000 census.
    From other Census Bureau reports about Harris County we learned 
that our growth rate in the decade from 1990 to 2000 was 20.7%. In 2004 
it was estimated that 29% of our population was under the age of 18. In 
36.7% of our households a language other than English is primarily 
spoken and 22.2% of our population was foreign born. The Census Bureau 
does not ask about legal or migrant status of respondents in any of its 
survey and census programs as there is no legislative mandate to 
collect this information.
    Just two months after the July 2005 estimate, Harris County 
experienced a sudden influx of evacuees from Hurricane Katrina 
estimated to be more than 300,000 new permanent residents. While this 
was certainly not illegal immigration, that 10% increase in population 
almost overnight coupled with the existing influx of illegal immigrants 
pushes the resources of our community to the limits.
    I applaud you for holding this hearing on Criminal Activity and 
Violence Along the Southern Border here in Harris County because we are 
heavily impacted, like major metropolitan areas all over our country, 
by this kind of activity as well as by illegal immigration.
    Although we are not located on the southern border of the Untied 
States, the Port of Houston is our gateway to the Gulf of Mexico 
enabling us to tremendously expand the commerce of our region and 
state, but also making us vulnerable to criminal activity and violence. 
We have been working with this committee, the Congress and the U.S. 
Department of Homeland Security to provide a higher level of security 
for the Port.
    Harris County received funding under the FY2005 Port Security Grant 
Program which will enable electronic surveillance and the initiation of 
water-side patrols that are part of the region's plans for the first 
stage of detection and mitigation against improvised explosive device 
attacks along the Houston Ship Channel.
    This will provide a first step towards inter-jurisdictional 
partnering within the region and assist with the implementation of 
regional security plans associated with the Port of Houston Authority, 
Port Strategic Security Council, regional industry partners, Houston 
Urban Area Security Initiatives and other homeland security-related 
plans. This important first step will lead to additional steps to raise 
the level of security along the Port. I certainly appreciate and 
encourage this Committee's continued work in helping local governments 
secure ports and other vulnerable infrastructure.
    I will focus on three areas where you have requested information, 
the impact of illegal immigration on public school education, health 
care delivery and our law enforcement/criminal justice systems.
    However, in preparing this testimony I have become increasingly 
aware that gathering information on the impact of illegal immigration 
and associated criminal activity and violence is made more difficult 
because citizenship status statistics are not gathered by most entities 
of local and state government.
    For example, as standard practice, the Harris County Public Health 
and Environmental Services Department (HCPHES) conducts case 
investigations following notification of an occurrence of a reportable 
condition, including certain communicable diseases. These case 
investigations are intended to identify potential risks to the 
community and inform the development of disease control measures that 
may be needed to protect the community--that is, to ensure that others 
are not placed at risk.
    Because a person's full participation and disclosure are critical 
during the investigation process, HCPHES must establish and maintain a 
high level of credibility and trust with participants. If a participant 
felt threatened in any way, he or she might choose to discontinue 
participation, thus impeding the investigation and, as a result, 
potentially putting others in the community at risk for exposure to the 
communicable disease.
    Therefore, HCPHES collects only the information that is necessary 
to determine potential risks to the community and develop appropriate 
recommendations for disease control. Because knowledge of residency 
status does not contribute to these goals, HCPHES does not collect 
information related to residency status during case investigations for 
reportable conditions.
    Recently, Paul Bettencourt, the elected Tax Assessor-Collector and 
Voter Registrar for Harris County, testified before the House Committee 
on House Administration about non-citizen voting and the Federal 
Election Integrity Act of 2006. In his testimony, he reminded the 
committee that the State of Texas amended its constitution in 1921 to 
require that voters be U.S. citizens.
    He went on to say that there is no reliable database that he can 
check for proof of citizenship, but there could be at the federal 
level. A national citizenship data-base could be used by entities of 
local government, with sufficient safeguards in place to keep the data-
base secure, that would assist their efforts in identifying correctly 
the citizenship status of individuals and better determine the impact 
of illegal immigration on community resources.

PUBLIC SCHOOL EDUCATION
    Texas has a system of independent school districts or ISDs and 
charter schools created by the Texas Legislature that have the primary 
responsibility for implementing the state's system of public education 
and ensuring student performance. Each are political subdivisions of 
the state, having an elected governing body and the authority to levy 
and collect taxes and issue bonds to build infrastructure and to pay 
operational expenses. Harris County has 26 ISDs wholly or partially 
within the county.
    The Texas Education Agency (TEA), our state's department of 
education, is divided into 20 geographic regions, each served by an 
Education Service Center (ESC). Harris County is in the seven-county 
Region IV and Houston is its ESC. TEA keeps records on students, school 
districts and expenditures among other information and I can provide 
information for Region IV, but not easily for Harris County alone.
    With so many of Harris County's population being younger than 18 
years of age, 1,070,985 per the U.S. Census Bureau, one of the greatest 
challenges we face is to maintain an adequate number of classrooms and 
provide the classroom resources necessary to meet the needs of each 
student. We have to be able to predict where the families of school age 
children will be living in order to predict where classrooms will be 
needed and if schools must be built. We must be able to hire 
professional educators in sufficient numbers to maintain teacher-
student ratios to both meet our state's requirements and provide the 
quality education our communities deserve.
    In the State of Texas in the school year 2004-2005, there were 
4,383,871 students in public schools from early childhood education at 
age 3 to grade 12. In Region IV there are 962,286 students. The ethnic 
break down of the students in Region IV is as follows:

           African American              205,110              21.3%
                   Hispanic              400,271              41.6%
                      White              302,170              31.4%
            Native American                1,622               0.2%
     Asian/Pacific Islander               53,113               5.5%
                                 --------------------
                                         962,286
 

    Gathering statistical data on the impact of illegal immigration on 
education s almost impossible because ISDs are prevented by law from 
gathering and disseminating that information. The United States Supreme 
Court decided in Plyler v. Doe, 457 U.S. 202 (1982) that a Texas 
statute which allowed the state to withhold state funds from local 
school districts for the education of children who were not ``legally 
admitted'' into the United States, and which authorized local school 
districts to deny enrollment to such children, violated the Equal 
Protection Clause of the Fourteenth Amendment.
    This ruling established the principle of ``Don't Ask-Don't Tell'' 
in public schools. Children cannot be denied an education because of 
citizenship status and therefore there exists no reason to ask the 
question and collect the data. There was a belief that children should 
not be punished because of the actions of their parents and therefore 
deserved the opportunity to receive an education and an opportunity to 
become productive members of society.
    While we cannot accurately quantify the impact that illegal 
immigration has on public education in Harris County, there is no way 
to deny that there is a substantial impact.
    Based mostly on anecdotal evidence from administrators, teachers 
and students who tell of their experiences with over-crowding, security 
and discipline problems as well as substantial language barriers and 
cultural differences that distract from the quality of education 
received in the classroom, there is no way to deny that problems exist 
and have existed for generations. There is also no way to deny that our 
continued effort to educate any and all students who want an education 
will enrich our county, our state and our country.
    The starting point for providing an education is to overcome 
language barriers that exist when students are English language 
learners (ELL) in order to comprehend classroom instruction. The goal 
of the state's Bilingual Education and English as a Second Language 
(ESL) Programs are to enable ELLs to become competent in comprehending, 
speaking, reading, and writing the English language and to succeed 
academically in Texas public schools.
    There is no direct correlation between citizenship status and 
Bilingual Education/ESL Programs because children born in the United 
States are citizens by birthright granted in the 14th Amendment to our 
constitution, but they may be raised in a household where only Spanish 
or another language is exclusively spoken. However, these programs may 
provide an insight that will help approximate the impact that illegal 
immigration has on public education.
    According to TEA in the school year 2003--2004 (the most recent 
data available), 631,534 or 14.4% of all students in Texas public 
schools were enrolled in Bilingual/ESL educational programs. Some 
25,000 or 8.4% of all teachers were part of these programs and 
$965,336,115 or 4.2% of all funds spent on public school education was 
spent on these programs.
    In our TEA region, the numbers were slightly higher. Seventeen 
percent of our students in Region IV were enrolled in Bilingual 
Education/ESL Programs and 9.5% of teachers taught in these programs. 
Of all funds spent by ISDs in Region IV, $332,600,000 or 6.8% was spent 
on these programs.
    These numbers have been trending upward in the past decade. In the 
school year 1999--2000, 14.4% of Region IV students and 8.9% of 
teachers were part of the Bilingual Education/ESL Programs while 
$176,676,005 or 6.3% of all funds spent on public school education was 
spent on these programs. In the school year 1994--1995, 12.3% of Region 
IV students and 7.8% of teachers were part of the in Bilingual 
Education/ESL Programs $126,365,532 or, again, 6.3% of all funds spent 
on public school education was spent on these programs.
    Again, these programs do not reflect the actual number of 
undocumented students in Texas or Region IV schools, but these 
statistics may assist the committee's efforts to begin to quantify the 
impact that illegal immigration has on public education in the United 
States. As we learned from the aftermath of Hurricane Katrina, any kind 
of rapid growth in our communities has a serious impact, whether that 
growth is from disaster relocation or a rapid influx of immigrants. In 
our schools planning for providing adequate resources for 
infrastructure, teachers and teaching materials, we must also provide 
additional security, transportation for students, breakfast and lunch 
programs and extracurricular activities. We must also provide the 
resources to deal with the special needs of students who have language 
and cultural differences that prevent them from learning. While this is 
not a job too big for us, it is certainly a continuous challenge that 
is certainly exacerbated by illegal immigration.

HEALTH CARE
    Fortunately, I am able to provide better statistical data to you on 
the impact of illegal or undocumented aliens on our public health care 
delivery system in Harris County. On April 4, 2006 the Harris County 
Commissioners Court asked David Lopez, the President and CEO of the 
Harris County Hospital District to provide a report on the use of the 
Hospital District's facilities by undocumented residents of Harris 
County for the most recent four-year period. We also asked for 
information on the fiscal impact to the county for any uncompensated 
costs that the taxpayers of Harris County would be asked to pay to 
support the system. On June 9, 2006, Mr. Lopez provided the 
Commissioners Court with a report of an analysis for the years 2002 
through 2005. I have included that report as an attachment to my 
testimony.
    Briefly, I'll summarize the most important findings of the data 
analysis that went into that report. The Harris County Hospital 
District (District) is a political subdivision of the State and as such 
it has the authority to tax property within Harris County to generate 
necessary operational revenue. It is run by an appointed Board of 
Managers. The Harris County Commissioners Court approves the District's 
annual budget and sets the appropriate property tax rate to meet 
expenses.
    This report looks at three cost centers to determine the total cost 
of services provided: undocumented inpatient care, undocumented 
outpatient care and undocumented pharmacy-only care. The term 
``undocumented'' refers to all non-U.S. citizens who have failed to 
present appropriate documentation to establish U.S. citizenship when 
either presenting for emergency care or applying for Harris County 
Hospital District eligibility.
    From 2002 to 2005 the District saw a 17.7% increase of undocumented 
inpatients served and a 50% increase in cost for services rendered. The 
total cost for undocumented inpatients for 2005 was $82,240,000 with a 
four-year total (2002--2005) of $272,600,000.
    During that same time period the District received payments and 
reimbursements totaling $106,600,000 leaving an unpaid balance of 
$166,000,000 that had to be paid by Harris County taxpayers. Of the 
undocumented population discharged in 2005, 83% were persons from 
Mexico; 6% were from El Salvador and Guatemala; and the remaining 11% 
of the discharged were from either Britain, Canada, Haiti, India, Iraq, 
Iran, Nigeria, Nicaragua, Vietnam or ``other.''
    Looking at undocumented outpatients served by the District, 
outpatient clinical activity grew from 177,981 visits in 2002 to 
272,067 in 2005, representing a 52.8% increase during that time period. 
In 2005, undocumented outpatients generated approximately 18% of 
District total outpatient visits. The costs for outpatient clinical 
services grew from $19,600,000 in 2002 to $38,400,000 in 2005, 
representing a 96% growth rate.
    Payments and reimbursements fell by $600,000 during that period, 
leaving a growth in net cost of 111% for a total of $103,100,000 in net 
costs for undocumented outpatient services rendered. Of the 
undocumented population that sought District outpatient services in 
2005, 86% were from Mexico; 4.5% from El Salvador and Guatemala; and 
9.5% were from Britain, Canada, Cuba, Haiti, India, Iraq, Iran, 
Nigeria, Russia, or ``other.''
    Outpatient pharmacy-only visits are visits during which a patient 
does not have an encounter with a provider and receives services only 
at the pharmacy, e.q., prescription refills. Annual pharmacy-only 
visits for the undocumented grew from 75,611 in 2002 to 156,637 in 2005 
representing an increase of more than 100%. Costs grew at a rate of 
145% from $3,100,000 to $7,600,000 for a four-year total of 
$19,600,000.
    Payment and reimbursement for that period was $2,100,000, resulting 
in a net cost of $17,500,000 for the 4-year period. Of the undocumented 
population that sought District ``pharmacy only'' visits in 2005, 86% 
were from Mexico; 4.5% were from El Salvador and Guatemala; and 9.5% 
were from Britain, Canada, Cuba, India, Iran, Iraq, Nigeria, Russia, 
Vietnam or ``other.''
    The total cost to the District for undocumented inpatient, 
outpatient and pharmacy-only care for the year 2005 was $128,400,000. 
The District received payments and reimbursements that amounted to 
$31,000,000 for a total net cost of $97,300,000.
    For the four-year period covered in the report, costs were 
$403,500,000 while payments and reimbursements totaled $116,900,000 
resulting in net costs of $286,600,000 that Harris County taxpayers 
paid in the years 2002--2005 to provide health care services to 
undocumented residents through the District.
    In addition to the net costs that were borne by Harris County 
taxpayers, $99,140,000 or 84.9% of the $116,900,000 in payments and 
reimbursements the District received from 2002--2005 came from Type 
Program 30 (TP30) a Federal Medicaid program for emergencies. Those 
funds are, of course paid by federal taxpayers so part of that comes 
from Harris County taxpayers as well.
    Another finding that may be pertinent to your investigation is how 
the $27,000,000 in Emergency Medicaid reimbursements was used in the 
year 2005. Of the 11,000 births performed by the District, 7,900 were 
to undocumented mothers. That represents 71.8% of all births and more 
than 80% of the Emergency Medicaid reimbursements to the District.
    To put these costs into perspective, the entire budget for the 
District in the years 2002 through 2005 was $2,636,000,000 total 
uncompensated care was $1,364,797,000 or about 51.7%. Total net costs 
for undocumented patients of the District for that period was 
$286,600,000 or 20.9% of the total uncompensated care for the four-year 
period. That figure for uncompensated care for undocumented patients of 
the District as a percentage of the total uncompensated care it 
provides has remained relatively constant over the past 4 years, that 
is right around 20%.

LAW ENFORCEMENT/CRIMINAL JUSTICE
    I will defer to the others on this panel to provide you with most 
of the information on Law Enforcement and Criminal Justice since this 
is their area of expertise. But I do want to give you my perspective on 
criminal activity and violence attributable to illegal immigration. The 
most dramatic increase in violence occurs with the formation and 
proliferation of gangs in Harris County. Large metropolitan areas make 
assimilation easier and greater numbers of victims to prey upon. We 
continue to be concerned about what gangs are doing to the quality of 
life in our county and vigilant in our effort to prevent this kind of 
activity.
    The James A. Baker III Institute for Public Policy at Rice 
University here in Houston is studying the most violent of these gangs 
and provides the following information:
        Harris County is a hub of activity for ``Mara Salvatrucha--13'' 
        (MS-13) and reportedly a favorite area of operation for its 
        leader Eber Anibal Rivera Paz, aka ``El Culiche,'' aka Franklin 
        Jairo Rivera-Hernandez, aka Lester Rivera Paz. Rivera Paz was 
        arrested and tried in Houston. He received less than two years 
        for his illegal entry into the United States. Unfortunately, 
        when released from federal prison for deportation, Honduran 
        authorities were not notified, and he is again at large.
        MS-13 is more than a street gang. Honduras considers MS-13 as 
        its top national security threat, and President Ricardo Maduro 
        of Honduras has framed the struggle against MS-13 and other 
        gangs as a fight for the life of his nation. Authorities say 
        the gang plotted to assassinate Maduro and kill the president 
        of Honduras' Congress with a grenade, and the gang did kidnap 
        and murder Maduro's son.
        MS-13 is marked by its viciousness, brutality--initiation 
        rights, assassinations, and dismemberment--as well as its 
        paramilitary tactics. The gang participates in trafficking 
        drugs, arms and humans, with two primary criminal enterprises 
        being auto theft and weapons. Although originating in Central 
        American barrios of Los Angeles, MS-13 flourished in Central 
        America, and many gang members from Central America enter the 
        U.S. illegally.
        The gang shows no fear of law enforcement and is known to booby 
        trap stash houses with anti-personnel grenades. Local law 
        enforcement have been involved in intense shootouts with MS-13 
        and recovered advanced weapons, such as AK-47s. During 
        Operation Community Shield in 2005, 14 MS-13 members were 
        arrested in Houston. The Zetas also are believed to have a 
        presence in Houston. Hopefully Houston will not become a future 
        battle ground between MS-13 and Los Zetas, as Nuevo Laredo has 
        been.
        MS-13 is a far more dangerous gang than previous or current 
        rivals because of its large numbers and complex member network. 
        Members are typically more brazen than those from other gangs 
        because if they become wanted in the U.S. their gang can 
        arrange for their transportation across the border and 
        relocation in a 'friendlier' country, while additional members 
        are smuggled across the border.
        MS-13 has now begun to target and fire upon U.S. border patrol 
        from the Mexican side. In El Salvador, Honduras, Guatemala and 
        Mexico members are known to threaten officials who interfere 
        with their business, typically with a verbal threat to kill 
        that official or their family.
        The governments of these countries have been unable to 
        effectively defend themselves against this gang, and in return 
        this gang has been able to gain considerable political power. 
        This strategy of hi-jacking governments is now being used 
        against federal, state, and local governments in the United 
        States. In 2005 Los Angeles was investigating the gang, who, in 
        retaliation left a bullet on the lead detective's door.
    The Harris County Pretrial Services Department provides services 
that support informed, accountable pretrial release and detention 
processes while neither unduly restricting a defendant's liberty nor 
compromising the safety of the community. In performing this mission 
the department interviews nearly 9 out of 10 defendants in the county 
court system.
    Pretrial Service workers are instructed to collect information 
about citizenship status, because Harris County's bail schedule has 
provisions for higher bail if a defendant is an illegal alien. It is 
very likely that if illegal aliens are released without sufficient 
bail, they would simply leave the area in order to avoid trial. The 
defendant report may be the only source a magistrate or judge has to 
make bail determination and to take proper preventative steps to assure 
the defendant appears for trial.
    In the past four-year period an average of 19% of Misdemeanor 
Defendant Interviews were with non-U.S. Citizens. While 48.8% were 
legal residents or legally permitted to be in the U.S., 51.2% were 
undocumented and therefore illegally in this country. Of the total 
Misdemeanor Defendant Interviews, 10.2% were with illegal aliens. The 
number of illegal aliens who are defendants in misdemeanor cases in our 
courts have been trending upward by about 2.16% per year.
    Looking at Felony Defendant Interviews in that same time period, 
11.5% of all interviews were with non-U.S. citizens of whom 52.82% were 
undocumented, so that interviews with illegal aliens represented 6.7% 
of all such interviews. Felony Defendant Interviews with illegal aliens 
have also been trending upward by the same 2.16% per year.
    Of all defendants of both misdemeanor and felony trials who were 
non-U.S. citizens, 60.4% were born in Mexico, with 67% of those from 
Mexico being in Harris County illegally. Most likely, those who were in 
Harris County illegally entered from our southern border.
    While there is no real correlation between the number of legal and 
illegal aliens in the general population and those who are defendants 
in the civil justice system, we could take a rather simplistic look at 
our population of 3.69 million and calculate that about 310,000 might 
be here illegally. Some estimates put the population of illegal aliens 
in our region in 2005 at between 400,000 and 430,000 and those 
estimates are up 30,000 from the year 2000. Absent any formal or 
official way of knowing who is in the U.S. illegally, we must rely on 
best-guess efforts to determine that number.
    If there were a national citizenship data base I would urge the 
federal government to authorize local governments to have the power to 
decide when and where that data base should be used. In determining 
citizenship status of a defendant in a trial or for a voter in 
elections it would be an extremely valuable tool. However, as I 
described in our public health area, using such a database might 
inhibit or prevent the proper investigation of the courses of 
communicable diseases in our community. I believe that we at the local 
level can best determine when to apply citizenship status and when it 
would not be in our best interest.
    Mr. Chairman and members of the committee, I want to thank you 
again for allowing me to discuss our experiences and concerns regarding 
criminal activity and violence along our southern border as well as the 
impact of illegal immigration on our community. I will be delighted to 
respond to any questions and I will continue to work with you and this 
committee to mutually serve our constituents in any way possible.

    Mr. McCaul. Thank you, Judge. I appreciate you being here. 
I know your time is valuable. Those numbers are actually very 
helpful to this committee.
    Judge Eckels. They are exact in the written testimony, as 
well as the backup from the hospital support staff.
    Mr. McCaul. Thank you. I would like to note also that 
Harris County District Attorney Chuck Rosenthal was here, had 
to leave. His statement, however, will be made a part of the 
record from this hearing and part of the Congressional Record.
    [The statement of Mr. Rosenthal follows:]

     A Report to the Congressional Sub-Committee on Investigations

    AUGUST 16, 2006 Investigation of Criminal Activity and Violence 
along the Southern Border
    The Harris County District Attorney's Office estimates that 
approximately 5,000 of the 102,775 thousand cases this office handled 
in 2005 involved non-citizens. From January 1, 2006 to July 1, 2006 
approximately, 7,000 more were added. These figures are dependent, and 
based upon, what arresting officers report to us in a computer field 
requesting citizenship status.
    Perhaps a more telling figure can be derived from Harris County 
Pre-Trial Services. They interview approximately 87% of the people 
admitted to the Harris County jail (the other 13% make a bail bond 
before they enter the jail population). I have attached tables compiled 
by that agency. They show a steady rise in the percentage of un-
documented aliens from 2002 to 2005. Also included is the criterion 
that the agency uses in making these determinations. Percentages 
applied to cases filed show that of the approximately 13,000 non-
citizens handled in the Harris County Criminal Justice system in 2005, 
approximately 7,200 were undocumented aliens.
    There are additional difficulties in dealing with foreign persons 
in our criminal justice system. There is no reliable information to 
check regarding the criminal histories of aliens. Obviously, our plea 
bargain recommendations and jury verdicts are influenced by a 
defendant's criminal history. Not only are the records in foreign 
countries often poorly kept, in many cases, we rely on the self-report 
of a defendant for his country of origin and cannot be certain of which 
country's data base to inquire.
    For years before, the Automated Fingerprint Identification System 
(AFIS), individuals could be, and were, arrested under several 
different aliases. In point of fact, every two years foreign nationals 
incarcerated in Texas prisons can apply to the governor to serve the 
remainder of their sentence in their home country. The governor sends 
those applicants convicted in Harris County to me for my recommendation 
on their application. Nearly all have aliases; even allowing for the 
Hispanic propensity for interchangeably using their mother or father's 
surname.
    Police agencies can tell you that the immigrant population under- 
reports crimes. Often, this includes crimes committed by other 
immigrants. It has been my personal experience that if undocumented 
aliens become witnesses to crime, they often give false names and/or 
addresses to the police and are not available as witnesses at trial. 
Without witnesses, defendants are more difficult to convict.
    I can also testify, that many people who commit crimes flee the 
United States. Many of our neighboring countries to the South do not 
have extradition treaties with the United States or refuse extradite 
their own nationals. Countries that do have extradition treaties with 
the United States, like Mexico, often attempt to make extradition 
conditional on the maximum term of years we will seek upon conviction.
    Completely unrelated, but something very close to my heart, is that 
last year my 14-year-old daughter tested positive as being exposed to 
Tuberculosis, a disease that was nearly wiped out of this country years 
ago. She was required to take daily antibiotics for nine months. Her 
diagnostic radiologist Dr. George Butrous, M.D. (a naturalized citizen 
from Egypt), told me that medical journals document the fact that the 
lack of health screening for illegal immigrants has re-introduced a 
number of previously eradicated diseases into this country.
    According to the Harris County Budget Director, the cost for 
treating illegal immigrants in Harris County's tax supported hospitals 
was 97.3 million dollars in 2005.
    If the commission requests me to expound upon any of the 
information given in this report, I will be happy to do so. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Harris County Pretrial Services
    Agency Policy and Procedure Manual
Conducting an Interview with a Defendant
Citizenship and Legal Status
    Harris County's bail schedule has provisions for higher bail if a 
defendant is an illegal alien. The defendant report you prepare may be 
the only source a magistrate or judge has to make this determination. 
While you should check the ``hold'' screen and the Immigration and 
Naturalization Service's (INS) ``detainer'' list to verify if INS has 
placed a hold or is investigating the defendant's status, you need to 
ask the defendant questions about his or her citizenship and legal 
status. Incorrect information here could lead to a defendant's 
unnecessary detention or failure to appear in court if the defendant 
makes bond and then INS returns him to his country.

        1. Ask every defendant whether he or she is a United States 
        citizen regardless of his or her answer to the question about 
        place of birth. Document the answer as Y (yes), N (no), or U 
        (unknown).
        2. If the defendant says that he is a United States citizen, 
        you do not need to ask the question about legal status.
        3. If the defendant says he is not a United States citizen, you 
        must ask the defendant about his legal status. Do not lead the 
        defendant by giving him options to choose from. You must use 
        open-ended questions such as:

                <bullet> What is your legal status?
                <bullet> Do you have legal status in the U.S.?
                <bullet> Do you have permission to be in the U.S. 
                legally?
                <bullet> In what country are you a citizen?

        4. If the defendant indicates a legal status, inquire about the 
        type of document he has and the document's expiration date. Let 
        him provide the name of the document.
        5. This Country's immigration laws are very complex. The 
        following list is not exhaustive but includes the documents 
        that INS encounters most frequently with people who are in this 
        Country legally. You should expect similar responses if a 
        defendant has legal status here.

                Border Crossing Card_72-hour limit/ 50-mile limit.
                Permit (i.e. Work Permit Card)--Granted while someone 
                is applying for legal status and is valid only until 
                the decision is made whether the person will be granted 
                legal status or not.
                Temporary Resident Card_This card indicates someone has 
                applied for Residence Status. A person will only 
                receive this card if INS is certain that Residence 
                Status will be granted.
                Resident Alien Card_(Previously known as the ``Green 
                Card'') This card confers a permanent legal status.
        6. A Passport does not give a defendant legal status here. The 
        Passport's primary function is to establish a person's 
        identity. But you've probably heard the term, ``getting a 
        Passport stamped''. This stamp is actually a Visa. A person 
        needs both a Passport and a Visa to prove that he or she is 
        here legally.
        7. A Visa is a stamp or a document, usually affixed to the 
        Passport, indicating a person has permission to enter the 
        country. In years past, the official stamp found in the 
        Passport usually represented the Visa. Today, a Visa will more 
        likely be a small document affixed to a page in the Passport or 
        it may be a separate document altogether that would accompany a 
        Passport. There are two types of Visa:

                <bullet> Non-Immigrant Visa--Conveys a specific date 
                and time of entry and exit and can be used for business 
                or for pleasure.
                <bullet> Immigrant Visa--A large packet of official 
                papers generated by the naturalization process.

        8. Record the defendant's answer on the PTS8 screen.
        9. Application for something does not confer legal status. If a 
        defendant is here legally, he or she will generally have the 
        documentation to prove it.
        10. The experience of INS has been that if a person IS here 
        legally, he generally knows it! A young defendant however may 
        not know his status, but his mother or father should.

                                                        Non U.S. Citizen by Citizenship Status *
--------------------------------------------------------------------------------------------------------------------------------------------------------
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Misdemeanor
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       2002            %         2003            %         2004            %         2005            %
--------------------------------------------------------------------------------------------------------------------------------------------------------
Legal Resident                                        2,352        31.9%        2,798        33.7%        2,890        32.4%        2,813        30.3%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Visa                                                    452         6.1%          254         3.1%          253         2.8%          291         3.1%
--------------------------------------------------------------------------------------------------------------------------------------------------------
WorkPermit                                              783        10.6%          949        11.4%          818         9.2%          836         9.0%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Undocumented                                          3,560        48.3%        4,071        49.0%        4,705        52.7%        5,092        54.8%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Unknown                                                 222         3.0%          238         2.9%          263         2.9%          264         2.8%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total                                                 7,369         100%        8,310         100%        8,929         100%        9,296         100%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Felony
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       2002            %         2003            %         2004            %         2005            %
--------------------------------------------------------------------------------------------------------------------------------------------------------
Legal Resident                                          960        32.4%        1,147        34.0%        1,141        33.0%        1,129        30.6%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Visa                                                    180         6.1%           83         2.5%           83         2.4%           89         2.4%
--------------------------------------------------------------------------------------------------------------------------------------------------------
WorkPermit                                              263         8.9%          303         9.0%          272         7.9%          282         7.6%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Undocumented                                          1,491        50.3%        1,714        50.8%        1,848        53.4%        2,096        56.8%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Unknown                                                  73         2.5%          127         3.8%          118         3.4%           97         2.6%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total                                                 2,967         100%        3,374         100%        3,462         100%        3,693         100%
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                           Non U.S. Citizen As a Percentage of Complete Interviews Conducted *
--------------------------------------------------------------------------------------------------------------------------------------------------------
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Misdemeanor
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       2002            %         2003            %         2004            %         2005            %
--------------------------------------------------------------------------------------------------------------------------------------------------------
All Misdemeanor Defendant                            39,656                    42,017                    46,485                    49,613
Interviews
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen                                      7,369        18.6%        8,310        19.8%        8,929        19.2%        9,296        18.7%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S.Citizen;                                      3,560         9.0%        4,071         9.7%        4,705        10.1%        5,092        10.3%
Undocumented
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen; Place of Birth Mexico               4,830        12.2%        5,462        13.0%        5,852        12.6%        5,935        12.0%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen; Place of Birth Mexico;              2,949         7.4%        3,382          8.0        3,846         8.3%        3,987         8.0%
Undocumented
--------------------------------------------------------------------------------------------------------------------------------------------------------
Felony
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       2002            %         2003            %         2004            %         2005            %
--------------------------------------------------------------------------------------------------------------------------------------------------------
All Felony Defendant Inteviews                       27,460                    28,525                    29,979                    31,151
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen                                      2,967        10.8%        3,374        11.8%        3,462        11.5%        3,693        11.9%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen;                                     1,491         5.4%        1,714         6.0%        1,848         6.2%        2,096         6.7%
Undocumented
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen; Place of Birth Mexico               1,924         7.0%        2,279         8.0%        2,277         7.6%        2,422         7.8%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non U.S. Citizen; Place of Birth Mexico;              1,189         4.3%        1,375         4.8%        1,450         4.8%        1,600         5.1%
Undocumented
--------------------------------------------------------------------------------------------------------------------------------------------------------

    * Non U.S. citizen includes defendants who who stated that they 
were not citizens or did not know if they were citizens and who 
reported their place of birth outside the US. Information is self-
reported by the defendant during the pretrial interview.
    Pretrial Services, March 2006

    Mr. McCaul. Next, the Chair recognizes Major Michael 
O'Brien with the Harris County Sheriff's Office.

  STATEMENT OF MICHAEL O'BRIEN, HARRIS COUNTY SHERIFF'S OFFICE

    Mr. O'Brien. On behalf of Sheriff Tommy Thomas, I would 
like to thank the committee for support of law enforcement and 
their work on improving our Nation's security and tightening up 
our borders.
    The United States is considered a primary destination for 
illegal immigrants from all over the world because of our 
freedoms, our economy, and the ease of obtaining work here. As 
a result, we have become a haven for organized crime involving 
the smuggling and human trafficking of illegal aliens across 
our border.
    The impact of illegal immigration to Harris County has been 
enormous and has placed a substantial strain on law enforcement 
police resources. There is no argument that only a small 
percentage of illegal aliens are in fact the criminal element. 
Those that have become involved are considered to be part of 
basically a cash-based underground economy that is operating 
throughout the United States. These criminal organizations are 
predominantly involved in smuggling, human trafficking, 
kidnapping, drugs and money laundering, and for the most part, 
these members are illegal immigrants themselves.
    One of the most prevalent crimes involving illegal 
immigrants in Harris County involves the human trafficking 
factor. The difference between human trafficking and smuggling 
involves the heinous treatment of these victims, which 
basically equates to modern-day slavery. There have been 
numerous instances where non-U.S. citizens, predominantly from 
Mexico, have paid large amounts of money to be brought across 
the border, only to be held for ransom and made to work for 
extra fees prior to their release. If they can't pay, many 
times their families are blackmailed for additional ransom 
payments prior to their release. Some of these cases have even 
included severe torture of these victims while the smuggler 
sits on the phone talking to relatives, listening to their 
screams of pain, trying to convince them to pay them additional 
funds. If they can't pay, they are often locked in back rooms 
and forced to work as prostitutes or in some other type of 
confined labor. The outcome is that some of these illegal 
immigrants become modern-day indentured slaves who have no 
choice but to comply with the smugglers' demands.
    One recent example of human smuggling involved the Walter 
Corea human trafficking organization, in which their victims 
were held in various locations throughout Harris County. In 
this case, 98 women were smuggled across the border and made to 
work as prostitutes to pay off fees. The investigation 
determined that Corea and his gang were operating through a 
network of bars and restaurants in the Houston Harris County 
area which had been designated for smuggling women from Mexico 
and South America. These women, some of them which were later 
determined to be underage, were required to work as prostitutes 
until they could pay off the smuggling fees to the bar owners 
who had paid their way across to begin with.
    This year-long undercover operation resulted in all 98 
victims being taken into custody, along with the arrest of 
Corea and 7 of his organizational members. This investigation 
involved the largest number of victims for any single case of 
human trafficking the United States to date, and this happened 
in Texas and in Harris County.
    In addition to our field investigative efforts, Immigration 
and Customs enforcement agents are assigned to the sheriff's 
office prisoner intake facility to assist deputies in 
identifying illegal immigrants brought to the jail. Upon 
booking at the sheriff's office processing center, all 
prisoners, regardless of race, are asked if they are United 
States citizens and their country of origin or their country of 
birth. The subsequent data obtained is turned over to the 
Federal Government's State criminal immigration assistance 
program for partial reimbursement of the cost to Harris County 
for handling the immigrants.
    On average, the Harris County sheriff's office receives and 
processes over 130,000 prisoners per year. Approximately 20 to 
23 percent of these prisoners brought in are foreign born and 
are non-U.S. citizens. These numbers, of course, are self-
reported, and it is safe to assume that the numbers would be 
quite higher; but again, most of them are not going to tell us 
for fear of being returned to their country.
    The State criminal immigrant program database for the last 
fiscal year estimated that 15 percent of the entire budget of 
the Harris County sheriff's office was expended investigating, 
arresting, processing, housing and providing medical attention 
to illegal immigrants. This equates to a cost of over $41 
million of our budget. SCAAP reimbursement back to Harris 
County was just slightly over $2 million, or a mere 6 percent 
of the total cost. The rest of that money was borne by Harris 
County taxpayers to handle illegal immigrants.
    Of those prisoners who report foreign birth, approximately 
60 percent are Mexican born, and another 20 percent are from 
South or Central America. Many, as I discussed earlier, do not 
truthfully report their illegal status for fear of being 
deported. It is virtually impossible with the financial and 
manpower constraints of our office for us to investigate this 
situation any further.
    As you can see, the numbers are considerable, and they 
constitute a significant drain on our financial resources. One 
of the major problems faced by ICE, as well as local law 
enforcement, is the lack of bed space. This was brought up 
earlier by Mr. McCaul and, I believe, by Ms. Lee. Less than 
20,000 beds throughout the whole United States is dedicated to 
illegal immigrants. With that situation, what happens, as Mr. 
McCaul brought up earlier, is that many illegal immigrants are 
given virtually a summons to appear in court later. Most often, 
they don't report and they disappear into our communities using 
different identification.
    The Harris County Sheriff's Office has been working 
diligently with the Hispanic community to build trust and 
provide excellent services. There have been numerous cases 
where we have received invaluable information from the Hispanic 
community which has resulted in arrests and convictions of 
dangerous felons.
    Sheriff Thomas supports stronger and more effective 
security in our Nation's borders, and he does not condone 
illegal immigration. The Harris County's Sheriff's Office does 
not have a hand's-off policy regarding illegal immigration, and 
we will promptly assist any Federal agencies requesting our 
help. However, having deputies seek out and pursue illegal 
immigrants based solely on the immigration status would 
severely strain our already limited resources, as well as 
hinder our efforts when we need community involvement and the 
willingness for witnesses to come forward in solving crime.
    The primary mission of the Harris County Sheriff's Office 
is to provide a safe and secure environment for the residents 
as well as the visitors to Harris County. We are working hard 
to achieve these goals. We are sworn to protect all the people 
that come here, and when we respond to an incident that is 
determined to involve criminal activity, our policy is to take 
action based on the enforcement of Texas law and not 
immigration status. When appropriate, a law violator is 
arrested, charged, and processed through our criminal justice 
system.
    Thank you for your time, for your efforts, and again, on 
behalf of Tommy Thomas, we appreciate the work you are doing.
    [The information follows:]

                Prepared Statement of Michael J. O'Brien

Representing:
Sheriff Tommy Thomas
Harris County, Texas

    On behalf of Sheriff Tommy Thomas, I would like to thank the 
committee for their support of law enforcement and their work to help 
improve our nation's security. The United States of America is 
considered a primary destination for illegal immigrants from all over 
the world because of our economy, freedoms, and ease of obtaining work. 
As a result, we have become a haven for organized crime involving the 
smuggling and human trafficking of illegal aliens across our borders.
    The impact of illegal immigration to Harris County and the 
surrounding area has been enormous and has put a substantial strain on 
law enforcement resources. While there is no argument that only a small 
percentage of illegal immigrants are involved in criminal activity, the 
many that are have become involved in what is considered a cash-based 
organized crime underground economy. These criminal organizations are 
predominantly involved in smuggling, human trafficking, kidnapping, 
drugs and money laundering, and are mostly illegal aliens themselves.
    In 2004, the Harris County Sheriff's Office was awarded a grant 
from the Department of Justice to participate in the Human Trafficking 
Rescue Alliance (HTRA), and over the last several years we have been 
working closely with Immigration and Customs Enforcement (ICE), as well 
as the Federal Bureau of Investigation (FBI), to identify illegal 
aliens involved in criminal activity within our community. Multi-
jurisdictional task forces such as this alliance typically provide 
greater access to resources and information, and establish a team-based 
approach to investigations. Working side by side with Federal and other 
local agencies, we have been successful in arresting and charging 
suspects in some of the most serious crimes involving the terrorization 
and virtual enslaving of many illegal immigrants.
    One of the most prevalent crimes involving illegal immigrants in 
Harris County involves Human Trafficking. The difference between human 
trafficking and smuggling is the heinous treatment of the victims which 
can equate to modern day slavery. There have been numerous instances 
where non-U.S. citizens (predominantly from Mexico) have paid large 
amounts of money to be smuggled over the border, only to be held for 
ransom until they pay or work off additional fees. If they can't pay, 
many times their families are blackmailed and ransom payments are 
required for their release. Some of these cases have included severe 
torture of the victim while the smuggler is on the telephone with 
relatives so they can hear the screams of pain. If they still can't 
pay, they are often locked in back rooms and forced to work as 
prostitutes or in some other type of confined forced labor. The outcome 
is that some illegal immigrants become modern day indentured slaves who 
have no choice but to comply with the smugglers' demands.
    One recent example of human trafficking involved the Walter Corea 
Human Trafficking Organization which held their victims at various 
locations in Harris County. In this case, ninety-eight (98) females 
were smuggled across the border and made to work as prostitutes to pay 
off their fees. The investigation determined that COREA and his co-
conspirators were operating a network of bars and restaurants in the 
Houston-Harris County area dedicated to the smuggling of young Central 
American females to serve as prostitutes and ``pony dancers.'' These 
women, some of whom were determined to be under age, were required to 
work until they could pay off their smuggling fees to the bar owners. 
The women, and their families in their native countries, were 
frequently threatened with bodily harm by COREA and members of his 
organization unless they agreed to comply with instructions to work in 
the businesses until the ``organization'' determined that all fees owed 
were paid in full.
    This year-long undercover operation resulted in all 98 trafficking 
victims' being taken into custody, along with the arrest of COREA and 
seven of his organization members. The investigation involved the 
largest number of victims for any single case of human trafficking in 
the United States to date.
    In additional to field investigation efforts, Immigration and 
Customs Enforcement (ICE) has agents assigned to the Harris County 
Sheriffs Office prisoner intake and processing facility to assist 
deputies and specifically identify illegal aliens. In the past eighteen 
months, the Harris County Sheriff's Office and ICE agents have 
positively identified over nineteen hundred and forty (1940) illegal 
aliens who have been processed through our jail. On average, about 20 
detainers are placed each week on illegal aliens.
    Upon booking at the Sheriff's Office processing center, all 
prisoners, regardless of race or ethnicity, are asked if they are 
United States citizens and their country of birth. The subsequent data 
obtained identifying illegal aliens processed through the Harris County 
jail is turned over to the federal government's ``State Criminal Alien 
Assistance Program'' for partial reimbursement of costs associated with 
processing and handling illegal aliens.
    <bullet> On average, the Harris County Sheriff's Office receives 
and processes approximately 130,000 prisoners per year.
    <bullet> Approximately 20-23% of the inmates received into our 
custody report that they are foreign born and non-US citizens. These 
numbers are self-reported (the ``honor system''), thus it is safe to 
assume that the actual numbers are far greater.
    <bullet> The State Criminal Alien Assistance Program (SCAAP) data 
for the last fiscal year estimated that 15.22% of the entire budget for 
the Harris County Sheriff's Office was expended investigating, 
arresting, processing, housing and providing medical treatment for 
illegal aliens. This equates to a cost of $41,390,425. SCAAP 
reimbursement was in the amount of $2,693,977, or a mere 6.5% of the 
total cost, the remainder of which was borne by Harris County 
taxpayers.
    <bullet> Of those inmates who report foreign birth, approximately 
60% are Mexican-born, and another 20% are from South and Central 
America. Many do not truthfully report their illegal status in fear of 
being deported, and it is virtually impossible with current financial 
and manpower constraints for us to investigate further or improve the 
system.
    As you can see, the numbers are considerable and constitute a 
significant drain on our financial resources. One of the major problems 
faced by ICE, as well as local law enforcement, is the lack of bed 
space to hold illegal aliens. Throughout the nation there are less than 
20,000 beds dedicated to immigration violation offenders. Consequently, 
illegal aliens involved in minor crimes are given the equivalent of a 
summons and told to report to court. In most cases, these persons never 
report and subsequently disappear into the community using different 
forms of identification.
    The Harris County Sheriff's Office is working diligently within the 
Hispanic community to build trust and provide excellent services. There 
have been numerous cases where we have received invaluable information 
from within the Hispanic community that has resulted in the arrest and 
conviction of dangerous felons. Sheriff Thomas supports stronger and 
more effective security at our nation's borders, and does not condone 
illegal immigration. The Harris County Sheriff's Office does not have a 
``hands off'' policy regarding illegal aliens and we will promptly 
assist a Federal agency requesting our help. However, having deputies 
seek out and pursue illegal immigrants based solely on their 
immigration status would severely strain our already limited resources, 
as well as hinder our efforts and those of any local law enforcement 
agency, when we need community involvement and willing witnesses to 
help solve crime.
    The primary mission of the Harris County Sheriff's Office is to 
provide a safe and secure environment for the residents and visitors of 
Harris County, and we are working hard to achieve our goals through the 
use of increased community patrols, directed enforcement efforts, and 
state of the art investigative tools. The foundation of any 
organization is defined by its employees' honesty, moral standards, 
compassion, sincerity, and caring attitude. We are sworn to protect all 
the people we serve and our agency code of values includes such pillars 
of character as Respect, Fairness, and Justice through Excellence and 
Integrity. When we respond to an incident that is determined to involve 
criminal activity, our policy is to take action based on the 
enforcement of Texas law, and not immigration status. When appropriate, 
the violator is arrested, charged, and processed through the criminal 
justice system.

    Mr. McCaul. Thank you, Major, and please give Sheriff 
Thomas our best, and he is doing a great job. I think your 
testimony demonstrates how the illegal aliens, at the hands of 
traffickers, become the real victims here.
    Next, I would like to recognize John Moriarty, the 
Inspector General with the Texas Department of Criminal 
Justice.

    STATEMENT OF JOHN M. MORIARTY, INSPECTOR GENERAL, TEXAS 
                 DEPARTMENT OF CRIMINAL JUSTICE

    Mr. Moriarty. Mr. Chairman and members of the committee, 
thank you very much for the privilege of allowing me to testify 
here today on the effects of illegal immigration on the Texas 
prison system.
    As of May 31, 2006, the Texas Department of Criminal 
Justice had a population of approximately 152,000 inmates. Now, 
this is also self-reported, with limited investigation, but out 
of that number 11,606 claimed foreign birth; 10,376 claimed 
foreign citizenship; 6,612 had Immigration and Customs 
enforcement detainers; and 3,018 were known to have final 
orders of deportation completed by ICE. The exact numbers of 
offenders who are illegal aliens on any given day is unknown; 
however, Immigration and Customs Enforcement is working to 
provide that information to TDCJ.
    The Department of Criminal Justice has an excellent and, to 
our knowledge, somewhat unique working relationship with ICE, 
from which the institutional hearing and removal program has 
developed. The Department of Criminal Justice has constructed 
office space for ICE staff at the Goree unit in Huntsville and 
provides working space at other TDCJ facilities for their 
staff. As inmates are admitted to TDCJ, possible illegal aliens 
are identified and referred to ICE personnel. If ICE wants to 
interview the inmate, the offender is brought to the 
Huntsville, or other locations if appropriate, in order to 
facilitate that interview.
    Office space constructed for ICE includes administrative 
courtrooms which connects via a video link to an immigration 
administrative law judge here in Houston. The entire 
administrative process of processing final orders of 
deportation can be completed while the inmate is incarcerated 
in TDCJ, thereby expediting the deportation of the offender 
upon release. ICE staff is also provided with a list of all 
TDCJ releases so that any offender not identified upon 
admission may be reviewed prior to release.
    During fiscal year 2006, the Texas Department of Criminal 
Justice received $18.6 million from the Federal State criminal 
alien assistance program as partial reimbursement for the cost 
of housing illegal aliens. Any estimate of the cost of housing 
illegal aliens in the Texas prison system must take into 
account the lack of definitive data regarding the number of 
illegal aliens, but TDCJ estimates the cost of housing illegal 
aliens during fiscal year 2005 at $132 million. The cost of 
housing an illegal alien was assumed to be the same as the 
average cost of housing an inmate in TDCJ, which is $40.06 per 
day.
    My office is responsible for the criminal investigations 
inside the Texas prison system. We work very closely with the 
TDCJ security threat group staff that is responsible for the 
monitoring of criminal organizations within the prison system 
that could be a threat to the security of the Texas prison 
system. Groups such as the Texas Syndicate, the Mexican Mafia, 
MS-13, Barrio Azteca, and the PRM are active and operational 
within the prison facilities. The prison gang that is primarily 
composed of Mexican foreign nationals is the PRM. We currently 
have 723 suspected or confirmed members in our facilities. The 
PRM and the other security threat groups are actively engaged 
in homicide, drug trafficking, extortion and aggravated 
assaults. Removing these persons from our communities is an 
important and necessary step.
    We must also be aware that the ability of an inmate to 
commit crimes, though limited, can and still does occur. My 
office, on average, conducts 3,000 felony crime investigations 
inside the fences of the TDCJ prison system. The prosecution of 
these crimes puts pressure on the local, usually rural, court 
systems in the communities where the prisons are located. This 
is a good example of how the confinement of illegal foreign 
nationals affects every community in Texas where a prison is 
located. A cooperative effort between Federal, State and local 
law enforcement is necessary to be successful in combating this 
problem.
    Mr. Chairman, I thank you again for this opportunity to 
testify on this very important matter.
    Mr. McCaul. Thank you for that testimony.
    [The statement of Mr. Moriarty follows:]

                 Prepared Statement of John M. Moriarty

    Mr. Chairman and members of the committee, thank you very much for 
the privilege of allowing me to testify here today on the effect of 
illegal immigration on the Texas prison system. As of May 31, 2006, the 
Texas Department of Criminal (TDCJ) prison system had a population of 
approximately 152,000 inmates. Of that number:
        <bullet> 11,606 claimed foreign birth;
        <bullet> 10,376 claimed foreign citizenship;
        <bullet> 6,612 had Immigrations and Customs Enforcement (ICE) 
        detainers; and
        <bullet> 3,018 were known to have final orders of deportation 
        completed by ICE.
    The exact number of offenders who are illegal aliens on any given 
day is unknown; however, Immigrations and Customs Enforcement is 
working to provide that information to TDCJ.
    The Department of Criminal Justice has an excellent, and to our 
knowledge somewhat unique, working relationship with ICE from which the 
Institutional Hearing and Removal program has developed. The Department 
of Criminal Justice has constructed office space for ICE staff at the 
Goree unit in Huntsville, and provides work space at other TDCJ 
facilities. As inmates are admitted to TDCJ, possible illegal aliens 
are identified and referred to ICE personnel. If ICE wants to interview 
the inmate, the offender is brought to Huntsville (or other locations 
as appropriate). The office space constructed for ICE includes an 
administrative courtroom which connects via a video link to an 
immigration administrative law judge in Houston. The entire 
administrative process of processing final orders of deportation can be 
completed while the inmate is incarcerated in TDCJ, thereby expediting 
the deportation of the offender upon release. ICE staff is also 
provided with a list of all TDCJ releases so that any offender not 
identified upon admission may be reviewed prior to release.
    During Fiscal Year 2006 the Texas Department of Criminal Justice 
received $18.6 million from the federal State Criminal Alien Assistance 
Program (SCAAP) as partial reimbursement for the cost of housing 
illegal aliens. Any estimate of the cost of housing illegal aliens in 
the Texas prison system must take into account the lack of definitive 
data regarding the number of illegal aliens, but TDCJ estimates the 
cost of housing illegal aliens during FY 2005 at $132 million. The cost 
of housing an illegal alien was assumed to be the same as the average 
cost of housing an inmate in TDCJ ($40.06 per day).
    My office is responsible for all criminal investigations inside the 
Texas prison system. We work very closely with the TDCJ Security Threat 
Group staff that is responsible for the monitoring of criminal 
organizations within the prison system that could be a threat to the 
security of the Texas prison system. Groups such as the Texas 
Syndicate, Mexican Mafia, MS-13, Barrio Azteca and Partido 
Revolucionario Mexicanos (PRM) and are active and operational within 
our prison facilities. The prison gang that is primarily comprised of 
Mexican foreign nationals is the PRM. We currently have 723 suspected 
or confirmed members in our facilities. The PRM and the other security 
threat groups are actively engaged in homicide, drug trafficking, 
extortion, and aggravated assaults. Removing these persons from our 
communities is an important and necessary step. We must also be aware 
that the ability of an inmate to commit crimes, although limited, can 
and does still occur. My office, on average conducts 3000 felony crime 
investigations inside the fences of the Texas prison system. The 
prosecution of these crimes put pressure on the local, usually rural, 
courts system in the communities where the prisons are located. This is 
a good example of how the confinement of illegal foreign nationals 
affects every community in Texas where a prison is located. A 
cooperative effort between federal, state and local law enforcement is 
necessary to be successful in combating this problem.
    Mr. Chairman, I thank you again for this opportunity to testify on 
this very important matter. I would be happy to take any questions you 
might have.

    Mr. McCaul. The Chair now recognizes the Honorable Mr. 
Adrian Garcia, council member of Houston, Texas.

  STATEMENT OF ADRIAN GARCIA, MEMBER, CITY COUNCIL OF HOUSTON

    Mr. Garcia. Good morning, Mr. Chairman and distinguished 
members of Congress. I want to thank you for this important 
discussion and welcome you to our great city.
    I served as a member of the city council here in Houston 
Texas, and I have also been appointed by Mayor Bill White as 
the chair of the Public Safety and Homeland Security Committee. 
And prior to my election to city council, I served as a Houston 
police officer for nearly 24 years prior to my election to city 
council. I started that public safety career in 1980, and 
during my time with the Houston Police Department, I worked on 
various assignments that included serving as the director of 
the BEST anti-gang office that was charged with helping develop 
public policy to fight against criminal street gangs in 
Houston.
    Today's session appears to focus on the impact of illegal 
immigration on crime and what the role of local police should 
be in the enforcement of immigration laws. I hope to offer a 
perspective as a recent law enforcement practitioner. In my 
time, I have met many people of different backgrounds. Many 
spoke English, some did not. But when I needed to, I used my 
home-grown bilingual skills to get the job done and enforce the 
law. As a result, I was able to clear cases and make some 
definite arrests and made many new friends.
    During my time as a Houston police officer, I also became 
involved with the National Latino Police Officers Association 
and eventually became the president in 1998-2000 where this 
same issue was a part of my agenda.
    To the topic of today's discussion, no one disputes that 
persons have entered the United States without permission and 
have been arrested for violations of State criminal statutes. 
However, given that a significant portion of my patrol career 
took place in the area that I now represent as an elected 
official, which has a Hispanic majority, and given that I like 
putting bad guys into jail, I recall investigating more crimes 
against Americans that were committed by Americans than I did 
where illegal immigrants were involved.
    While I did investigate crimes involving persons with 
questionable immigration status, more have been witnesses 
against the crooks I was trying to put in jail. I have also had 
to investigate crimes of assault, theft, involving persons who 
were hired to do the job of day laborers and then beaten when 
they wanted to get paid.
    I have also worked in an undercover capacity investigating 
drug trafficking and other crimes. Some did involve 
undocumented persons, but they were more often informants than 
the targets of my investigation, and we welcomed their 
assistance in those cases. I remember when I had to go to 
Laredo, Texas to work with the DEA on a drug trafficking 
investigation that originated here in Houston, and through 
information from sources that were undocumented. When I arrived 
in Laredo, it was shortly after DEA agent Ricky Camarena had 
been kidnapped and was missing and presumed to be dead--which 
regretfully turned out to be true--the targets of my 
investigation were all U.S. citizens.
    When I had responsibility of being the director of the BEST 
anti-gang office, I dealt with the issue of Hispanic criminal 
street gangs, including MS-13. They were subjects of criminal 
activity in Houston, just as much as Caucasians, African 
Americans, and many other Hispanics involved who were also U.S. 
citizens. In fact, one of the first issues confronting me as 
director was the fact that between 1994 and 1998 a significant 
number of the gang-related homicide victims were Hispanic males 
between the ages 15 and 19. Although we never researched to 
find out the immigration status of these crime victims, I don't 
recall the issue of whether them being undocumented or not of 
being of concern.
    However, my time was just as occupied with investigating 
Bloods and Crips and white supremacists. Hispanics do not have 
a lock on the criminal street gang trade.
    In any case, it has been the trust and the dialogue that 
cops have been able to establish with all persons as they do 
their job. Without free-flowing information from all of 
Houston's communities, our concern is with what could happen to 
the clearance and successful prosecution rate that our area 
currently enjoys.
    However, when it comes to what the local few would like 
street cops to do, we have vivid examples of failed attempts by 
local police enforcing immigration laws in places like 
Chandler, Arizona, where U.S. citizens were detained and nearly 
deported mainly because they had communication difficulties.
    As a result, this experience set the police department back 
many years. It erased years of good work in developing 
community relationships that are also necessary and essential 
in investigating and solving and prosecuting crimes.
    I have personally been involved in Houston's effort to have 
a local police force for all of the people of Houston, and I am 
concerned about seeing this progress erased. Street cops depend 
on information to solve crimes. Without it, victimization would 
go unreported and unsolved, leaving criminals on the street.
    This statement does not mean that I don't believe that 
immigration laws should be enforced. Quite to the contrary. I 
do support the enforcement of all laws, but in this case, it 
must be done by the appropriate agencies, and Texas State penal 
code laws should be enforced by Texas police officers and 
immigration laws should be enforced by immigration enforcement 
authorities.
    To the question as to what HPD is doing, I think Chief 
Hurtt will elaborate in more detail, but I would just like to 
state the following.
    Are illegal immigrants committing crimes in Houston? Yes. 
Are Houston police arresting illegal aliens? Yes, for criminal 
violations of State and Federal laws. Does the Houston Police 
Department share that information with immigration authorities? 
Yes. Does the Houston Police Department do anything to hinder 
the work of immigration authorities? No.
    Further, the following are specific reasons why it is not 
in the best interests of Houston to order local police to 
become immigration law enforcers.
    One, current Federal law requires that in order for local 
law enforcement to receive Federal funding that the agency 
demonstrate it has policies and procedures in place against 
discrimination practices, effectively meaning that law 
enforcement is equally applied to all persons without regard 
for a person's color of skin, nationality, religion or gender.
    Two, so as you contemplate mandating new requirements on 
local law enforcement such as enforcing the immigration laws, 
this would obviously require that we also follow the 
nondiscrimination laws as we enforce any new law; meaning that 
in order to demonstrate that local police are not enforcing 
immigration law against persons solely because of their color 
of skin or possible nationality, then we would have to order 
the enforcement of such a law on all persons that local law 
enforcement officers come in contact with and require 
documentation, much like the racial profiling forms that 
officers are required to fill out, that the officer is 
enforcing the new law on everyone he or she comes into contact 
with.
    Three, the Houston Police Department is currently 
undermanned by approximately 1,000 to 1,500 police officers 
just in conditions that we are faced with today. Hiring those 
officers will take many years and millions upon millions to get 
the workforce strength to where we could comfortably handle all 
of the priorities of the citizens of Houston. Asking local cops 
to determine immigration status of all persons that they come 
in contact with would adversely affect response times to 
emergency calls of Houstonians more than our current manpower 
shortage is affecting Houstonians.
    Four, access to data is not currently effective. Today, 
barely a fraction of known U.S. absconders are tracked in the 
National Crime Information Center, NCIC, which is available to 
local police. However, if an officer wants to verify a 
passport, it would need to be during business hours, since 
there is no direct link to State Department databases--if I 
need to be corrected on that, I will stand corrected--making 
this ineffective during nighttime and evening hours for street 
cops.
    Five, the lack of funding. Currently, the city of Houston 
is trying to get out of the jail business, and the cost of 
housing, feeding, and medically caring for immigration 
detainees would adversely affect local taxpayers, especially 
since the Federal Government does not have the best reputation 
of reimbursing local communities for costs incurred in their 
support of the Federal Government.
    I do not believe that the Federal Government currently 
reimburses the city of Houston for arresting and detaining 
undocumented individuals that we have arrested. Currently, the 
city of Houston is working to collaborate with our county 
officials who are already strapped for space for the prisoners 
that they have, adult and juveniles.
    In closing, I respect the work needed to get this country 
to a place that we feel good about security of our homeland. 
There is much work to be done. However, I suggest that this 
work will be extremely short-lived if we do not address the 
issue of making sure that foreign countries that are 
contributing to this issue of illegal immigration be encouraged 
to develop effective domestic economic development policies in 
their own countries.
    In addition, I would like to offer a second dimension as a 
first-generation American, the only one in my family born in 
America. I am a person that today sits before you only because 
my dad, who died shortly after seeing my election, was a 
migracio. My dad helped to build the California rail lines, and 
this earned him the right to emigrate to the U.S. with my mom 
and brothers and sisters. Today the U.S. can look upon the 
family of native-born and naturalized citizens and see a 
retired cop, a police lieutenant, an attorney, a CPA, 
commercial fleet sales manager and a victim of HIV/AIDS. In the 
second generation, there will soon be military veterans, 
doctors, artists, accountants. And just this Sunday, the newest 
member of our family entered this world ready to contribute and 
do her part to make this the greatest country in the world.
    Thank you.
    Mr. McCaul. Thank you, Mr. Garcia. Congratulations on the 
new birth, and I appreciate your insight.
    [The statement of Mr. Garcia follows:]

                   Prepared Staement of Adrian Garcia

    Good morning distinguished members of Congress:
    My name is Adrian Garcia and I am a member of the City Council of 
Houston and as a member of Houston's City Council, I have also been 
appointed to serve as the Chair of the Public Safety and Homeland 
Security Committee. I am honored to be before you on this important 
discussion and on that note I also wish to welcome you to our great 
city and hope that you find your time here comfortable.
    Prior to serving on Houston's City Council I served as a Houston 
Police Officer for nearly 24 years and retired upon my successful 
election to City Council. I started my public safety career in 1980 and 
during my time in the Houston Police Department I worked various 
assignments that included serving as the Director of the Mayor's Anti-
Gang Office, where I was charged with helping to develop public policy 
in the fight against criminal street gangs in Houston.
    Today's session appears to want to focus on the impact of illegal 
immigration on crime what the role of local Police should be in the 
enforcement of immigration laws. I hope to offer a perspective as a 
recent local law enforcement practitioner given that I have worked as a 
street cop. In my time, I have met many people of different 
backgrounds, many spoke English some did not, and when I needed to I 
used my family taught bilingual skills to carry out my job and enforce 
the law--as a result I was able to clear cases and make significant 
arrests and made many friends.
    During my time as a Houston Police Officer, I became involved in 
the National Latino Peace Officers Association and eventually became 
the National President and served as National President from 1998-2000.
    To the topic of today's discussion, no disputes that some persons 
who have entered the United States have been arrested for violations of 
state criminal statutes. However, given that a significant portion of 
my patrol career also took place in the area that I now represent as an 
elected official, which has a Hispanic majority; and given that I liked 
putting crooks in jail, I recall arresting and investigating more 
crimes against Americans that were committed by Americans than I did 
where illegal immigrants were involved.
    Where I did investigate crimes involving persons with questionable 
immigration status, more have been witnesses against crooks I was 
trying to put in jail.
    I have also had to investigate crimes of assault and theft 
involving persons who were hired to do a job and then beaten when they 
wanted to get paid.
    I have also worked in an undercover capacity investigating drug 
trafficking and other crimes--some did involve undocumented persons but 
they were more often the informants than targets of my investigations, 
and we welcomed their assistance in those cases. I remember when I had 
to go to Laredo, Texas to work with DEA on a drug trafficking 
investigation that originated here in Houston through information from 
sources that were undocumented. When I arrived in Laredo it was shortly 
after DEA Agent Enrique Camarena was missing and presumed to be dead, 
which regretfully turned out to be true. The targets of my 
investigation were all US citizens.
    When I had the responsibility of being Director of the Mayor's 
Anti-Gang Office I dealt with the issue of Hispanic criminal street 
gangs including MS-13. They were subjects of criminal activity in 
Houston just as much as Caucasians, African Americans and many of the 
Hispanics involved were also US citizens. In fact, one of the first 
issues confronting me when I became Director was the fact that from 
1994--1998, a significant number of the gang-related victims were 
Hispanic males between the ages of 15--19 years. Although, we never 
researched to find out the immigration status of these crime victims I 
do not recall the issue of them being undocumented ever being an issue.
    However, my time was just as occupied with investigating the 
Bloods, Crips and the White Supremacists--Hispanics do not have a lock 
on criminal street gang trade.
    In either case, it has always been the trust and dialogue that cops 
have been able to establish with all persons as they do their job. 
Without free-flowing information from Houston's community, I am 
concerned what could happen to the clearance and successful prosecution 
rate that our area currently enjoys.
    However, when it comes to what a vocal few would like street cops 
to do we have vivid examples of failed attempts by local police 
enforcing immigration laws in places like Chandler, Arizona where US 
citizens were detained and nearly deported mainly because they spoke 
with accents; couldn't speak English or could not prove their 
immigration status. As a result, this experience set the police 
department back many years and erased years of good work in developing 
community relationships that are always necessary and essential in 
investigating, solving and prosecuting crimes.
    I have been personally involved in Houston's effort to have a local 
police force for all the people of Houston and I am concerned about 
seeing this progress erased, street cops depend on information to solve 
crimes and without it victimization would go unreported and unsolved 
and leave criminals on the streets.
    This statement does not mean that I do not believe that immigration 
laws should not be enforced, quite to the contrary, I do support the 
enforcement of all laws but in this case it must be done by the 
appropriate agencies and Texas State Penal Code Laws should be enforced 
by Texas Peace Officers and Immigration Laws should be enforced by 
Immigration Enforcement Authorities.
    Are illegal aliens committing crimes in Houston? Yes. Are Houston 
Police arresting illegal aliens? Yes, for the criminal violations of 
state and federal criminal laws. Does the Houston Police Department 
share that information with Immigration authorities? Yes. Does, the 
Houston Police Department do anything to hinder the work of Immigration 
authorities? No.
    Further, the following are specific reasons why it is not in the 
best interests of Houston to order local police to become immigration 
law enforcers:

    1. Current federal law requires that in order for local law 
enforcement to receive federal funding that the agency demonstrate that 
it has policies and procedures in place against discrimination 
practices--effectively meaning that law enforcement is equally applied 
to all persons without regard to a person's color of skin, nationality, 
religion or gender.

    2. In order to comply with the first rule, any new rule to would 
require that we follow the first rule as we enforce the new rule--
meaning that in order to demonstrate that local police are not 
enforcing the immigration law against persons solely because of the 
color of their skin or possible nationality then we would have to order 
the enforcement of the new rule on all persons that local law 
enforcement officers come in contact with and require documentation 
(much like the racial profiling forms that officers are required to 
fill out) that the officer is enforcing the new rule on everyone he/she 
comes in contact with.

    3. The Houston Police Department is currently under manned by 
approximately 1,000 to 1,500 officers, hiring those officers will take 
many years and millions upon millions to get to the workforce strength 
back to where we could comfortably handle all the priorities of the 
citizens of Houston. Asking local cops to determine the immigration 
status of all persons they come in contact with, today would adversely 
affect response times to emergency calls of Houstonians more so than 
how our current manpower shortage is already affecting Houstonians.

    4. Access to data is not currently effective--today barely a 
fraction of known US absconders are tracked through the National Crime 
Information Center (NCIC), which is available to local police. However, 
if an officer wants to verify a passport, it would likely need to be 
done during business hours since there are no direct links to State 
Department databases, making this ineffective during evening and 
nighttime hours for street cops.

    5. Lack of funding--currently the City of Houston is trying to get 
out of the jail business and the cost of housing, feeding and medically 
caring for immigration detainees would adversely affect local tax 
payers. Especially since the federal government doesn't have the best 
reputation of reimbursing local communities for cost incurred in their 
support of the federal government. I do not believe that the federal 
government currently reimburses the City of Houston for arresting and 
detaining the illegal aliens that we have arrested?! Currently, the 
City of Houston is working to get out of the jail business and 
collaborate with our County Officials, who are already strapped for 
space for the prisoners they have--adult and juveniles.
    In closing, I respect the work needed to get this country to place 
that we feel good about the security of our Homeland and there is much 
work to be done. However, I suggest that this work will be extremely 
short lived if we do not also address of the issue of making sure that 
the foreign countries that are contributing to this issue are not 
encouraged to better at developing effective domestic economic 
development in their own countries.
    In addition, I would like to offer a second dimension as a First 
Generation American, the only American born of my family. I am a person 
that today sits before you only because my father, who died shortly 
after being able to see my election, was a ``bracero''. My dad helped 
to build the California rail lines and this earned him the right to 
immigrate to the US with my mom and brothers and sister, today the US 
can look upon this family of native born and naturalized citizens and 
see a retired cop, a Metro Police Lieutenant, an attorney, a CPA, 
commercial vehicle fleet sales manager, and a victim of HIV-AIDS--in 
second generation there are soon to be military veterans, doctors, 
artists, accountants, and just this Sunday the newest member of our 
family entered this world ready to contribute and do her part to 
continue to make this the greatest country in the world.

    Mr. McCaul. Next we have the Police Chief from Houston, Mr. 
Hurtt.

STATEMENT OF HAROLD L. HURTT, CHIEF OF POLICE, CITY OF HOUSTON, 
                             TEXAS

    Mr. Hurtt. Thank you. Mr. Chairman and subcommittee 
members, I sit here as a police chief for three border cities 
in the past: Arizona, California, and now Texas. Let me say as 
chief of Houston Police Department and also president of the 
Major Cities Chiefs associations, that I appreciate and wish to 
thank you for the honor and privilege of putting into the 
Congressional Record law enforcement comments and concerns on 
immigration prior to full enactment of any legislation this 
important.
    Let me begin by giving my reaction to a recent Federal 
legislative amendment aimed at eliminating Federal law 
enforcement funding for local police. In short, both myself and 
chiefs of major cities across the country are dismayed by any 
legislative action aimed at excluding the city of Houston and 
other local jurisdictions from receiving needed Federal law 
enforcement funds. These funds are needed to put more officers 
on the streets of Houston, protect their neighborhoods, 
investigate and prevent murders, rapes, assaults, robberies, 
burglaries, and provide for homeland security.
    The end result of any law enforcement funding exclusion 
amendment, if it is applied to the Houston Police Department 
and other communities like Houston, would be to make our local 
communities less safe. In other words, these amendments would 
have the opposite effect of their purported purpose.
    Illegal immigration is an issue that affects our Nation as 
a whole, and any solution should begin, first, at the Federal 
level, with securing the borders and increasing enforcement by 
Federal agencies. Local law enforcement of immigration law 
raises complex legal, logistical, and resource issues for local 
communities and their police agencies.
    In an effort to clarify the city's reasoned and model 
approach to this issue, I will provide the following statements 
regarding the city's policy, why we oppose the position 
represented by the Federal Fund Exclusion Amendment and protect 
our citizens referendum.
    The city of Houston does not have a sanctuary policy. 
Currently, the police department is operating under general 
order 500-5. You may see attachment A in the packet I have 
provided for you. General order 500-5 was implemented in 1992 
by then Police Chief Nuchia, who is currently serving as a 
justice in the Texas judiciary's first court of appeals.
    The general order includes the following provisions:
    Number one, Houston police officers may not stop or 
apprehend individuals solely on the belief that they are in 
this country illegally. Officers shall not make inquiries as to 
the citizenship status of any person, nor will officers detain 
or arrest persons solely on the belief that they are in this 
country illegally. Officers will contact the Federal 
immigration authorities regarding the person only if that 
person is arrested on a separate criminal charge other than a 
class C misdemeanor, which would be like a traffic citation, 
and the officer knows the prisoner is an illegal alien.
    The department procedures are to accept and act upon 
criminal immigration detainers issued by ICE. The police 
department further clarifies to our officers that they are 
allowed to take into custody any person who the Federal 
authorities state is a criminal suspect and for whom they will 
authorize detention directly into a Federal detention facility.
    In addition, whenever the department has a person in 
custody on other criminal charges, the department will not 
release the person from custody for up to 24 hours after they 
have received formal notice from Federal authorities that they 
are wanted for criminal violations. The city is committed to 
assisting ICE and any other Federal agencies, whenever possible 
and reasonable, to enforce criminal violations in criminal 
matters.
    We will continue to enforce laws relative to criminal 
violations against any and all persons regardless of their 
immigration status. The department, and thus the city, does not 
have a sanctuary policy as opponents of our policy have 
alleged.
    There are several issues that impact the State and local. 
There are some restrictions why State and local law enforcement 
cannot be involved in immigration enforcement.
    In Texas, peace officers can only arrest a person without a 
warrant in specific situations. Sections 14.01, 14.03 and 14.04 
of the Texas Code of Criminal Procedures clearly define this 
authority, and it is provided in Exhibit 4. These sections do 
not authorize a Texas police officer to arrest a person without 
a warrant for illegally entering the United States.
    In opinion number H-1029, the Texas Attorney General 
evaluated the authority of Texas peace officers under section 
14.01, 14.03 and 14.04 and concluded that Texas peace officers, 
under State law, do not have authority to arrest an individual 
solely upon the suspicion that he has previously entered the 
country illegally. That is under item number five.
    Likewise, police officers are restrained by the 
constitutional protections of the fourth amendment from seizing 
or detaining a person without sufficient probable cause in 
immigration situations. The Supreme Court further concluded 
that the fourth amendment forbids officers from stopping or 
detaining a person for questioning about their citizenship 
unless on a reasonable suspicion that they may be aliens.
    The Texas Code of Criminal Procedure also, under article 
2.131 and 2.132, prohibits peace officers from engaging in 
racial profiling. That is Exhibit 7 in your pack. An officer 
cannot subject a person to police action merely on the basis of 
their race, ethnicity or national origin.
    The Supreme Court in the Brignoni-Ponce case also 
specifically stated that a person's Mexican ancestry alone is 
not reasonable grounds to stop the person and subject them to 
questioning about citizenship. That is in Exhibit Number 6.
    Mr. McCaul. If I can, we are on tight time. Please proceed, 
but if you could try to summarize. Thank you.
    Mr. Hurtt. Let me get, then, to the final points that I 
would like to make on this whole issue. There are five points I 
would like to make.
    The Federal legislation amendments to exclude local 
communities from receiving Federal law enforcement funding are 
misguided and wrong; just as Houston's Protect Our Citizens 
efforts to pass a charter amendment requiring Houston police 
officers to conduct immigration investigations and enforce 
immigration laws.
    Both ignore the lack of clear legal authority for our 
officers in the area of immigration enforcement.
    They turn a blind eye to the legal restrictions against 
warrantless arrests/detentions, racial profiling and fourth 
amendment violations to which our officers must adhere and for 
which the city would face legal liability if we allowed our 
officers to violate them.
    They are unconcerned and insensitive to the distrust and 
fear of the police such enforcement would create in our 
community.
    Finally, they unreasonably call for required enforcement, 
yet fail to identify how the city and local communities will 
provide or generate the necessary resources to accomplish such 
enforcement. What programs, projects and services would need to 
be cut in order for us to do immigration enforcement?
    What the city of Houston and all major cities need, along 
with the Federal law enforcement authorities for that matter--
and it has been said here before--are more boots on the ground; 
that is, more police officers and more Federal agents.
    Thank you.
    Mr. McCaul. Thank you, Chief.
    [The statement of Chief Harold L. Hurtt follows:]

                 Prepared Statement of Harold L. Hurtt

    Dear Sub-Committee Members:
    I am writing to respond to your invitation to testify before your 
sub-committee hearing on Wednesday, August 16th, 2006, at 9:30am, at 
the Civil Courthouse 201 Caroline St., Houston Texas. First let me say 
as Chief of the Houston Police Department (HPD) and also as President 
of the Major Cities Chiefs Association (MCC) that I appreciate and wish 
to thank you for the honor and privilege of putting into the official 
congressional record Law Enforcement's comments and concerns on 
Immigration prior to the full enactment of any legislation on this 
important subject. I will be submitting as an attachment to my 
testimony today the MCC's Immigration Committee Recommendations for 
Enforcement of Immigration Laws by Local Police Agencies (chaired by my 
Deputy Director Craig E. Ferrell, Jr.), which were adopted on June 7th 
by the MCC for inclusion in the official congressional record. I also 
have additional attachments for the sub-committee members, but due to 
their length I have been told they can not be part of the written 
record.
    Let me begin by giving my reaction to a recent federal legislative 
amendment aimed at eliminating federal law enforcement funding to local 
police. In short, both myself and chiefs of major cities across the 
country are dismayed by any legislative action aimed at excluding the 
City of Houston and/or other local jurisdictions from receiving needed 
federal law enforcement funds. These funds are needed to put more 
officers on the streets of Houston, protect our neighborhoods, 
investigate and prevent murders, rapes, assaults, robberies, 
burglaries, and provide for homeland security efforts. It seems clear 
that some in Congress and the public fervently believe local police 
should become involved in enforcing federal civil immigration laws. 
Given these strong beliefs, we are left to wonder why the recent 
legislative amendments were not written to provide increased federal 
funding to local police to support such enforcement. Instead the 
amendments have sought to eliminate funding and penalize not only the 
City of Houston, but also Harris County, and other local and national 
jurisdictions, which will be negatively effected by this amendment. The 
end result of any law enforcement funding exclusion amendment, if it is 
applied to Houston and other communities like Houston would be to make 
our local communities less safe. In other words these amendments would 
have the opposite effect of their purported purpose.
    Illegal immigration is being hotly debated in Congress and in our 
local communities. Opinions on how to address this complex issue differ 
greatly and emotions run high. Extremes exist on either side of the 
debate as represented by the recent mass demonstrations by immigrant 
groups and their supporters and the funding exclusion amendment and the 
referendum effort of the group Protect Our Citizens in Houston. Both 
myself and chiefs of police in MCC representing first responders to 
over fifty (50) million residents respectfully disagree with any effort 
to eliminate federal law enforcement funding and in effort to create an 
unfunded mandate. Illegal immigration is an issue that effects our 
nation as a whole and any solution should begin first at the federal 
level with securing the borders and increasing enforcement by federal 
agencies.
    Local enforcement of immigration laws raises complex legal, 
logistical and resource issues for local communities and their police 
agencies. The City of Houston's polices and those of most major cities 
across America reflect the challenges and realities faced by a City and 
police agency that is responsible for protecting and serving a diverse 
community comprised of citizens, non-citizens, legal residents, 
visitors and undocumented immigrants. The City's policies seek to best 
protect and serve this diverse community as a whole, while taking into 
account: the reality that the City does not have unlimited resources; 
its officers are prohibited by state law from racial profiling and 
arresting persons without warrants and without well established 
probable cause; is subject to civil liability for violating such laws; 
and has the clear need to foster assistance and cooperation from the 
public including those persons who may be undocumented immigrants. In 
an effort to clarify the City's reasoned and model approach to this 
issue I have provided the following statements regarding the City's 
policy and why we oppose the positions represented by the federal fund 
exclusion amendment and Protect Our Citizens' referendum.

CITY DOES NOT HAVE A SANCTUARY POLICY
    Currently, the police department is operating under General Order 
500-5[See attached Exhibit 1]. General Order 500-5 was implemented in 
1992 by then Chief Nuchia, who is currently serving as a Justice in the 
Texas Judiciary's First Court of Appeals. The General Order includes 
the following provisions:
        <bullet> Houston police officers may not stop or apprehend 
        individuals solely on the belief that they are in this country 
        illegally.
        <bullet> Officers shall not make inquiries as to the 
        citizenship status of any person, nor will officers detain or 
        arrest persons solely on the belief that they are in the 
        country illegally.
        <bullet> Officers will contact the [Federal Immigration 
        Authorities] regarding a person only if that person is arrested 
        on a separate criminal charge (other than Class C misdemeanor) 
        and the officer knows the prisoner is an illegal alien.''
    The department has issued clarifications of our ``immigration'' 
policies and implemented changes to the department's enforcement 
policies to increase cooperation between the department and federal 
agencies on immigration matters that are criminal in nature. [Exhibit 
2] In the summer of 2005, I directed Executive Assistant Chief Thaler, 
Assistant Chief Perales and Deputy Director/General Counsel Craig 
Ferrell to meet jointly with representatives of the U.S. Attorney's 
office and I.C.E. to discuss the department's response to immigration 
detainers. Based on those discussions, the department developed 
procedures to accept and act upon criminal immigration detainers issued 
by I.C.E. The police department further clarified that our officers are 
allowed to take into custody any person who the federal authorities 
state is a criminal suspect and for whom they will authorize detention 
directly into a federal detention facility. In addition, whenever the 
department has a person in custody on other criminal charges, the 
department will not release the person from custody for up to 24 hours 
after we have received formal notice from federal authorities that they 
are wanted for criminal violations.
    The City is committed to assisting I.C.E and any other federal 
agency wherever possible and reasonable to enforce against criminal 
violations and address criminal matters. The Houston Police Department 
has always acted to enforce laws relative to criminal violations and 
criminal matters, accepted criminal warrants and criminal detainers and 
assisted in criminal investigations, regardless of whether they 
emanated from other jurisdictions or arose out of federal or state 
laws. Our officers are currently involved in various federal task 
forces addressing criminal matters including violent criminal gangs. 
Because we have and will continue to enforce laws relative to criminal 
violations against any and all persons, regardless of their immigration 
status, the department and thus the City does not have a ``sanctuary 
policy'' as opponents of our policies have alleged. This is not only 
the City's or the police department's opinion but also that of Robert 
Rutt the Deputy Special Agent in Charge for Immigration and Customs 
Enforcement [I.C.E]. In a recent Houston Chronicle article he stated 
that ``Houston is not a sanctuary City. . .'' In the same article he 
further acknowledged the police department's significant cooperation 
with I.C.E. [Exhibit 3]

CONCERNS WITH LOCAL ENFORCMENT OF FEDERAL IMMIGRATION LAW
    Local enforcement of federal immigration laws raises many daunting 
and complex legal, logistical and resource issues for the City of 
Houston and the diverse community it serves. Like other jurisdictions 
our policy in this area must recognize the obstacles, pitfalls, dangers 
and negative consequences to local policing that would be caused by 
immigration enforcement at the local level.

LACK OF CLEAR LEGAL AUTHORITY
    The federal government has clear authority over immigration and 
immigration enforcement, but that is not true for local police officers 
including the Houston Police Department. Federal law does not require 
the states or local police agencies to enforce immigration laws nor 
does it give the states or local agencies the clear authority to act in 
the area of immigration enforcement.

Criminal vs. Civil Matters
    Federal immigration laws involve both civil and criminal aspects. 
The federal government and its designated agencies such as I.C.E. and 
the Department of Justice have clear authority and responsibility to 
regulate and enforce immigration laws regardless of whether or not the 
process used for enforcement is criminal or civil in nature. The 
federal agencies have the authority to determine if a person will be 
criminally prosecuted for their violations of immigration laws or be 
dealt with through a civil deportation process. Based on their 
authority, training, experience and resources available to them, these 
federal agencies and the federal courts are in the best position to 
determine whether or not a person has entered or remained in the 
country in violation of federal regulations and the applicability of 
criminal or civil sanctions.
    The authority of local police officers to act to enforce against 
criminal acts is clear and well established. Our officers have no 
authority to determine if a particular immigration violation would or 
should result in criminal charges or be handled through purely civil 
proceedings and regulation. This fact creates a gap in authority for 
our officers who are generally limited to acting only in criminal 
matters. Houston police officers do not become involved in purely civil 
matters between disputing parties.
    As stated above the Houston Police Department and its officers keep 
their focus on criminal matters and violations. We assist the federal 
agencies with all criminal matters including those that involve 
immigration status, but the federal agencies must clearly state that 
the matter relates to criminal violations by issuing criminal warrants, 
criminal detainers or criminal holds.

State and Federal Restrictions on Authority to Arrest and Detain
    State laws also restrict a local police officer's authority to act 
even in criminal matters in such a way that it would prevent or hinder 
the officer's ability to investigate, arrest or detain a person for 
immigration violations alone. Federal agents are specifically 
authorized to stop persons and conduct investigations as to immigration 
status without a warrant. Local police officers are constrained by 
local laws that deal with their general police powers such as the 
ability to arrest without a warrant, and prohibitions against racial 
profiling.

    In Texas, peace officers can only arrest a person without a warrant 
in specific situations. Section 14.01, 14.03 and 14.04 of the Texas 
Code of Criminal Procedures clearly defines this authority. [Exhibit 4] 
Section 14.01 states and officer can arrest a person without a warrant 
who has committed an offense in the officer's presence or view. Section 
14.03 defines specific situations in which an officer can arrest a 
person without a warrant such as those involving an assault with 
possible future injury, family violence, violations of protective 
orders or interference with emergency calls. Finally, section 14.04 
allows arrest without warrant if a felony has been committed and an 
escape is likely and the officer does not have time to get a warrant. 
These sections do not authorize a Texas peace officer to arrest a 
person without a warrant for illegally entering the United States. In 
Opinion No. H-1029, the Texas Attorney General evaluated the authority 
of Texas peace officers under Section 14.01, 14.03 and 14.04 and 
concluded that Texas peace officers under state law ``do not. . .have 
authority to arrest an individual solely upon the suspicion that he has 
previously entered the country illegally. . .''[See AG Opinion H-1029 
attached as Exhibit 5]
    Likewise police officers are restrained by the constitutional 
protections of the Fourth Amendment from seizing or detaining a person 
without sufficient probable cause in immigration situations. The United 
State Supreme Court in the case of U.S. v. Brignoni-Ponce addressed the 
ability of federal immigration agents to seize and detain a person and 
subject them to an immigration status investigation. U.S. v. Brignoni-
Ponce, 422 U.S. 873, (1975). [Exhibit 6] The Court recognized the 
broader authority of such federal agents to conduct such investigations 
without warrant. However, the Court stated even with such broader 
authority the Fourth Amendment still protected persons from being 
randomly stopped by officers who have no reason to suspect the persons 
of having violated any law. Id. At 883-884. The Supreme Court further 
concluded that the Fourth Amendment forbids officers from stopping or 
detaining a person for questioning about their citizenship on less than 
reasonable suspicion that they may be aliens. Id. Houston police 
officers lack the broader authority to conduct immigration 
investigations that is given to federal immigration agents who can stop 
a person and ask questions about citizenship without a warrant. Lacking 
such authority, Houston police officers are still required to develop a 
clear reasonable justification or probable cause for detaining a person 
to investigate their immigration status.
    Texas Code of Criminal Procedure Article 2.131 and 2.132 prohibit 
peace officers from engaging in racial profiling. [Exhibit 7] An 
officer can not subject a person to police action merely on the basis 
of their race, ethnicity or national origin. Immigration enforcement by 
H.P.D. officers would at a minimum result in increased complaints of 
racial profiling since a major factor a person would most likely be 
subjected to an immigration investigation by officers would be their 
differing nationality, race or ethnicity. The Supreme Court in the 
Brignoni-Ponce case also specifically stated that a persons ``Mexican 
ancestry'' alone is not reasonable grounds to stop the person and 
subject them to questioning about citizen. U.S. V. Brignoni-Ponce, 422 
U.S. 873, 885, 886(1975).

RISK OF CIVIL LIBABILITY
    In the past, local law enforcement agencies have faced civil 
litigation and liability for their involvement in immigration 
enforcement. For example, the Katy, Texas Police Department 
participated in an immigration raid with federal agents in 1994. A 
total of 80 individuals who were detained by the police were later 
determined to be either citizens or legal immigrants with permission to 
be in the country. The Katy police department faced suits from these 
individuals and eventually settled their claims out of court.
    Because local police officers currently lack clear authority to 
enforce immigration laws, are limited in their ability to arrest 
without a warrant, are prohibited from racial profiling and lack the 
training and experience to enforce complex federal immigration laws, it 
is more likely the City/police department will face the risk of civil 
liability and litigation if we actively enforced federal immigration 
laws.

UNDERMINES TRUST AND COOPERATION OF IMMIGRANT COMMUNITIES
    Major urban areas throughout the nation are comprised of 
significant immigrant communities. In some areas the immigrant 
community reaches 50--60 percent of the local population. Local 
agencies are charged with providing law enforcement services to these 
diverse populations with communities of both legal and illegal 
immigrants. The reality is that undocumented immigrants are a 
significant part of the local populations major police agencies must 
protect, serve and police. The City of Houston faces the same 
challenges.
    Local officers have worked very hard to build trust and a spirit of 
cooperation with immigrant groups through community based policing and 
outreach programs and specialized officers who work with immigrant 
groups. We have a clear need to foster trust and cooperation with 
everyone in these immigrant communities. Assistance and cooperation 
from immigrant communities is especially important when an immigrant, 
whether documented or undocumented, is the victim of or witness to a 
crime. These persons must be encouraged to file reports and come 
forward with information. Their cooperation is needed to prevent and 
solve crimes and maintain public order, safety, and security in the 
whole community. Local police contacts in immigrant communities are 
important as well in the area of intelligence gathering to prevent 
future terroristic attacks and strengthen homeland security.
    Immigration enforcement by local police would likely negatively 
effect and undermine the level of trust and cooperation between local 
police and immigrant communities. If the undocumented immigrant's 
primary concern is that they will be deported or subjected to an 
immigration status investigation, then they will not come forward and 
provide needed assistance and cooperation. Distrust and fear of 
contacting or assisting the police would develop among legal immigrants 
as well. Undoubtedly legal immigrants would avoid contact with the 
police for fear that they themselves or undocumented family members or 
friends may become subject to immigration enforcement. Without 
assurances that contact with the police would not result in purely 
civil immigration enforcement action, the hard won trust, communication 
and cooperation from the immigrant community would disappear. Such a 
divide between the local police and immigrant groups would result in 
increased crime against immigrants and in the broader community, create 
a class of silent victims and eliminate the potential for assistance 
from immigrants in solving crimes or preventing future terroristic 
acts.

LACK OF RESOURCES
    The budgets and resources of local police agencies are not 
unlimited. Local police agencies struggle every year to find the 
resources to police and serve their respective communities. Since the 
events of September 11, local agencies have taken on the added duty of 
serving as the first line of defense and response to terrorist attacks 
for our country. These efforts on the local level to deter and prevent 
another terrorist attack and to be prepared to respond to the aftermath 
of an attack have stretched local resources even further. Since the 
creation of the Homeland Security Department, federal funding for major 
city police departments has been reduced given the added duties of 
securing the homeland. Local agencies have also had to take on more 
responsibilities in areas that have traditionally been handled by the 
F.B.I. whose investigative resources are now more focused on counter-
terrorism efforts. Local agencies are forced to fill the gap left by 
the shift of federal resources away from investigating white-collar 
crimes and bank robberies; areas traditionally handled by federal 
agencies.
    Enforcement of federal immigration laws would be a burden that most 
major police agencies would not be able to bear under current resource 
levels. The cost in terms of manpower, facilities and equipment 
necessary for local agencies to address the 8--12 million illegal 
immigrants currently living in the United States would be overwhelming. 
It is estimated that nearly half a million immigrants are in the 
Houston area. The federal government, which has primary authority to 
enforce immigration laws, has itself failed to provide the tremendous 
amount of resources necessary to accomplish such enforcement to its own 
agencies specifically charged with that responsibility. Local 
communities and agencies have even fewer resources to devote to such an 
effort than the federal government, given all the numerous other 
demands on local police departments.
    Immigration violations are extremely different from the typical 
criminal offenses that patrol officers face every day on their local 
beats. The law enforcement activities of local police officers revolve 
around crimes such as murder, assaults, narcotics, robberies, 
burglaries, domestic violence, traffic violations and the myriad of 
other criminal matters they handle on a regular basis. The specific 
immigration status of any particular person can vary greatly. A person 
may not be a citizen but still be a legal resident, a recognized 
refugee seeking asylum, a holder of a visa that may or may not have 
expired or the person has illegally entered the country. The complexity 
of the immigration laws is illustrated by the fact that the U.S. has 25 
types of nonimmigrant visas, including A1 visas for ambassadors, B2 
visas for tourists, P1 visas for foreign sports stars who play on U.S. 
teams and TN visas for Canadians and Mexicans entering the U.S. to work 
under NAFTA, and U visas for persons assisting in criminal 
prosecutions. Given the complexity of immigration status, whether a 
person is in fact in violation of the complex federal immigration 
regulations would be very difficult if not almost impossible for the 
average patrol officer to determine during an investigation on the 
streets of Houston.
    The Houston Police Department is currently working to put more 
officers on the street to address crimes such as murder, rape, 
robberies, assaults, narcotics, prostitution, burglaries, traffic 
enforcement, etc. The City struggles continuously to find the resources 
to address these policing needs. Spending Houston's limited police 
resources on addressing the estimated tens of thousands of illegal 
immigrants in our jurisdiction would decrease our ability to accomplish 
normal policing and public safety goals. If officers were required to 
enforce or even allowed to enforce immigration laws, a routine traffic 
stop, which would have only resulted in a ticket, would become an 
extended immigration investigation. If the officer develops the 
probable cause to detain the person for immigration status 
investigation and asks the person about their citizenship status the 
person may lie or admit that they are a non-citizen. If the person lies 
the officer must develop facts that would support a reasonable 
suspicion that the person is a non-citizen in the country illegally.
    If a person admits to being a non-citizen the fact remains that 
being a non-citizen in this country is not in and of itself a violation 
of any state or federal law. The officer would then have to develop 
probable cause to believe the person who is a non-citizen either 
entered the country illegally or has violated a visa or some other 
condition for remaining in the country. Basing his immigration status 
investigation solely on the person's non-citizenship/national origin 
could violate the state law against racial profiling. The non-citizen 
may claim to have misplaced or left his visa or residency card or some 
other valid immigration documents at home or at their hotel room. A 
traffic stop, which should have been brief, has now become an extended 
immigration investigation reducing the available police resources to 
address other policing needs. This very real scenario does not account 
for the various other situations in which officers come in contact with 
individuals who are witnesses, victims, or report crimes.
    It should be noted that new immigration enforcement would not only 
take from current police resources but would also require increases in 
resources for enforcement. New resources would be needed to provide 
equipment, infrastructure and additional officers and personnel for 
enforcement as well as training for officers. New resources would also 
be needed to house, feed and transport persons who are subject to 
enforcement.

HOUSTON'S POLICY IS MODEL FOR OTHER JURISDICTIONS
    The Houston Police Department has not sat on the sidelines but 
rather has actively worked through its involvement in police 
associations such as the International Association of Chiefs of Police 
[I.A.C.P.] and Major Cities Chiefs [M.C.C.] to build consensus on the 
issue of local enforcement of federal immigration law. The I.A.C.P. has 
published articles and adopted a position statement on this issue, 
which support Houston's policy. [See Exhibits 8, 9, 10] I am the 
current M.C.C. president and my Deputy Director, Craig Ferrell, is 
serving as M.C.C. general counsel. M.C.C. is an association of 57 Chief 
Executive Officers of police departments located in jurisdictions with 
over 1.5 million population or have a population over and employ more 
than 1,000 officers. During M.C.C.'s recent summer meeting, its members 
voted to adopt a position statement on this issue which, like I.A.C.P., 
voiced concerns and opposition to any requirement that local police 
agencies enforce immigration laws. [Exhibit 11 and tendered with my 
testimony to become part of this committee's official record]
    In addition, on MCC's behalf Craig Ferrell recently attended a Law 
Enforcement Roundtable Discussion regarding border security and 
immigration hosted by Attorney General Alberto Gonzales. [Exhibit 12] 
During this meeting the issue of local law enforcement of immigration 
was discussed. Attorney General Gonzales stated at this meeting that 
the federal government is neither requesting nor requiring local 
agencies to enforce immigration laws on their own and he acknowledged 
that such enforcement is first and foremost a federal responsibility. 
Attorney General Gonzales requested that local police department's to 
partner with federal agencies to combat criminal immigration matters. 
He specifically stated he was not asking local police agencies to wade 
into the complicated area of ``civil enforcement.''
    The issue of local law enforcement agencies enforcing federal 
immigration laws became a prominent issue in the media and one debated 
in the law enforcement community since the horrendous events of 9/11. 
This issue has been further highlighted due to the current debate on 
immigration reform taking place in congress. Local enforcement of 
federal immigration laws raises many complex legal and logistical 
issues as stated above for the City of Houston. The concerns raised 
above are shared by other major law enforcement agencies throughout the 
nation. Based on our work and discussions with other police agencies, I 
can confidently state that the City of Houston's approach to this issue 
is in line with the other major jurisdictions in the country and is 
viewed as a model policy. [Also see 2 IACP Articles marked as exhibits 
12 & 13 authored by Mr. Ferrell on this subject]
CONCLUSION
        <bullet> The federal legislative amendments to exclude local 
        communities from receiving federal law enforcement funding are 
        misguided and wrong; just as Houston's Protect Our Citizens 
        efforts to pass a charter amendment requiring Houston Police 
        Officer's to conduct immigration investigations and enforce 
        immigration laws.
        <bullet> Both ignore the lack of clear legal authority for our 
        officers in the area of immigration enforcement.
        <bullet> They turn a blind eye to the legal restrictions 
        against warrantless arrests/detentions, racial profiling, and 
        Fourth Amendment violations to which our officers must adhere 
        and for which the City would face legal liability if we allowed 
        our officers to violate them.
        <bullet> They are unconcerned and insensitive to the distrust 
        and fear of the police such enforcement would create in our 
        community.
        <bullet> Finally, they unreasonably call for required 
        enforcement, yet fail to identify how the City and local 
        communities will provide or generate the necessary resources to 
        accomplish such enforcement. What programs, projects and 
        services would Protect Our Citizens suggest the City cut from 
        the current budget to fund new immigration enforcement?
    Why would our federal legislators not seek to increase federal 
funding to support the call for local immigration enforcement rather 
than passing amendments aimed at eliminating all federal funding for 
local law enforcement needs. Their energies, time and monies would be 
better spent trying to assist the City of Houston and local communities 
meet our current law enforcement needs rather than creating new 
unfunded mandates. What the City of Houston and all major cities need, 
along with the federal law enforcement authorities for that matter, are 
more police officers and more federal agents!

    Mr. McCaul. I am going to hold them strictly to 5 minutes 
as we are running short on time.
    Chief, just very quickly, when you make an arrest in the 
city of Houston and you determine that the person is here 
illegally, do you refer that to the Immigration and Customs 
Enforcement?
    Mr. Hurtt. Yes. That is on the booking slip as a person 
that is put into the county jail, that Immigration is notified.
    Mr. McCaul. What if it is a routine traffic stop.
    Mr. Hurtt. No.
    Mr. McCaul. Of course, we know one of the hijackers was 
stopped on a routine traffic stop. Do you have any--what kind 
of database do you have to check once you have--we have had 
various illustrations of people being pulled over, like Tim 
McVeigh, for instance. I think State troopers, police on the 
ground making traffic stops, is a very good technique to 
prevent crime and terrorism. Do you have any sort of database 
that is checked in a traffic stop to determine if this person 
is on a watchlist, for instance.
    Mr. Hurtt. If an officer feels it necessary to check a 
person for warrants, they can run them through NCIC, yes.
    Mr. McCaul. I would like to just, with my limited time, 
focus on the facts and the cost of illegal immigration in this 
State and particularly in this county, and just if I could get 
some numbers to summarize the testimony, particularly from 
Judge Eckels and Major O'Brien and Mr. Moriarty, on the cost of 
incarceration.
    Let me start first with the numbers of illegals 
incarcerated in the State of Texas, and then we will go to 
Harris County.
    Mr. Moriarty. We have 11,606 that claim foreign birth. 
Again, the technology issue is an important issue for us also 
as far as the State prison system goes, because we do not have 
access to anything to verify that person's citizenship. Now, by 
the time they come to us, they are obviously convicted felons. 
So we are dealing with a different issue than the Chief or some 
of the other persons that testified here today.
    Mr. McCaul. So it is difficult to verify obviously, these 
are the people who actually admit, and what is the cost to the 
State for incarceration of illegals.
    Mr. Moriarty. The ones that we know about, the 10,376 that 
claim foreign citizenship, our estimated cost is the same as 
housing inmates at $40 a day. So that would be $132 million in 
costs to the State of Texas a year for the known. Now, again, 
it is self-reporting like we talked about.
    Mr. McCaul. It is self-reporting, so the number is probably 
higher than that.
    Mr. Moriarty. That is correct.
    Mr. McCaul. Has that increased since last year--or the year 
before, I'm sorry?
    Mr. Moriarty. This program, again, we have worked in close 
contact with ICE, but the numbers may increase steady because I 
don't think the investigative efforts have changed to determine 
that citizenship status.
    Mr. McCaul. If I can pose the same questions to Harris 
County officials on the incarceration, the numbers.
    Judge Eckels. The percentages, I have the national average, 
of the total misdemeanor defendant interviews, 10.2 percent 
were for illegal aliens, of which 6.7 were for felonies.
    Mr. McCaul. What was the percentage? I didn't hear you.
    Judge Eckels. The pretrial services department--in their 
interviews--misdemeanor defendants, 19 percent were non-U.S. 
citizens, 51.2 percent of that were undocumented and 10.2 
percent were--
    Mr. McCaul. What about the felony.
    Judge Eckels. Felony, there was 11.5 percent were 
undocumented, 6.7 percent of all felony interviewed were 
undocumented. Both of those are trending upward, a little over 
2 percent in a year in our community.
    Mr. McCaul. Do you have any additions to that.
    Mr. O'Brien. Out of the over 130,000 prisoners we process a 
year, 20 to 23 percent are undocumented aliens, which equates 
to approximately 26,000 prisoners. Out of our budget of about 
$260 million, with the greatest percentage going to jail 
functions, $41 million of that is going to handling 
undocumented or illegal immigrants.
    Mr. McCaul. So $41 million in Harris County are going 
towards incarceration of illegal.
    Judge Eckels. That does not include, I would caution the 
committee, Mr. Chairman, the cost to the courts, the 
prosecutors, the probation officers. The system is much more 
expensive.
    Mr. McCaul. The whole criminal justice system burden is far 
greater than that.
    Mr. O'Brien. That is just the enforcement side.
    Mr. McCaul. And we can't really quantify that right now.
    Lastly, health care, if you could just again, and also tell 
me whether these rates have increased over the last several 
years or not. In terms of incarceration, have we seen an 
increase?
    Mr. O'Brien. Oh, steadily.
    Judge Eckels. We are currently--we have complied with the 
Justice Commission jail standards with our current, and we 
recently opened our new facility, but we are in the design 
phase now for handling that process. It is a partnership with 
the city to help us improve the efficiency. With that we will 
be over 1,000 new beds.
    Mr. McCaul. Do you know what the increase would be.
    Judge Eckels. Our current capacity is just under 10,000; 
9,200 or 9,600.
    Mr. O'Brien. I believe you are at 96,500..
    Mr. McCaul. Judge, lastly, health care. What would be the 
cost to health care that the illegal immigrants receive.
    Judge Eckels. Total health care costs and total cost of 
undocumented inpatient, outpatient, in pharmacy care for the 
year 2005 was $128,400,000. This is detailed in that report I 
gave you earlier.
    Mr. McCaul. It is over $128 million, and of that, the--
    Judge Eckels. The district received payments and 
reimbursements that amounted to $31 million, net costs of 
$97,300,000 for 2005. Over the 4-year period, net cost 
$286,600,000 medical reimbursements.
    Mr. McCaul. And out of that, how much are the Feds 
reimbursing and how much does Harris County bear.
    Judge Eckels. That is after reimbursement.
    Mr. McCaul. After reimbursement.
    Judge Eckels. Reimbursements, the total cost for the 4-year 
period, $403,500,000. Reimbursement totaled $116,900,000. Net 
cost to Harris County, $286,600,000. Of that $116 million 
reimbursement, $99,140,000, or 84.9 or almost 85 percent, was 
TP30, a Federal Medicaid program that is federally funded.
    Mr. McCaul. I think those numbers speak for themselves in 
terms of the burden on the taxpayer.
    The Chair now recognizes Ms. Jackson-Lee.
    Ms. Jackson-Lee. Mr. Chairman, you place those of us who 
are part of this fact-finding effort in somewhat of a difficult 
posture in the shortening of time of our witnesses and, I 
believe, me remaining as the only member of the minority. 
However, I hope that we will be able to find the facts.
    Let me first start out by thanking all of you for your 
service in the way that the city and the county has worked 
together. I want to commend you Judge Eckels, Major O'Brien, 
Mr. Moriarty, certainly council member Garcia, Chief Hurtt, and 
the mayor who have worked together. I am reminded of how we 
unified around the evacuation, albeit faulty, as it related to 
Hurricane Rita, and how we bonded and worked together on the 
receiving of Hurricane Katrina survivors. This county and this 
city are to be commended, and we thank you very much for it.
    This is a fact-finding process, and it is not humorous and 
it is not open to quick remarks because there are many points 
that need to be put on this record that can be answered by the 
present leadership of the United States Congress.
    I notice that the State criminal alien assistance program, 
Major O'Brien, has approximate funding of $5.8 billion for 
calendar year 2001 and 2004. The top four States, including 
Texas, is $1.6 billion to incarcerate criminal alien and 
reimbursed staff through fiscal years 2002 and 2003. The State 
of Texas received some reimbursement. Do you recall that?
    Mr. O'Brien. No, ma'am. The only figures I have are the 
last fiscal year's figures with me, which we spent over $41 
million, and we were reimbursed about $2.5 million, or roughly 
6 percent.
    Ms. Jackson-Lee. You need more resources and this State is 
a very large State. You were reimbursed only $2.5 million.
    Mr. O'Brien. I don't feel it is the county's responsibility 
or the citizens of Harris County to fund illegal immigrants.
    Ms. Jackson-Lee. I agree. So you were reimbursed not a lot 
of money.
    Mr. O'Brien. Six percent.
    Ms. Jackson-Lee. I agree with you. You are speaking to the 
choir, and what I am trying to say to you is that we had State 
criminal alien assistance program dollars upwards of $5.8 
billion. The State of Texas spent about $1.6 billion. But let 
me inform you that this provision is now zeroed out in the 
President's budget. So where you got 6 percent in the last 
fiscal year or two, you get zero this year. These are the 
problems that we are confronting that can't be answered by 
these hearings.
    Let me share this point on our health care, and I think 
this is an important point and I would like to ask unanimous 
consent, Mr. Chairman, to add this to the record: The Texas 
Criminal Justice Coalition Geared Towards Leadership 
Initiative.
    Mr. McCaul. Without objection, so ordered.
    [The information is maintained in the committee file.]
    Ms. Jackson-Lee. That makes the following points. Though 
immigrants pay $1.5 million annually to Medicare payroll taxes 
and most health care insurance programs, they receive only half 
as much care as other families. Immigrants are not swamping the 
U.S. health care system and use it far less than native-born 
Americans: The American Journal of Public Health. Thirty 
percent of immigrants use no health care at all during the 
course of the year, and immigrants count for 10.4 percent of 
the U.S. population with only 7.9 percent of the health 
spending.
    The Harris County hospital system has done an excellent 
job, and we applaud them for being a front line of health first 
responders. But let me set the framework.
    Judge Eckels, if you would respond to this dilemma that we 
face. Most uninsured in the U.S.A. are mostly white, 19 to 39. 
They earn between 20--to $60,000. They work in small 
businesses, and in the city of Houston, 100,000 small 
businesses do not pay health insurance, and therefore, 
obviously, open up their employees to the health crisis that we 
face. Does the hospital system also have an increase, or have 
you seen an increased utilization by individuals who are 
underinsured or uninsured and are working?
    Judge Eckels. Yes.
    Ms. Jackson-Lee. And in the course of that, do you have a 
percentage of how that has increased over the years.
    Judge Eckels. I do not have that number. The total increase 
put before me today may be in the more detailed report I 
provided for you. I will get that number.
    We have seen a continuing increase in our total budget, 
again the percentages remain about the same, and I have an 
increase on the illegal population, but it is by no means a 
problem unique from that illegal population. It is a problem of 
the community of the uninsured population of Harris County. Our 
numbers are probably not the same as the Nation's on the 
percentage of Anglo versus Hispanic or African American or 
Asian, because we have a higher percentage of minority 
population in the Harris County region.
    But it is a problem that is subject to a whole different 
debate in committee hearings on the problems of health care. 
The pure costs of illegal population detracts from our ability 
to deal with some of those other issues with the local 
population, with the communities that you and I both serve.
    I should also compliment you on your efforts on this and 
will continue to work on the health care issues on the broader 
issue of starting a penetration of the market of health care, 
our health insurance. I hear lots of statistics about no 
insurance, but that does not mean no health care, because they 
get health care. It is just you and I paying for it through our 
property taxes and Federal taxes.
    Ms. Jackson-Lee. But the question, or at least the basis of 
your response, is that we are suffering from lack of funding 
across the board.
    Judge Eckels. It is a crisis in health care today, not only 
for the Harris County hospital district, for the for-profit and 
nonprofit hospitals, and often it is Federal policy that drives 
people into the ER, the most expensive place to provide 
services. I cannot lay the entire blame on the feet of the 
illegal population, no, ma'am. That is a problem that is 
aggravated by the illegal population, but certainly the total 
problem is not the population. A more comprehensive solution is 
required for that.
    Mr. McCaul. The gentlewoman's time has expired.
    Ms. Jackson-Lee. Thank you very much. I would like to pose 
these questions to both Council Member Garcia and Chief Hurtt.
    Might I add into the record, Mr. Chairman, the Major Cities 
Chiefs Association--and I am going to ask Chief Hurtt to list 
the cities because I don't have them here--their statement that 
indicates that the nine-point position statement that is 
expressing their opposition to utilizing local resources, and 
these are the major cities of the Nation for Federal 
immigration enforcement. So the idea of zeroing out the SCAAP 
funding partly would be a problem for you in terms of 
detention, and the idea of not having law enforcement 
reimbursed for any work that they did that would involve 
Federal responsibility would be a problem. But I understand 
that you are suggesting not only would it be a problem in terms 
of your resources but it would literally undermine your ability 
to do your job on the ground for the citizens of Houston.
    Would you both respond to any pressure, might I say, Mr. 
Chairman, that they are operating under an amendment that has 
said that Houston would lose funding if they didn't 
aggressively engage in going out and seeking individuals who 
might be nonstatus.
    Councilman Garcia. I am sorry, I ask unanimous consent to 
submit this into the record.
    Mr. McCaul. Without objection.
    [The information follows:]

                       Submitted by Harold Hurtt

                      M.C.C. IMMIGRATION COMMITTEE

                            RECOMMENDATIONS

      For Enforcement of Immigration Laws by Local Police Agencies

                    Adopted by: Major Cities Chiefs

                               June 2006

                              Prepared By:

                 M.C.C. IMMIGRATION COMMITTEE MEMBERS:

            Craig E. Ferrell, Jr., (M.C.C. General Counsel),

      Chairman of Immigration Committee, Houston Police Department

         Leroy D. Baca, Los Angeles County Sheriff?s Department

           William J. Bratton, Los Angeles Police Department

           Ella M. Bully-Cummings, Detroit Police Department

           Raymond W. Kelly, New York City Police Department

               Gil Kerlikowske, Seattle Police Department

               Richard Miranda, Tucson Police Department

              Robert Parker, Miami-Dade Police Department

              Richard D. Wiles, El Paso Police Department

                     M.C.C. NINE (9) POINT POSITION

                               STATEMENT

                       ENFORCEMENT OF IMMIGRATION

                     LAWS BY LOCAL POLICE AGENCIES

A. STATEMENT OF ISSUE
    Illegal immigration is a problem that faces our nation and society 
as a whole and one, which must be dealt with at the national level. It 
is absolutely critical that our country develop a consistent unified 
national plan to deal with immigration and this plan must include the 
critical component of securing our borders to prevent illegal entry 
into the United States.
    Since the horrendous attacks of September 11, 2001, local law 
enforcement has been called upon to do its part in protecting the 
nation from future terrorist attacks. The response of local law 
enforcement to the call to protect the homeland has been tremendous. 
Today, local police agencies stand as the first line of defense here at 
home to prevent future attacks. Local law enforcement?s unending 
efforts include providing additional training and equipment to 
officers, increasing communication and coordination with federal 
agencies, gathering, assessing and sharing intelligence, modifying 
patrol methods and increasing security for potential targets such as 
power plants, airports, monuments, ports and other critical facilities 
and infrastructure. Much of these efforts have been at a high cost to 
local budgets and resources.
    The federal government and others have also called upon local 
police agencies to become involved in the enforcement of federal 
immigration laws as part of the effort to protect the nation. This 
issue has been a topic of great debate in the law enforcement community 
since September 11. The call for local enforcement of federal 
immigration laws has become more prominent during the debate over 
proposed immigration reform at the national level.
    Major city police departments have a long undeniable history of 
working with federal law enforcement agencies to address crime in the 
United States whether committed by citizens, visitors, and/or illegal 
immigrants. Local police agencies have not turned a blind eye to crimes 
related to illegal immigration. They have and continue to work daily 
with federal agencies whenever possible and to the extent allowable 
under state criminal law enforcement authority to address crimes such 
as human trafficking and gang violence which have a nexus with illegal 
immigration.
    How local agencies respond to the call to enforce immigration laws 
could fundamentally change the way they police and serve their 
communities. Local enforcement of federal immigration laws raises many 
daunting and complex legal, logistical and resource issues for local 
agencies and the diverse communities they serve. Some in local law 
enforcement would embrace immigration enforcement as a means of 
addressing the violation of law represented by illegal immigration 
across our borders. Many others recognize the obstacles, pitfalls, 
dangers and negative consequences to local policing that would be 
caused by immigration enforcement at the local level.
    It is important for Major Cities Chiefs [M.C.C.] as a leader and 
representative of the local law enforcement community develop consensus 
on this important subject. The purpose of this position statement is to 
evaluate and address the impact and potential consequences of local 
enforcement of federal immigration laws and highlight steps, which if 
taken might allow local agencies to become involved in immigration 
enforcement. It is hoped that this statement will help to draw 
attention to the concerns of local law enforcement and provide a basis 
upon which to discuss and shape any future national policy on this 
issue. In this regard it is absolutely critical that M.C.C. be involved 
in all phases of this debate from developing this official position 
statement to demanding input and involvement in the development of any 
national initiatives.

B. OVERVIEW OF IMMIGRATION AND IMMIGRANT STATUS
    The federal government has the clear authority and responsibility 
over immigration and the enforcement of immigration laws. With this 
authority, the federal government has enacted laws, such as the 
Immigration and Naturalization Act (INA), that regulate a person's 
entry into the United States, his or her ability to remain in the 
country, and numerous other aspects of immigration. The federal 
government has given federal agencies such as Immigration and Customs 
Enforcement [I.C.E.] the specific authority to investigate a person?s 
immigration status and deport individuals who have no legal status or 
authority to be in the United States.

    Under the current immigration laws there exists various immigration 
status classifications. The immigration status of any particular person 
can vary greatly. The most common status classifications include the 
following:

    1) Legal Immigrants are citizens of other countries who have been 
granted a visa that allows them to live and work permanently in the 
United States and to become naturalized U.S. citizens. Once here, they 
receive a card, commonly referred to as a ``green card'' from the 
federal government indicating they are permanent residents. Some legal 
immigrants are refugees who fear persecution based on race, religion, 
nationality, membership in a particular social group, or political 
opinion in their home countries. Refugees are resettled every year in 
the United States after their requests for asylum have been reviewed 
and granted.

    2) Nonimmigrant Visa Holders are persons who are granted temporary 
entry into the United States for a specific purpose, such as visiting, 
working, or studying. The U.S. has 25 types of nonimmigrant visas, 
including A1 visas for ambassadors, B2 visas for tourists, P1 visas for 
foreign sports stars who play on U.S. teams and TN visas for Canadians 
and Mexicans entering the U.S. to work under NAFTA. Visa Holders are 
allowed to stay in the U.S. as long as they meet the terms of their 
status.

    3) Illegal Immigrants are citizens of other countries who have 
entered or remained in the U.S. without permission and without any 
legal status. Most illegal immigrants cross a land or sea border 
without being inspected by an immigration officer. Some person falls 
into illegal status simply by violating the terms of a legal entry 
document or visa.

    4) Absconders are persons who entered the United States legally but 
have since violated the conditions of their visa and who have had a 
removal, deportation, or exclusion hearing before an immigration judge 
and are under a final order of deportation and have not left the United 
States.
    Currently there are between 8-12 million illegal immigrants living 
in the U.S., with another estimated 800,000 illegal immigrants entering 
the country every year. These immigrants by their sheer numbers have 
become a significant part of local communities and major cities in our 
nation. Some major urban areas estimate that their immigrant 
communities, regardless of immigration status, comprise 50%-60% of the 
local population and other areas report similar trends. The reality for 
major local police agencies throughout the nation is that the 
communities they serve and protect are diverse and include significant 
immigrant communities including documented and undocumented immigrants.

    C. CONCERNS WITH LOCAL ENFORCEMENT OF FEDERAL IMMIGRATION LAWS
    Local police agencies must balance any decision to enforce federal 
immigration laws with their daily mission of protecting and serving 
diverse communities, while taking into account: limited resources; the 
complexity of immigration laws; limitations on authority to enforce; 
risk of civil liability for immigration enforcement activities and the 
clear need to foster the trust and cooperation from the public 
including members of immigrant communities.

    1) Undermine Trust and Cooperation of Immigrant Communities
    Major urban areas throughout the nation are comprised of 
significant immigrant communities. In some areas the immigrant 
community reaches 50-60 percent of the local population. Local agencies 
are charged with protecting these diverse populations with communities 
of both legal and illegal immigrants. The reality is that undocumented 
immigrants are a significant part of the local populations major police 
agencies must protect, serve and police.
    Local agencies have worked very hard to build trust and a spirit of 
cooperation with immigrant groups through community based policing and 
outreach programs and specialized officers who work with immigrant 
groups. Local agencies have a clear need to foster trust and 
cooperation with everyone in these immigrant communities. Assistance 
and cooperation from immigrant communities is especially important when 
an immigrant, whether documented or undocumented, is the victim of or 
witness to a crime. These persons must be encouraged to file reports 
and come forward with information. Their cooperation is needed to 
prevent and solve crimes and maintain public order, safety, and 
security in the whole community. Local police contacts in immigrant 
communities are important as well in the area of intelligence gathering 
to prevent future terroristic attacks and strengthen homeland security.
    Immigration enforcement by local police would likely negatively 
effect and undermine the level of trust and cooperation between local 
police and immigrant communities. If the undocumented immigrant?s 
primary concern is that they will be deported or subjected to an 
immigration status investigation, then they will not come forward and 
provide needed assistance and cooperation. Distrust and fear of 
contacting or assisting the police would develop among legal immigrants 
as well. Undoubtedly legal immigrants would avoid contact with the 
police for fear that they themselves or undocumented family members or 
friends may become subject to immigration enforcement. Without 
assurances that contact with the police would not result in purely 
civil immigration enforcement action, the hard won trust, communication 
and cooperation from the immigrant community would disappear. Such a 
divide between the local police and immigrant groups would result in 
increased crime against immigrants and in the broader community, create 
a class of silent victims and eliminate the potential for assistance 
from immigrants in solving crimes or preventing future terroristic 
acts.

    2) Lack of Resources
    The budgets and resources of local police agencies are not 
unlimited. Local police agencies struggle every year to find the 
resources to police and serve their respective communities. Since the 
events of September 11, local agencies have taken on the added duty of 
serving as the first line of defense and response to terrorist attacks 
for our country. These efforts on the local level to deter and prevent 
another terrorist attack and to be prepared to respond to the aftermath 
of an attack have stretched local resources even further. Since the 
creation of the Homeland Security Department, federal funding for major 
city police departments has been greatly reduced. Local agencies have 
also had to take on more responsibilities in areas that have 
traditionally been handled by the F.B.I. whose investigative resources 
are now more focused on counter-terrorism efforts. Local agencies are 
forced to fill the gap left by the shift of federal resources away from 
investigating white-collar crimes and bank robberies; areas 
traditionally handled by federal agencies.
    Enforcement of federal immigration laws would be a burden that most 
major police agencies would not be able to bear under current resource 
levels. The cost in terms of personnel, facilities and equipment 
necessary for local agencies to address the 8-12 million illegal 
immigrants currently living in the United States would be overwhelming. 
The federal government which has primary authority to enforce 
immigration laws has itself failed to provide the tremendous amount of 
resources necessary to accomplish such enforcement to its own agencies 
specifically charged with that responsibility. Local communities and 
agencies have even fewer resources to devote to such an effort than the 
federal government given all the numerous other demands on local police 
departments.
    0Local police agencies must meet their existing policing and 
homeland security duties and can not even begin to consider taking on 
the added burden of immigration enforcement until federal assistance 
and funding are in place to support such enforcement. Current calls for 
local police agencies to enforce immigration come with no clear 
statement or guarantee to provide adequate federal funding. Local 
agencies also fear that the call for local enforcement of immigration 
laws signals the beginning of a trend towards local police agencies 
being asked to enter other areas of federal regulation or enforcement.

    3) Complexity of Federal Immigration Law
    Federal immigration laws are extremely complicated in that they 
involve both civil and criminal aspects. The federal government and its 
designated agencies such as I.C.E. and the Department of Justice have 
clear authority and responsibility to regulate and enforce immigration 
laws. It is these federal agencies who have the authority to determine 
if a person will be criminally prosecuted for their violations of 
immigration laws or be dealt with through a civil deportation process. 
Based on their authority, training, experience and resources available 
to them, these federal agencies and the federal courts are in the best 
position to determine whether or not a person has entered or remained 
in the country in violation of federal regulations and the 
applicability of criminal sanctions.
    Immigration violations are different from the typical criminal 
offenses that patrol officers face every day on their local beats. The 
law enforcement activities of local police officers revolve around 
crimes such as murder, assaults, narcotics, robberies, burglaries, 
domestic violence, traffic violations and the myriad of other criminal 
matters they handle on a regular basis. The specific immigration status 
of any particular person can vary greatly and whether they are in fact 
in violation of the complex federal immigration regulations would be 
very difficult if not almost impossible for the average patrol officer 
to determine. At this time local police agencies are ill equipped in 
terms of training, experience and resources to delve into the 
complicated area of immigration enforcement.

    4) Lack of Local Authority and State Law Limitations of Authority
    The federal government has clear authority over immigration and 
immigration enforcement. Federal law does not require the states or 
local police agencies to enforce immigration laws nor does it give the 
states or local agencies the clear authority to act in the area of 
immigration.
    Laws in their respective states define the authority of local 
police officers. The authority of local police officers to act to 
enforce against criminal acts is clear and well established. However, 
federal immigration laws include both civil and criminal process to 
address immigration violations. It is within the authority of federal 
agencies such as I.C.E. and the Department of Justice to determine if 
an immigration violation will be dealt with as a criminal matter or 
through a civil process. Given the complexity of the immigration laws, 
it would be difficult for local police agencies to determine if a 
particular violation would result in criminal charges or purely civil 
proceedings and regulation. This duality in immigration law creates a 
gap in authority for local police officers who generally are limited to 
acting only in criminal matters.
    In addition state laws may restrict a local police officer?s 
authority to act even in criminal matters in such a way that it would 
prevent or hinder the officer's ability to investigate, arrest or 
detain a person for immigration violations alone. Federal agents are 
specifically authorized to stop persons and conduct investigations as 
to immigration status without a warrant. Local police officers may be 
constrained by local laws that deal with their general police powers 
such as the ability to arrest without a warrant, lengths of detention 
and prohibitions against racial profiling.
    An example of this conflict between the civil nature of immigration 
enforcement and the established criminal authority of local police 
exists in the federal initiative of placing civil immigration detainer 
notices on the N.C.I.C. system. The N.C.I.C. system had previously only 
been used to notify law enforcement of strictly criminal warrants and/
or criminal matters. The civil detainers being placed on this system by 
federal agencies notify local officers that the detainers are civil in 
nature by including a warning that local officers should not act upon 
the detainers unless permitted by the laws of their state. This 
initiative has created confusion due to the fact that these civil 
detainers do not fall within the clear criminal enforcement authority 
of local police agencies and in fact lays a trap for unwary officers 
who believe them to be valid criminal warrants or detainers.

    5) Risk of Civil Liability
    In the past, local law enforcement agencies have faced civil 
litigation and liability for their involvement in immigration 
enforcement. For example, the Katy, Texas Police Department 
participated in an immigration raid with federal agents in 1994. A 
total of 80 individuals who were detained by the police were later 
determined to be either citizens or legal immigrants with permission to 
be in the country. The Katy police department faced suits from these 
individuals and eventually settled their claims out of court.
    Because local agencies currently lack clear authority to enforce 
immigration laws, are limited in their ability to arrest without a 
warrant, are prohibited from racial profiling and lack the training and 
experience to enforce complex federal immigration laws, it is more 
likely that local police agencies will face the risk of civil liability 
and litigation if they chose to enforce federal immigration laws.

    D. M.C.C. NINE (9) POINT POSITION STATEMENT
    Based upon a review, evaluation and deliberation regarding the 
important and complex issue of local enforcement of federal immigration 
laws, the members of M.C.C., who are the 57 Chief Executive Officers of 
police departments located within a metropolitan area of more than 1.5 
million population and which employs more than 1,000 law enforcement 
officers, hereby set forth our consensus position statement, which is 
comprised of nine crucial components.

    1) SECURE THE BORDERS
    Illegal immigration is a national issue and the federal government 
should first act to secure the national borders to prevent illegal 
entry into the United States. We support further and adequate funding 
of the federal agencies responsible for border security and immigration 
enforcement so they can accomplish this goal. We also support 
consideration of all possible solutions including construction of 
border fences where appropriate, use of surveillance technologies and 
increases in the number of border patrol agents. Only when the federal 
government takes the necessary steps to close the revolving door that 
exists at our national borders will it be possible for local police 
agencies to even begin to consider dedicating limited local resources 
to immigration enforcement.

    2) ENFORCE LAWS PROHIBITING THE HIRING OF ILLEGAL IMMIGRANTS
    The federal government and its agencies should vigorously enforce 
existing immigration laws prohibiting employers from hiring illegal 
immigrants. Enforcement and prosecution of employers who illegally seek 
out and hire undocumented immigrants or turn a blind eye to the 
undocumented status of their employees will help to eliminate one of 
the major incentives for illegal immigration.

    3) CONSULT AND INVOLVE LOCAL POLICE AGENCIES IN DECISION MAKING
    Major Cities Chiefs and other representatives of the local law 
enforcement community such as the International Association of Chiefs 
of Police and local district attorneys and prosecutors should be 
consulted and brought in at the beginning of any process to develop a 
national initiative to involve local police agencies in the enforcement 
of federal immigration laws. The inclusion of local law enforcement at 
every level of development would utilize their perspective and 
experience in local policing, address their concerns and likely result 
in a better program that would be more effectively implemented.

    4) COMPLETELY VOLUNTARY
    Any initiative to involve local police agencies in the enforcement 
of immigration laws should be completely voluntary. The decisions 
related to how local law enforcement agencies allocate their resources, 
direct their workforce and define the duties of their employees to best 
serve and protect their communities should be left in the control of 
state and local governments. The decision to enter this area of 
enforcement should be left to the local government and not mandated or 
forced upon them by the federal government through the threat of 
sanctions or the withholding of existing police assistance funding.

    5) INCENTIVE BASED APPROACH WITH FULL FEDERAL FUNDING
    Any initiative to involve local police agencies in the enforcement 
of immigration laws should be an incentive based approach with full 
federal funding to provide the necessary resources to the local 
agencies that choose to enforce immigration laws. Federal funds should 
be available to participating local agencies to cover the costs 
associated with enforcement such as expenditures on equipment and 
technology, training and educational programs and costs of housing, 
caring for and transporting immigrants prior to their release to 
federal authorities.

    6) NO REDUCTION OR SHIFTING OF CURRENT ASSISTANCE FUNDING
    The funding of any initiative to involve local police agencies in 
the enforcement of immigration laws should not be at the detriment or 
reduction directly or indirectly of any current federal funding or 
programs focused on assisting local police agencies with local policing 
or homeland security activities. Local police agencies are currently 
working on strained budgets and limited resources to meet local 
policing needs and strengthening homeland security and in fact need 
increased funding and grant assistance in these areas. Merely shifting 
or diverting federal funding currently available for local policing and 
homeland security activities to any new immigration enforcement 
initiative would only result in a detrimental net loss of total 
resources available to local police agencies to police their 
neighborhoods and strengthen homeland security.

    7) CLARIFICATION OF AUTHORITY AND LIMITATION OF LIABILITY
    The authority of local police agencies and their officers to become 
involved in the enforcement of immigration laws should be clearly 
stated and defined. The statement of authority should also establish 
liability protection and an immunity shield for police officers and 
police agencies that take part in immigration enforcement as authorized 
by clear federal legislation.

    8) REMOVAL OF CIVIL IMMIGRATION DETAINERS FROM THE N.C.I.C. SYSTEM
    Until the borders are secured and vigorous enforcement against 
employers who hire illegal immigrants has taken place and the concerns 
regarding lack of authority and confusion over the authority of local 
agencies to enforce immigration laws and the risk of civil liabilities 
are adequately addressed, M.C.C. strongly requests that the federal 
agencies cease placing civil immigration detainers on N.C.I.C. and 
remove any existing civil detainers currently on the system. The 
integrity of the system as a notice system for criminal warrants and/or 
criminal matters must be maintained. The inclusion of civil detainers 
on the system has created confusion for local police agencies and 
subjected them to possible liability for exceeding their authority by 
arresting a person upon the basis of a mere civil detainer.
    M.C.C. would encourage the federal agencies to seek federal 
criminal warrants for any person they have charged criminally with 
violations of immigration laws and submit those criminal warrants on 
the N.C.I.C. system so the warrants can be acted upon by local police 
officers within their established criminal enforcement authority and 
training.

    9) COMMITMENT OF CONTINUED ENFORCEMNT AGAINST CRIMINAL VIOLATORS 
REGARDLESS OF IMMIGRATION STATUS
    M.C.C. member agencies are united in their commitment to continue 
arresting anyone who violates the criminal laws of their jurisdictions 
regardless of the immigration status of the perpetrator. Those 
immigrants, documented and/or undocumented, who commit criminal acts 
will find no safe harbor or sanctuary from their criminal violations of 
the law within any major city but will instead face the full force of 
criminal prosecution.
--------------------------
Major Cities Chiefs Association
Sun Valley, Idaho
June 7, 2006
    The President of the Major Cities Chiefs Association and Houston, 
Texas Police Chief Harold Hurtt announced today the adoption of nine 
recommendations for the United States Congress and the President to 
assist in resolving the immigration crisis facing America today. The 
Major Cities Chiefs Association, comprised of the largest police 
agencies in America, are the first responders to over fifty million 
residents. We are very concerned that the public policy under 
consideration does not take into full account the realities of local 
law enforcement in dealing with this issue on the ground. The 
foundation of the nine point position statement is five key concerns 
with local police enforcing federal immigration law. These concerns 
are:

        1. It undermines the trust and cooperation with immigrant 
        communities which are essential elements of community oriented 
        policing.
        2. Local agencies do not possess adequate resources to enforce 
        these laws in addition to the added responsibility of homeland 
        security.
        3. Immigration laws are very complex and the training required 
        to understand them would significantly detract from the core 
        mission of the local police to create safe communities.
        4. Local police do not posses clear authority to enforce the 
        civil aspects of these laws. If given the authority the federal 
        government does not have the capacity to handle the volume of 
        immigration violations that currently exist.
        5. The lack of clear authority increases the risk of civil 
        liability for local police and government.

Given these concerns the Major Cities Chiefs are recommending that 
Congress and the President adopt the following nine points:
        1. Securing the borders must be a top priority.
        2. Enforcement of the laws prohibiting the hiring of illegal 
        immigrants.
        3. Consulting and involving local police agencies when 
        developing any immigration initiative is imperative if the 
        initiative is to involve local agencies.
        4. Federal law must not mandate local enforcement of federal 
        law--all law enforcement initiatives must be completely 
        voluntary
        5. There should be no reduction or shifting of current federal 
        funding for state and local programs to pay for new immigration 
        enforcement activities
        6. Any initiative involving local police agencies should be 
        incentive based
        7. The authority and limitation of liability for local law 
        enforcement officers and police agencies must be clear.
        8. Civil immigration detainers must be removed from the NCIC 
        system
        9. MCC members are united in their commitment to continue 
        arresting anyone who violates the criminal laws of their 
        jurisdictions regardless of the immigration status of the 
        perpetrator.

    Most local police agencies have adopted policies of not inquiring 
about immigration status of individuals that are reporting crimes or in 
other encounters unless the person is suspected of committing a crime. 
Those policies have developed over the past 25 years because of law 
enforcement's commitment to provide protection to everyone within their 
jurisdiction and more recently because of state and federal laws 
prohibiting racial profiling. In addition, the federal government does 
not have the capacity to deal with the estimated 12 million illegal 
immigrants in the US today. As Congress and the President wrestle with 
these difficult issues it is important that national policy reflect a 
clear understanding of the enormous challenges that local police face 
in dealing with illegal immigration.

    Ms. Jackson-Lee. I thank the chairman.
    Mr. Garcia. Thank you, Congresswoman Lee. And as I made the 
point in my comments, that Federal funding that law enforcement 
receives right now requires nondiscrimination policies and 
practices. If we were to be placed under a mandate, a Federal 
mandate to enforce immigration law, then I could foresee the 
chief of police having to institute a broad process like we do 
with racial profiling so that officers, number one, have to 
enforce the immigration law on every person that they come in 
contact with. So now, you know, a simple ticket that, you know, 
maybe takes 10, 15, 20 minutes to write is now an hour. And 
then where do they go to ask the question?
    Then that officer has got to not only go through that 
process but now he has got to document the fact that he is 
enforcing the second law so that he is in compliance with the 
first law.
    I see that as being entirely impractical for the street 
cops to do in the city of Houston because it would be a 
disservice to those folks that are needing emergency response 
or general police presence in the community.
    Ms. Jackson-Lee. Chief Hurtt.
    Chief Hurtt. Congresswoman, what is being incurred by the 
Houston Police Department and other police departments across 
the country is a lack of resources to do the job. Right now, as 
the council member stated, we are 1,000 members short in the 
Houston Police Department. If we took on this issue of doing 
enforcement of immigration or just providing normal police 
service--because right now in the city of Houston there is 
anywhere between 10--to 50,000 to 100,000 undocumented people 
believed living here--there are no resources, local or Federal, 
for us to provide policing services to that population. We do 
that with the resources that we have here.
    Now, if we are going to do enforcement, I would need just 
1,000 officers to do that. If we are going to do immigration 
enforcement, I would need maybe 2,000, 2,500 more officers to 
do that enforcement.
    So those are the strains that it would put on the system as 
well as ICE. In my dealing with ICE and Federal agencies, like 
the Chair stated, when you stop people--and if we did stop 
everyone and ask them if they are an undocumented individual, I 
doubt very seriously the Federal Government would have the 
resources to respond and take those people off our hands. I 
know they don't have the beds because they have 1,800 beds in 
this State and 10,000 in the country. It cannot be done.
    Mr. McCaul. The gentlewoman's time has expired. Judge Ted 
Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I want to get back on the subject. The subject is not 
immigration. The subject is not lawful immigration or 
immigrants. The subject is crime committed by illegals in the 
United States and especially in this area. So, gentlemen, I 
want to address that specific issue.
    I do want to thank all of you for being here. Councilman 
Garcia, you know I am not in your city, but I still call you my 
councilman because I appreciate the things you have done. It is 
great, with my background and yours, to see people in law 
enforcement take the step to go into politics. God bless you, 
but I appreciate you doing that and great success I hope in 
your future career.
    Judge Eckels, how many illegals are there in Harris County?
    Judge Eckels. Between 400 and 430 are the best estimates 
that we have for this region. Some estimates are on the high 
side, but that is the estimate, is that population is at least 
430,000.
    Mr. Poe. Major O'Brien, I want to specifically ask you, if 
you know, of the illegals in the county jail, how many of them, 
percentage-wise, are OTM, other than from Mexico.
    Mr. O'Brien. Sir, I don't have that, but I do have the 
figures that typically 60 percent are Mexican and 20 percent 
are South or Central America. So that would leave 20 percent 
being from other areas.
    Mr. Poe. All right. How about in the State prison system.
    Mr. Moriarty. The majority are Mexican descent, of the 
Mexican nationality, but I don't have the numbers here.
    Judge Eckels. Congressman, just on a percentage basis, if 
it reflects the hospital district, where we have a much better 
record, it runs just under 10 percent or other than Mexico of 
illegal population.
    Mr. Poe. Of the people that go through the hospital 
district.
    Judge Eckels. Hospital system is slightly under 9.5 Mexico 
that are other-than-Mexico illegals in the population.
    Mr. Poe. It is obvious that local government is now saddled 
with the costs of illegal entry into the United States, but, on 
the issue of crime, I will ask the chief, if you could help us 
solve the problem on the Federal basis, how could the Federal 
Government, whose responsibility is border security, the 
failure to protect the border allows people to illegally come 
into the United States, to stop in Houston, Texas. Why not? And 
they commit crimes. How could the Federal Government help you 
and the city of Houston to have a safer community.
    Mr. Hurtt. Number one, as we talked about probably all 
morning, the fact that additional resources, additional 
officers--as you know, in the middle 1990s, it was believed 
that between 80 to a hundred thousand officers were put on the 
streets of America through the COPS program and Federal 
funding, and crime went down. That program that put those 80 to 
a hundred thousand officers on the streets of America has now 
been reduced by 85 percent. A lot of the grant has been 
eliminated. And we understand that a lot of that money has to 
go to Federal agencies for homeland security and support the 
war. We are very supportive of that. But, at the same time, we 
have forgotten about the needs of the State and local law 
enforcement. Because we are battling the gangs, we are battling 
the drugs, we are battling the alcoholism and the same problems 
that we had in the 1990s, and if you ask me what do we need, we 
need financial assistance from the Federal Government.
    Mr. Poe. Last question to Councilman Garcia. With your 
extensive background being with gangs over the years, explain 
to me, if you would, how failure to secure the borders has 
promoted gang activity here in the Houston area, if it has.
    Mr. Garcia. There has been an impact in MS-13 and other 
criminal street gangs that have come from various parts of 
Latin America as well as from Europe and Asia and other 
countries.
    Mr. Poe. For the record, MS-13 originated in what country.
    Mr. Garcia. In El Salvador.
    Mr. Poe. Go ahead.
    Mr. Garcia. The challenge is, one, that we do a great job 
arresting these guys when they are gang banging on our streets.
    The problem that I have seen firsthand in my travels 
through Guatemala, as an example, is that when we deport them 
we are deporting them to a third-rate law enforcement, you 
know, entity in those respective countries. They don't have a 
handle with them. So the fact that you have poor border 
security and you have an active deportation process, all you 
are doing is creating a place where they can rest up, get going 
again and come right back. It just has empowered the overall 
subculture of the criminal street gang network.
    So it is important that good border security be present, 
obviously, but it is also important through our programs like 
easy tap that we make sure that agencies in other countries 
that we are funding are being given the expertise, the 
resources, the equipment to make sure that they are handling 
and can handle these violent individuals when they are deported 
back home.
    What I have just seen is they get back--it took me 30 days 
to convince the National Police of Guatemala to take me into 
some of their ghettos. Because they don't patrol them. They are 
afraid; and after about an hour there, I understood why. I 
wanted to get out of there myself.
    So there are challenges, and it does perpetuate one to the 
other.
    Mr. Poe. Thank y'all once again.
    Judge Eckels. Congressman, one number that you asked for I 
did find here. Of all defendants of both misdemeanor and felony 
trials who were non-U.S. citizens, 60.4 percent were born in 
Mexico. 67 percent, about two-thirds of those from Mexico, were 
in Harris County illegally, which will make that about half of 
the total number of non--U.S. citizens legally and illegally.
    Mr. Poe. Thank you. Thank you, Mr. Chairman.
    Mr. McCaul. Thank you, and Ms. Jackson-Lee has appealed to 
the Chair for 30 seconds. I will grant that, but hold your feet 
to the fire.
    Ms. Jackson-Lee. Thank you. Your generosity is 
overwhelming. That is how Texans work together. There are two 
gentlemen over there and one is holding on.
    Mr. McCaul. Your 30 seconds is expiring.
    Ms. Jackson-Lee. Let me just ask a direct question to Chief 
Hurtt. We understand that the Governor has asked for a hundred 
million dollars, again, out of very paltry State funds, to go 
to the border and is needed, but what effect does that have on 
you? Do you understand any of those funds will come to you for 
immigration work and law enforcement or is that, as we say, 
borrowing from Peter to pay Paul?
    Chief Hurtt. To my knowledge, none of that fund is directed 
to the city of Houston for law enforcement purposes.
    Ms. Jackson-Lee. Mr. Chairman, I would like to ask 
unanimous consent to impose into the record the Secure America 
9/11 Commission security recommendations report that has been 
authored by the minority of Homeland Security.
    I would ask unanimous consent--
    Mr. McCaul. Without objection.
    [The information is maintained in the committee file.]
    Ms. Jackson-Lee. I ask unanimous consent that an Effective 
Criminal Justice Coalition University Leadership Initiative be 
added to the record.
    Mr. McCaul. Without objection, so ordered.
    [The information is maintained in the committee file.]
    Ms. Jackson-Lee. I ask, finally, the 9/11 report by the 9/
11 Commission that has given F's to risk-based homeland 
security funding, meaning that cities like Houston have been 
deprived of homeland security based on risk, I ask unanimous 
consent that be added.
    Mr. McCaul. Without objection.
    [The information is maintained in the committee file.]
    Mr. McCaul. The gentlewoman's time has expired, I believe.
    I just wanted to end on the note that when--I worked in the 
Attorney General's office, and the presence of gangs, MS-13, 
Mexican Mafia, many of whom are illegal not only on the streets 
but, as you know, in TDCJ and the prison system and they work 
very actively there and they are a threat.
    I want to thank the witnesses for appearing here today. 
Your testimony has been very insightful and very helpful to 
this committee.
    With that having been said, I will excuse the witnesses and 
call our third panel.
    [Recess.]
    Mr. McCaul. The committee will now come to order.
    We have our third and last panel. I want to thank the 
witnesses for being here. We are going to try to keep our 
comments limited, but we understand we have a couple of 
personal stories that I want you to take your time with that 
and not feel restrained time-wise.
    Mr. McCaul. The Chair now recognizes Mr. Steven Stone, 
Texas State trooper, to testify.

     STATEMENT OF STEVEN MICHAEL STONE, TEXAS STATE TROOPER

    Mr. Stone. Thank you, Mr. Chairman and committee members, 
for allowing me to share my story with you; and I will try to 
paraphrase as much as possible.
    On March 22, 2006, I conducted what started out to be a 
routine traffic stop in Smith County. I stopped a pickup truck 
for speeding. Initially, the pickup truck did not want to stop, 
continued for some distance before doing so.
    When the vehicle finally pulled over to the shoulder of the 
roadway, I walked up and observed two Hispanic males inside the 
pickup truck. These Hispanic males were identified as Ramon 
Ramos and Francisco Saucedo at a later time.
    I asked Ramos to exit the vehicle. In doing so, I found an 
open container of alcohol in the vehicle. Further investigation 
was conducted, and Ramos was found have a small bundle of 
marijuana contained in his coat.
    As Ramos was being placed under arrest, Saucedo began to 
exit the vehicle. Saucedo was instructed twice to get back in 
the vehicle. However, he continued to exit and was not 
compliant.
    Saucedo was again instructed for a third time to get back 
into the vehicle. At this time, I felt threatened and drew my 
weapon and pointed it at him. It was at this time that I heard 
gunshots and felt an intense pain in my left shoulder. My 
vision had gone black, but I could still hear myself yelling 
and sounds of more gunshot.
    When I regained my vision, I was lying in a ditch looking 
up at Mr. Ramos, and Mr. Saucedo shooting down at me. I 
attempted to fire back at Ramos and Saucedo, but I was unable 
to do so. Ramos and Saucedo fired numerous rounds down into the 
ditch where I was lying before jumping in their vehicle and 
driving off, leaving me for dead.
    I had been hit two or three times in the neck, two times in 
the chest, one time in the left side of my back. One of the 
bullets that hit me in the chest rode just under the skin and 
exited near my neck. The bullet that went into my back 
fractured my shoulder blade and shattered my collarbone before 
exiting the top of my left shoulder. Despite these injuries, I 
was able to make my way back to my patrol vehicle and radio for 
help. I was able to give a brief description of the suspect 
vehicle and its direction of travel.
    When backup arrived, I was transported to the hospital by a 
Smith County sheriff's deputy in a patrol car.
    While I was being transported to the hospital, Tyler Police 
Department, with the help of a Tyler citizen, were able to 
begin pursuing the suspect vehicle. Ramos and Saucedo led Tyler 
police units on a high-speed chase through the city of Tyler. 
Ramos and Saucedo shot at pursuing police units with automatic 
gunfire with total disregard for the officers or the civilians 
who sat innocently in their cars as the pursuit passed by.
    The pursuit ended when the suspects lost control of their 
vehicle and collided with another vehicle on the shoulder of 
the roadway. Ramos and Saucedo were both charged with 14 counts 
of aggravated assault on a public servant.
    Ramon Ramos just recently pled guilty to all 14 counts and 
was charged with two life sentences to be served consecutively. 
Investigation showed that Ramos had been criminally deported 
from the United States on two different occasions prior to this 
on Federal weapon and drug charges. Ramos had been living 
illegally in the United States for approximately 3 to 4 years 
prior to the 22nd of March 2006.
    On the night of the shooting, Ramos and his partner were in 
possession of body armor, a rifle modified for automatic fire, 
a handgun modified for automatic fire, two or more handguns, 
numerous knives, drugs and alcohol; and, at the time of this 
report, Mr. Saucedo still has not gone to trial.
    Mr. McCaul. Sir, I want to thank you for your testimony, 
your service to this State, your courage in what you did and 
your courage to come before us here today and testify; and we 
are very glad you are here to testify.
    Mr. Stone. Thank you, sir.
    [The statement of Mr. Stone follows:]

                    Prepared Statement Steven Stone

    On March 22, 2006 I conducted what started out to be a routine 
traffic stop. I had stopped a blue pickup truck on TX 31 in Smith 
County for speeding. The pickup was occupied by two Hispanic males who 
were later identified as Ramon Ramos and Francisco Saucedo. After 
asking Ramos to exit the vehicle an open container of alcohol was found 
in the front seat of the pickup. Further investigation was conducted 
and Ramos was found to have a small bundle of Marijuana inside one of 
his coat pockets. As Ramos was being placed under arrest, Saucedo began 
exiting the vehicle. Saucedo was instructed twice to get back into the 
vehicle; however, he continued exiting the vehicle.
    Saucedo was again instructed to get back into the vehicle; however, 
this time, I drew my duty weapon and pointed it at him. It was at this 
time that I heard gun shots and felt an intense pain in my left 
shoulder. My vision had gone black, but I could still hear myself 
yelling and the sounds of more gun shots. When I regained my vision I 
was lying at the bottom of a drainage ditch and was looking up at Ramos 
and Saucedo, but was unable to do so. Ramos and Saucedo fired numerous 
rounds down into the ditch where I was lying before jumping into their 
vehicle and driving off; leaving me for dead.
    I had been hit two or three times in the neck, two times in the 
chest, and one time in the left side of my back. One of the bullets 
that hit me in the chest rode just under the skin and exited near my 
neck. The bullet that went into my back fractured my shoulder blade and 
shattered my collar bone before exiting the top of my left shoulder. 
Despite these injuries I was able to make my way back to my patrol 
vehicle and radio for help. I was able to give a brief description of 
the suspect vehicle and its direction of travel. When backup arrived, I 
was transported to the hospital in the back of a Smith County Sheriff's 
patrol car.
    While I was being transported to the hospital, Tyler Police 
Department, with the help of a Tyler citizen, had begun pursuing the 
suspect vehicle. Ramos and Saucedo lead Tyler Police units on a high 
speed chase throughout the city of Tyler. Ramos and Saucedo shot at 
pursuing police units with automatic gun fire with total disregard for 
the officers or the innocent civilians that sat innocently in their 
vehicles as the pursuit passed by. The pursuit ended when the suspects 
lost control of their vehicle and collided with another vehicle on the 
shoulder of the roadway. Ramos and Saucedo were both charged with 14 
counts of aggravated assault on a public servant.
    Ramon Ramos just recently pled guilty to all 14 counts and was 
charged with two life sentences to be served consecutively. 
Investigation showed that Ramos had been criminally deported from the 
United States on two different occasions because of federal weapon and 
drug offenses. Ramos had been living illegally in the United States for 
approximately 3 to 4 years prior to March 22, 2006. On the night of the 
shooting, Ramos and his partner were in possession of body armor, a 
rifle modified for automatic fire, a handgun modified for automatic 
fire, two or more handguns, numerous knives, drugs and alcohol.
    At the time of this report, Saucedo has not been to trial.

    Mr. McCaul. Next, the Chair now recognizes Mrs. Carrie Ruiz 
for her testimony.

                    STATEMENT OF CARRIE RUIZ

    Mrs. Ruiz. Thank you for having us here today.
    This is my husband Lucio, and we are the parents of 17-
year-old Felicia Ruiz. She was murdered October 30, 1999, by an 
illegal alien from Venezuela who had been here since he was 4 
years old. His mother, Stella Rosa Salazar, is still here in 
the U.S., right here in Houston illegally; and she helped him. 
She sent his passport to Miami, Florida, after he murdered our 
daughter where he went, and some friends had it there, and they 
gave his passport to him. His father flew down from Venezuela, 
picked him up and took him back. He left Houston on November 
17.
    Felicia was murdered October 30, and we buried her November 
3rd. She was ambushed by Salazar and Felisa Muerta and J. Lewis 
Ferrill. She was beaten, her throat was cut, and she was 
stabbed over 39 times. She was our only daughter and our pride 
and joy, and she was a good-hearted girl. She never bothered 
anybody. She loved to talk on the phone. She had a lot of 
friends.
    But Salazar and Muerta wanted her to join a gang, and she 
refused to do that. She also helped the gang task force 
officers by ID'ing a gang member, and in the process some way 
it got back. It got back to Salazar and them, and they murdered 
her for that reason, for retaliation.
    So, you know, it is been real tough on my husband and I. 
And what we don't understand is that Salazar had been here 
since he was 4 years old, and he spoke very good English, but 
nobody knew that he was from Venezuela. When he was taken down 
to homicide and questioned after he killed Felicia, he had cuts 
and bruises and things on his hands, and they took a picture of 
it, and they took a picture of him, and they took his 
statement, and then they let him go. They didn't ask him if he 
was a citizen, American citizen or where he was from. They had 
no way of knowing that.
    When he walked out that door, he was gone. About a week or 
so later, the murder warrant came out on him; and he was 
already gone. He had already left for Venezuela.
    It is just--it has been--it is just something that my 
husband and I, we don't understand. I mean, we all know about 
Venezuela. We all know that Chavez and the United States don't 
mix. We all know that. We know everything about that. But the 
bottom line is, if these illegals are going to come into the 
country, come into America from Venezuela or El Salvador or 
wherever they come from and there is a no extradition to these 
countries, then if they commit felony murder here like Salazar 
did and then they go back to their countries to hide, to avoid 
prosecution, then the government needs to step in.
    There should be some kind of clause with these countries 
with these no extradition laws so that the American authorities 
can go in there and get these criminals and bring them back to 
stand trial for murder here in the U.S.
    Because they are protected here. Their rights are protected 
here. Then they commit murder, they go back to their country, 
and then they are protected there. So where is the justice for 
the victim? Where is the justice for my daughter, for our 
daughter and for all the other families who have had children 
or loved ones murdered by illegal aliens? Where is the justice? 
Because there is not any.
    It has been 7 years--going on 7 years, and Salazar has been 
in Venezuela. The FBI knows he is over there. They have been 
keeping up with him. But we finally had to turn to Congressman 
Green to help us because we were getting nowhere. The FBI 
couldn't find ways to get him. There was no extradition, you 
know, and so we finally asked him to help us. So he got with 
the Ambassador of Venezuela, and the Ambassador of Venezuela 
told him that there is a 1922 treaty with the United States and 
Venezuela that is still in effect, the document that they 
needed to try to bring Salazar out of there.
    But we have had everybody, the homicide detectives, FBI, 
everybody involved in this. Except one person has refused to 
help us, and that is our own district attorney, Chuck 
Rosenthal, and why I can't figure it out. His reasoning does 
not make any sense to our family.
    Even the district attorney on our daughter's case that 
handled the trial agreed to give the Ambassador of Venezuela 
all the documents he needed, agreed to go along with it. But 
Chuck Rosenthal overruled him and refused to let that happen 
because he said that it would show favoritism, you know, for us 
to be able to get him back and him only do 30 years because 
Venezuelan law requires that he would be able to only do 30 
years.
    We weren't happy with that. We didn't like the fact that 
Salazar could only get 30 years, but we were willing to accept 
it because we would rather see him in a Texas prison answering 
for what he did to Felicia instead of being over there living 
his life and never answering for it, and if we don't do 
something now we may never get him back.
    So, you know, it is tough. We love her. We miss her. We 
think about her every day. I think about the pain and the fear 
she went through.
    I think about the three people being on top of her that 
night. I think about Salazar hit her so hard that they said her 
feet flew up in the air, and she landed in a fetal position. 
And when she came to, she tried--she fought like hell to stay 
alive, but she couldn't because there were three of them on top 
of her. Muerta was cutting her throat and Salazar grabbed a 
knife and he stabbed her and stabbed her until I guess he got 
tired of stabbing her.
    They went to walk away, and when they looked back, her body 
must have moved or jumped, and they went back and flipped her 
over, and they kept standing on her until she stopped moving. 
And then they walked away like it was nothing, and they left 
her in that cold, empty field.
    Yes, the borders need to be secure; and, yes, you need to 
do something about this. All these illegals over here, all you 
hear about, oh, they are so good for the economy, so good for 
this. But what about the ones that come over here and they 
don't get jobs and they do commit violent crimes and the first 
thing they do is dash back over to where they come from? They 
want to reap all the benefits from the U.S., but at the time, 
when they commit felony murder or something, then they want to 
run back and be protected in their countries, and that is 
wrong.
    Not all of them are over here to get a good job and to work 
and support their families. There is lot of them over here that 
do come and commit violent crimes, and it is wrong, and we do 
need to do something about it.
    We need Congressman Green's help and everybody's to be able 
to get Salazar back.
    What about his mom? I mean, I would like to know why she is 
still walking these streets when she helped him leave here, 
when she aided and abetted him in this homicide by helping him 
get out of the country. INS don't pick them up. They don't do 
anything. They haven't gotten her. She always stays a step 
ahead of the detective, every time, when they try to find her. 
When they do finally catch up with her, she moves on somewhere 
else.
    It is tough, and I am sorry I was crying, but it just makes 
it makes me and my husband so upset because we want justice for 
our daughter. We are not satisfied with just the two that are 
in prison. We want Salazar brought back here and for him to 
answer for what he did to Felicia.
    This was a retaliation killing. She was a beautiful young 
girl with a lot of hopes and dreams. My husband will never get 
to walk her down the aisle, will never get to see her have 
grandkids, all the things that we looked forward to when we get 
old. He took all of that away from us, and he took everything 
away from her and that is wrong.
    He should not be allowed to be protected by Venezuelan law. 
You know, like I said, he was here since he was 4 years old, 
and nobody ever knew. He went to school here. Hell, he spoke 
better English than I do, you know.
    And what they say, the police officers can't stop and ask 
them and all the kind of stuff and it takes so much time to do 
that. Well, you know what? Hey, okay, but what if one of these 
people they are stopping is wanted for a violent murder here in 
the U.S.? What? You just going to let them go because you are 
not going to bother to ask who they are or where they are from?
    So I don't know. It is hard.
    Mr. McCaul. Let me express my heartfelt sympathy on behalf 
of myself and the committee for what you had to go through. As 
a father of four daughters, I can't imagine the pain that you 
must be experiencing every day, and you are a victim every day 
when you have to remember this. That is why I thank you for 
coming forward to testify to tell your story. It takes a lot of 
courage.
    Mrs. Ruiz. We appreciate it very much. I am sorry about 
crying and everything, but I just--you know, she was a 
beautiful girl, and I just want everybody to see what they took 
away from us.
    Mr. McCaul. Let me also pledge my support to assist you in 
bringing Mr. Salazar to justice.
    Mrs. Ruiz. Thank you.
    Mr. McCaul. I know I speak for the other members standing 
here as well. Thank you for coming forward.
    Mr. McCaul. Next, the Chair now recognizes Mr. Dennis 
Nixon, the chairman of the International Bank of Commerce.

 STATEMENT OF DENNIS E. NIXON, CHAIRMAN, INTERNATIONAL BANK OF 
                            COMMERCE

    Mr. Nixon. Thank you, Mr. Chairman, members of the 
committee.
    My name is Dennis Nixon. I am CEO and chairman of the 
International Bank of Commerce, also known as IBC Bank. I am 
also a resident of Laredo, Texas, a city on our southern border 
where I have lived and worked for 36 years.
    Today, I am also speaking as chairman of the Alliance for 
Security and Trade, a Texas-based coalition that is focusing on 
improving the security of our country while helping ensure the 
free flow of business and commerce, protecting American jobs, 
and thus ensuring our prosperity.
    There has been a lot of discussion here today on the crime 
and violence that is associated with illegal immigration. There 
is no doubt that we have problems along the borders, as well as 
the interior of this State and the country.
    I believe that in order to make any headway in reducing 
crime caused by illegal immigrants, we need to reduce the 
number of immigrants who enter this country illegally. That may 
sound simplistic and obvious, but the problem lies in our 
search for solutions. Illegal immigration is not a border 
issue. It is a national issue.
    Those who are focused on enforcement only, a feel-good 
security solution, are doing this country more harm by pushing 
an agenda that sounds warm and fuzzy but, in reality, undercuts 
our economy and makes us more vulnerability. The build-a-wall-
and-throw-them-out mentality is, in essence, a denial of 
admission agenda that is anti-immigrant, antitourist and 
anticommerce.
    We cannot continue to abuse our neighboring countries 
through excessive border security, sending a ``don't come'' 
message when all these visitors want to do is spend money and 
add value to our economy. We live in a global economy, and we 
must recognize that we cannot continue our prosperity by 
isolating ourselves from the world and abusing the 
relationships that have been built over the last several 
decades. NAFTA has been a huge success. We don't want to turn 
back on the enormous value that this agreement has added to our 
economy and our quality of life.
    If security and terrorism is the real concern, then why 
should we treat the northern and southern border differently? 
It makes no sense to focus all our attention on the southern 
border and leave the Canadian border insecure. After all, the 
Canadian border is twice as long as the southern border and has 
represented more terrorist threats in the past than the 
southern border.
    Considering how far apart the House and Senate are on this 
issue, will we ever find the sweet spot that solves the problem 
and is acceptable to all parties involved? I believe the answer 
can be found in connecting the dots.
    We know that approximately 5--to 600,000 people enter this 
country illegally each year. Setting arbitrary caps on the 
number of workers will not reduce the flow of illegal 
immigrants. Employer sanctions won't solve the problem. They 
will keep coming, because our economy creates a need for their 
work. Failure to recognize this need makes the consequences 
clear: continued illegal immigration, stagnation resulting from 
tight labor markets, more outsourcing because businesses will 
go where the labor is, and ensuring an underclass of illegal 
workers.
    What is our goal here? Is it to apprehend the criminals or 
prevent the crimes from ever occurring? As long as our focus is 
on enforcement, not prevention, the cycle will never end unless 
we start treating the problem and not just the symptom.
    A Border Patrol officer's worst nightmare is that a 9/11-
type terrorist will slip into this country under his or her 
watch. The scenario is possible if we spend all of our time 
chasing down people who come here to wash dishes and mow lawns 
so they can feed their families.
    Let us route those who want to come here through legal 
channels and by doing so we can weed out the criminals. That 
way the only ones crossing the border illegally are more likely 
to be the ones that mean us harm. This will allow our Border 
Patrol to make better use of their resources and catch the bad 
guys.
    There has been a lot of talk about Laredo and other border 
communities during these hearings across the country, much of 
which has been mischaracterized and misunderstood. We have 
crime like any other city, and no one disputes the violence 
across the border. But contrary to what you heard about Laredo, 
Texas, it is not a war zone. It is not high noon, and we are 
not at the OK corral. I feel just as safe walking downtown near 
our bank headquarters five blocks north of the border as I do 
at my ranch, which is eight miles north of the Rio Grande.
    We cannot allow a few opportunistic law enforcement 
officials to mischaracterize the problems any more than we can 
say no border at all. All things in life work best with proper 
balance.
    Workers are coming to this country because our economy 
would collapse without people to fill the vacant jobs. Across 
this country, we are experiencing labor shortages that are 
about to get worse if we don't got the problem fixed.
    Our national unemployment rate is 4.8 percent, one of the 
lowest levels in our Nation's history. For all practical 
purposes, we are at full employment in this country; and that 
includes all of the employed unauthorized workers.
    This tight labor market makes it difficult for many 
businesses to find good workers. Across this country we have 
jobs that are going unfilled, and I can say without hesitation 
the problem exists at IBC Bank. We have a large number of 
authorized positions we have not been able to fill.
    Recently, Florida citrus growers announced that many of 
their groves may go unharvested because of the scarcity of 
workers there.
    Several weeks ago, an Oklahoma saddle maker lost 50 of his 
75 employees in a raid by Immigration and Customs Enforcement. 
This is one of Sulphur, Oklahoma's, largest employers.
    If the workers were hired with forged documents, then we 
clearly need a system that people with expertise in saddle 
making don't need to have expertise in verifying documents. 
This system must be accurate, fast and efficient. If the saddle 
maker knowingly hired illegal workers, then that is wrong, and 
he broke the law. Either way, it proves that workers are hard 
to come by in this tight labor market, and we need an 
immigration system with a guest worker program that works. 
Destroying this business has done no one any good.
    Business will go where the labor is, and if we don't want 
jobs to go south of the border or overseas through outsourcing 
then we must be willing to import enough workers to keep the 
jobs here. We can't have it both ways, and as a country we need 
to make up our mind which direction we are going.
    The country needs a stable workforce so that business can 
grow, prosper and create more jobs. However, hurdles lie ahead 
that could prevent a stable workforce.
    The baby boomers are on the leading edge of retirement, and 
it is estimated that over the next 10 to 20 years 82 million 
baby boomers will retire and be replaced by 67 million new 
workers, resulting in a shortage of 15 million workers.
    At the same time, the U.S. fertility rate is projected to 
fall below replacement level; and in a report released last 
November to Congress, the Congressional Budget Office made it 
patently clear that unless native fertility rates increase most 
of the growth in the U.S. labor force will come from 
immigration by the middle of the century.
    The failure to provide enough workers to satisfy our demand 
for labor means many businesses will be forced to fight for the 
small pool of available native workers by bidding up wages. 
That will have significant and long-lasting consequences for 
our economy, including stagnation at some point. Because our 
population continues to age, and when the baby boomers retire 
and our native fertility rates decline, we will increasingly 
run short of willing and able workers. This action will likely 
force many companies to outsource their jobs in order to grow 
their business, but many who have no choice will suffer extreme 
hardship in terms of accomplishing their business goals. The 
hotel, food service, construction, and agricultural industries 
are just a few that will suffer as a result of their inability 
to find workers in such a tight labor market.
    Across Texas, police departments in cities like San Antonio 
and Dallas and Houston are facing manpower shortages as 
positions go unfilled. I foresee a similar situation with our 
Armed Forces. A tight labor market will cause a ripple effect 
in the economy, including competitive pressure that could mean 
young Americans might be more likely to choose a job in the 
private sector instead of one in the military, resulting in 
reinstitution of the draft.
    One way to stop illegal immigration is to relieve the 
pressure on the border by creating a guest worker program that 
will supply us the workers we need, bring them through legal 
channels, and help us keep better track of who is in this 
country and why.
    When we installed fences in southern California, we treated 
the symptoms. While illegal crossings decreased in the urban 
areas, overall illegal immigration continued to increase. In 
the end, we diverted immigrants from safe crossing points only 
to watch them die in the desert. In the process, we destroyed 
circularity. People no longer come and go. They stay in the 
United States, and they bring their families.
    Let's not make the same mistake in our approach to fixing 
the immigration system. An enforcement-only approach will only 
continue to encourage illegal immigrants to go around the 
system or stay in the shadows.
    I believe Mayor Bloomberg said it best. ``It is as if we 
expect border control agents to do what a century of communism 
could not: defeat the natural market forces of supply and 
demand and defeat the natural human desire for freedom and 
opportunity.''
    That is why we must focus on the problem, which is making 
sure we provide enough workers to supply the labor demand that 
will keep our country strong. That will result in a reduction 
in crime and give our law enforcement agencies the time to hunt 
down the bad guys, instead of spending a disproportionate 
amount of their time looking for the next generation of 
construction workers.
    Mr. McCaul. Thank you, Mr. Nixon.
    [The statement of Mr. Nixon follows:]

                 Prepared Statement of Dennis E. Nixon

    Mr. Chairman, members of the committee, my name is Dennis and I am 
the CEO and Chairman of International Bank of Commerce, also known as 
IBC Bank. I'm also a resident of Laredo, Texas, a city on our Southern 
Border where I have lived and worked for 36 years.
    Today, I am also as chairman of the Alliance for Security and 
Trade--a Texas-based coalition that is focused improving security 
efforts of our country, while helping ensure the free flow of business 
and commerce, protecting American jobs, and thus assuring our 
prosperity.
    There has been a lot of discussion here today on the crime and 
violence that are associated with illegal immigration. There is no 
doubt that we have problems along our borders as well as in the 
interior of this state and country.
    I believe that in order to make headway in reducing crime caused by 
illegal immigrants, we need to reduce the number of immigrants who 
enter this country illegally. That may sound simplistic and obvious, 
but the problem lies in search for solutions. Illegal immigration is 
not a border issue, it's a national issue that emanates deep from 
within the heartland.
    Those who are focused on an enforcement-only, a feel-good security 
solution, are doing this more harm by pushing an agenda that sounds 
warm and fuzzy, but in reality, undercuts our economy making us more 
vulnerable.
    The ``build-a-wall and throw-them out'' mentality is in essence 
a``denial-of-admission agenda'' that is anti-immigrant, anti-tourist, 
and anti-commerce.
    We can not continue to abuse our neighboring countries through 
excessive border security sending a ``don't come'' message when all 
these visitors want to do is spend money and add value to our economy. 
We live in a global economy and we must realize that we can not 
continue our prosperity by isolating ourselves from the world and 
abusing the relationships that have been built over the last several 
decades. NAFTA has been a huge success, we don't want to turn our back 
on the enormous value that this agreement has added to our economy and 
our quality of life.
    If security and terrorism is the real concern, then we should treat 
the Northern and Southern Border the same. It makes no sense to focus 
all our attention on the Southern Border and leave the Canadian Border 
insecure. After all, the Canadian Border is twice as long as the 
Southern Border and has represented more of a terrorists' threat in 
past than the Southern Border.
    Considering how far apart the House and Senate are on this on this 
issue, will we ever find the sweet spot that solves the problem and is 
acceptable to all parties involved?
    I believe the answer can be found in connecting the dots.
    We know that approximately five to six hundred thousand people 
enter this country illegally each year. Setting arbitrary caps on the 
number of workers won't reduce the flow of illegal immigrants. Employer 
sanctions won't solve the problem. They will keep coming because our 
economy creates a need for their labor. Failure to recognize this need 
and create a program that works makes the consequences clear:
        <bullet> Continued illegal immigration;
        <bullet> Stagnation from a tight labor market; and
        <bullet> More outsourcing because business will go to where the 
        labor is.
        <bullet> Insuring an underclass of illegal workers
    What is our goal here? Is it to apprehend the criminals? Or prevent 
the crimes from ever occurring? As long as our focus is on enforcement 
and not prevention, the cycle will never end unless we start treating 
the problem--and not just the symptom.
    A border patrol officer's worst nightmare is that a 9/11-type 
terrorist will slip into this country under his or her watch. That 
scenario is possible if they spend all of their time chasing down 
people who are coming here to wash dishes and mow lawns so they can 
feed their families.
    Let us route those who want to come here--through legal channels 
and by doing so, we can weed out the criminals. That way, the ones 
crossing the border illegally are more likely to be the ones that mean 
us harm. This allow our border patrol to make better use of their 
resources to catch the bad quys.
    There has been a lot of talk about Laredo and other border 
communities during these hearings across country--much of which has 
been mischaracterized or misunderstood. We have crime like any other 
city, and no one disputes the violence across the border, but contrary 
to what you may have heard--Laredo Texas is not a war zone. It is not 
high noon and we are not at the O-K Corral. I feel just just as safe 
walking downtown near our bank headquarters five blocks north of the 
border, as I do at my ranch eight miles north of the Rio Grande.
    We cannot allow a few opportunistic law enforcement officials to 
mischaracterize the problems anymore than we can say we need no border 
security at all. All things in life work best with proper balance.
    Workers are coming to this country because our economy would 
collapse without people to fill vacant jobs. Across this country, we 
are experiencing labor shortages that are about to get worse if we 
don't fix the problem.
    Our national unemployment rate is 4.8 percent, one of the lowest 
levels in our nation's history. For all practical purposes, we are at 
full employment in this country and that includes all of the employed 
unauthorized workers.
    This tight labor market it difficult for many businesses to find 
good workers. Across this country we have jobs that are going unfilled 
and I can say without hesitation, that problem exists at IBC Bank--we 
have a large number of authorized positions we have not been able to 
fill.
    Recently, Florida citrus growers announced that many of their 
groves may go unharvested because of the scarcity of workers there.
    Several weeks ago, an Oklahoma saddle maker lost 50 of his 75 
employees in a raid by Immigration and Customs Enforcement. This was 
one of Sulphur, Oklahoma's largest employers. If the workers were hired 
with forged documents, then we clearly need a system so that people 
with expertise in making saddles do not need expertise in verifying 
documents. That system must be accurate, fast and efficient.
    If the saddle maker knowingly hired illegal workers, then that was 
wrong and he broke the law. Either way, it proves that workers are hard 
to come by in this tight labor market, and we need an immigration 
system with a guest worker program that works. Destroying this business 
does no one any good.
    As I mentioned, business will go to where the labor is and if we 
don't want jobs to go south of the border or overseas through 
outsourcing, then we must be willing to import enough workers to keep 
the jobs here. We can't have it both ways, and as a country, we need to 
make up our mind.
    The country needs a stable work force so that businesses can grow, 
prosper and create more jobs. However, hurdles lie ahead that could 
prevent that stable work force.
    The baby boomers are on the leading edge of retirement and it is 
estimated that over the next 10 to 20 years, 82 million baby boomers 
will retire and be replaced by 67 million new workers, resulting in a 
shortage of 15 million workers.
    At the same time, the U.S. fertility rate is projected to fall 
below ``replacement'' level. And in a report released last November to 
Congress, The Congressional Budget Office made it patently clear that 
``Unless native fertility rates increase. . . .most of the growth in 
the U.S. labor force will come from immigration by the middle of the 
century,"
    European fertility rates have been steadily falling for the past 
two decades. In countries like Spain and Italy, one-child families are 
getting closer to being the norm. That means the growth of our labor 
force is going to come from immigrants, and the children of immigrants 
from this hemisphere.
    The failure to provide enough workers to satisfy our demand for 
labor means many businesses will be forced to fight for the small pool 
of available native workers by bidding up wages. That will have 
significant long lasting consequences for our economy, including 
stagnation at some point because as our population continues to age, 
the baby boomers retire and our native fertility rates decline, we will 
increasingly run short of willing and able workers.
    This action will likely force many companies to outsource their 
jobs in order to grow there business, but many who have no choice will 
suffer extreme hardship in terms of accomplishing their business goals. 
The hotel, food service, construction and agricultural industries are 
just a few that suffer as a result of their inability to find workers 
in such a tight labor market.
    Across Texas, police departments in cities like San Antonio, Dallas 
and Houston are facing manpower shortages as positions go unfilled. 
Police officials in those cities cite the perfect storm of baby-boom 
retirements combined with a younger generation that is shying away from 
police work.
    I foresee a similar situation with our armed services. A tight 
labor market will cause a ripple effect in the economy including 
competitive pressure that could mean young Americans might be more 
likely to choose a job in the private sector over one in the military.
    And if the military can't sign up enough volunteers with carrots, 
it might resort to sticks and bring back the draft as a way to ensure 
our armed services are adequately staffed.
    An enforcement-only approach that limits migration in the name of 
homeland security could very well be what poses the greatest threat to 
our volunteer military.
    The United States has always been a super power because of our 
economic stability and strength. After all, the best homeland security 
is economic security.
    That's why it's so important we get this right.
    One way to stop illegal immigration is to relieve pressure on the 
border by creating a guest worker program will supply us the workers we 
need, bring them through legal channels, and help us keep better track 
of who is in this country and why.
    When we installed fences in Southern California, we treated a 
symptom. While illegal crossings decreased in the urban areas, overall 
illegal immigration continued to increase. In the end, we diverted 
immigrants from safe crossing points only to watch them die in the 
desert. In the process, we destroyed circularity. People no longer come 
and go--they stay in the U.S. and they bring their families.
    Let's not make that same mistake in our approach to fixing the 
immigration system. An enforcement-only approach will only continue to 
encourage illegal immigrants to go around the system or stay in the 
shadows.
    I believe Mayor Bloomberg said it best. ``It's as if we expect 
border control agents to do what a century of communism could not: 
defeat natural market forces of supply and demand and defeat the 
natural human desire for freedom and opportunity.''
    That's why we must focus on the problem, is making sure we provide 
enough workers to supply the labor demand that will keep our country 
strong. That will result in a reduction in crime and give our law 
enforcement agencies the time to hunt down the bad guys instead of 
spending a disproportionate amount of their time looking for the next 
generation of construction workers.
    Thank you.

    Mr. McCaul. The Chair now recognizes a good friend, Jaime 
Esparza, the District Attorney from El Paso.

 STATEMENT OF JAIME ESPARZA, DISTRICT ATTORNEY, EL PASO, TEXAS

    Mr. Esparza. Mr. Chairman, members of the subcommittee, I 
appreciate the opportunity to speak to you.
    Let me first applaud you for allowing the victims of crime 
to speak just before me. As a prosecutor and, I know, judge, 
you have seen this as well, that voice is not heard loud enough 
in our Texas courtrooms. So I am very glad that you allowed 
that to happen, and I am proud to sit with them here at the 
table.
    With all due respect to Trooper Stone and Mr. And Mrs. 
Ruiz, I am going to take a different perspective, though, 
because I would like to talk to you a little bit about El Paso 
and my view of the world.
    I appreciate this opportunity to address you today 
regarding criminal activity and violence along the southern 
border. My perspective comes from being the chief State 
prosecutor for 14 years of a large county jurisdiction, three-
county jurisdiction, along the U.S.-Mexico border. It is 
estimated that between 2.1 to 2.4 million people inhabit the El 
Paso-Juarez borderplex. Approximately 1.65 million of those 
reside in the Ciudad de Juarez, Chihuahua.
    There are over a hundred thousand legal crossings into the 
U.S. through El Paso area bridges each day, resulting in 
approximately 35 million crossings per year. El Paso's 
population almost doubles on a daily basis with those people 
from Juarez crossing to shop, study, worship, visit and work.
    This nuance makes the city unlike any other cities in Texas 
in that it is a primary corridor for the flow of goods and 
services. The ebb and flow of these populations presents a 
unique and direct set of challenges for law enforcement and 
prosecutors in the region.
    The millions of annual crossings might suggest a like 
criminal activity, but based on national comparisons of 
criminal activity on the U.S. side of the El Paso-Juarez 
borderplex, El Paso is consistently ranked as one of the three 
top safest cities for a city of its size in the Nation. 
Currently, we are the second safest city in the country for a 
city our size.
    It is a mistake to equate this distinction with the 
conclusion that the border is not violent. While the city of El 
Paso side of the border had three narcotics-related homicides 
from 2003 to 2005, the Ciudad Juarez side of the same border 
had 260 narcoexecutions during the same period. For the rest of 
the border, my jurisdiction, which is primarily desolate and 
sparsely populated, the Border Patrol is probably the best 
source for firsthand information, confirming the violent 
conditions that exist there. The most extreme and frequent 
violence, though, I believe is attributable to the drug trade.
    As many recognize, the Texas-Mexico border, and 
particularly my jurisdiction in El Paso, Texas, remains a main 
corridor for the entry of illegal drugs into the United States; 
and despite much success in the interdiction and prosecution 
efforts, these harmful drugs continue to be a big problem in 
our country.
    The consensus is that 170 tons of marijuana and two tons of 
cocaine that were seized in 2005 in the West Texas corridor are 
but a fraction of the contraband that make it through 
undetected. The destination cities for the drugs that were 
seized appear to include Atlanta, Chicago, Denver, Detroit, 
Houston, Los Angeles, New York City, Philadelphia, San 
Francisco, St. Louis, Toledo and Washington, D.C.
    The primary criminal threat to the entire country stemming 
from the portion of the U.S.-Mexico border, that southern 
border that is my jurisdiction, I believe is drugs.
    Today, there is much discussion about State and local 
agencies acting as a second line of defense in the enforcement 
of Federal immigration laws. While the Federal, State and local 
governments all have a valid interest in the enforcement of 
Federal immigration laws, Texas State and local law enforcement 
agencies can only provide assistance for such enforcement on a 
very limited basis due to the constraints of Texas statutory 
criminal law, budgetary issues and sound public policies.
    In my community, we work in partnership with the Federal 
Government through various initiatives such as the Southwest 
Border Prosecution Initiative and SCAAP, the State Criminal 
Alien Assistance Program. These initiatives differ from the 
current discussion where State and local agencies are asked to 
share the primary enforcement responsibility of Federal 
immigration laws with the Federal Government.
    As of 2001, the Federal Government created the Southwest 
Border Prosecution Initiative as a reimbursement program to 
counties that assisted with the prosecution of lower-level 
Federally initiated drug cases. This reimbursement program was 
designed to facilitate an efficient use of limited resources 
available to prosecute drug traffickers entering the country. 
However, during the last 2 years, the program has not received 
the funding needed to sustain this initiative. El Paso County 
has received only 50 cents in reimbursement for every dollar 
bill under this program this past year.
    The SCAAP program, the State Criminal Alien Assistance 
Program, moneys that are received by my jurisdiction are also 
tenuous. We received $357,000 in the 12-month period ending 
June of 05. In the preceding 12-month period, we received even 
less, $150,000. We believe these amounts fall far short of the 
actual costs which are borne by the taxpayer in my 
jurisdiction.
    Based on this experience with the funding shortfalls in 
comparative efforts between the Federal and local governments I 
am doubtful that full funding would be secure for cooperative 
effort for the enforcement of Federal immigration laws.
    Many communities in this Nation, certainly including border 
communities, have a significant immigrant population. Police 
and prosecutors have worked hard to build trust and cooperation 
with immigrants and immigrant communities to assist them as 
victims of crime and to obtain information from them in 
prosecuting crimes they have witnessed. Focusing on illegal 
immigrants and enforcement of immigration law against them 
would deter, undermine and negatively affect the trust and 
cooperation between police and prosecutors and immigrant 
communities. In fact, if we sustain the same level of 
cooperation that is previously experienced, I don't believe 
that would occur. In my opinion, it would lead to crimes 
against immigrants not being reported, and these immigrants 
would likely not come forward regarding crimes they have 
witnessed.
    Furthermore, my grave concern is that it leaves the door 
open for these communities to be preyed upon at will and also 
puts thought to the rise of organized gangs purporting to 
protect illegal aliens due to the void left by the failure of 
trust in police and prosecution agencies who are mandated to 
protect all persons, legal or illegal, residing in this 
country.
    Presently, in my community, much attention has been focused 
on the local sheriff. His policy to provide reinforcement to 
Federal immigration law and law enforcement efforts I know has 
brought attention in our community. I know of instances where 
the sheriff's policies have led to crimes against illegal 
aliens not being reported. This is alarming because it could 
lead to lawlessness in the community and hinder the prosecution 
of those who endanger the public.
    This is simply not good for society as a whole. This gives 
rise to the potential for significant disruption of the entire 
criminal justice process. The disruption could likewise provide 
organized criminal gangs the ability to exploit immigrant 
communities. Immigrant communities could easily turn to rogue 
criminal gang units to provide them with the protection they 
seek instead of traditional law enforcement agencies.
    There are many instances where it is vital that Federal, 
State and local law enforcement agencies should collaborate and 
form partnerships. In that regard, there are cases where the 
primary arresting agencies are Federal law enforcement officers 
and State prosecutors who accept those cases for prosecution 
and the Federal Government reimburses local governments for the 
criminal justice costs, as in the case of the Southwest Border 
Prosecution Initiative. The Federal Government also reimburses 
local government for the cost of housing jailed inmates who are 
charged with State criminal offenses and are illegal aliens.
    However, it is not a good idea for State and local agencies 
to share the primary responsibility for the enforcement of 
Federal immigration law. Clearly, the enforcement of 
immigration law should remain the function of the Federal 
Government due to the legal constraints in the State of Texas, 
budgetary concerns and, most importantly, because of sound 
public policy.
    In closing, I don't know if the judge will ask me this 
question, but I will put what I hope the answer is. I don't 
really know what the answer is, but part of my career I was 
chairman of the southwest border HIDTA, and I know you are 
aware of the HIDTA. There are many throughout the country, but 
when it started there were only five. Houston was one of the 
first ones, and the southwest border was one of the first ones 
on both sides. Now it has proliferated, and I think it is 
political.
    But you shouldn't look at the investment the Federal 
Government has made in those HIDTAs. You have created through 
those HIDTAs collaboration. You have made Federal agencies work 
together with State and local agencies. You make those agencies 
vet their programs. You make sure that the outputs and the 
outcomes, the successes or nonsuccesses, are reviewed all the 
time. Because I think if you are going to attack this problem--
it is not just resources. Because that is always--I am sure 
everybody asks you that and tells you just send me more money. 
It is not just resources. It is going to require cooperation. 
It is going to require collaboration, and there is only one way 
to do that.
    I think that is the infrastructure you have created through 
HIDTA. Maybe HIDTA is not the vehicle you use here, but you 
have invested in intelligence centers. You have invested lots 
of money to put agencies together, boots on the ground.
    I agree with Chief Hurtt. You put boots on the ground, but 
you do it in a coordinated way, a way that somebody vets the 
process to make sure that those programs will work or at least 
if they don't work we know what we expected, and then, if it 
doesn't happen, we move on and we change our strategy.
    Thank you for your time.
    Mr. McCaul. Thank you, Jaime.
    [The statement of Mr. Esparza follows:]

                  Prepared Statement of Jaime Esparza

    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to address you today regarding 
criminal activity and violence along the southern border. My 
perspective comes from being the chief state prosecutor for 14 years of 
a large three-county jurisdiction along the U.S./Mexico border.
    It is estimated that between 2.1 to 2.4 million people inhabit the 
El Paso/Juarez borderplex. Approximately 1.65 million of those reside 
in Ciudad Juarez, Chihuahua. There are over 100,000 legal crossings 
into the U.S. through the El Paso area bridges each day resulting in 
approximately 35 million crossings per year. El Paso's population 
almost doubles on a daily basis with Juarenses crossing to shop, study, 
worship, visit, and work. This nuance makes this city unlike any other 
in Texas in that it is a primary corridor for the flow of goods and 
services. The ebb and flow of these populations present a unique and 
direct set of challenges for law enforcement and prosecutors in the 
region.
    The millions of annual crossings might suggest concomitant criminal 
activity. But based on national comparisons of criminal activity on the 
U.S. side of the El Paso/Juarez borderplex, El Paso is consistently 
ranked as one of the top three safest cities of its size in the 
nation--currently, we are the second safest city. It is a mistake to 
equate this distinction with a conclusion that the border is not 
violent. While the City of El Paso side of the border had 3 narcotics-
related homicides 2003 through 2005, the Ciudad Juarez side of the same 
border had 260 narco-executions during the same period. For the rest of 
the border in my jurisdiction, which is primarily desolate and sparsely 
populated, the Border Patrol is the best source for first-hand 
information confirming the violent conditions that exist there. The 
most extreme and frequent violence is attributable to the drug trade.

Primary Criminal Threat along the U.S./Mexico Border:
    As many recognize, the Texas/Mexico border, and particularly my 
jurisdiction in El Paso, Texas, remains a main corridor for the entry 
of illegal drugs into the United States, and despite much success in 
interdiction and prosecution efforts, these harmful drugs continue to 
be a big problem in our country.
    The consensus is that the 170 tons of marijuana and 2 tons of 
cocaine that were seized in 2005 in the West Texas Corridor are but a 
fraction of the contraband that made it through undetected. The 
destination cities for the drugs that were seized appear to include 
Atlanta, Chicago, Denver, Detroit, Houston, Los Angeles, New York City, 
Philadelphia, San Francisco, Saint Louis, Toledo, and Washington D.C. 
The primary criminal threat to the entire country, stemming from the 
portion of the border that is in my jurisdiction, is drugs.
    Today, there is much discussion about state and local agencies 
acting as a second line of defense in the enforcement of the federal 
immigration laws. While the federal, state, and local governments all 
have a valid interest in the enforcement of federal immigration laws, 
Texas state and local law enforcement agencies can only provide 
assistance for such enforcement on a very limited basis due to the 
constraints of Texas statutory criminal law, budgetary issues, and 
sound public policy.
    Enforcement of federal immigration laws by Texas state and local 
peace officers would be made primarily through an encounter with a 
peace officer that escalates into a warrantless arrest. In Texas, 
warrantless arrests are authorized only in limited circumstances and 
are governed primarily by Chapter Fourteen of the Code of Criminal 
Procedure. Amores v. State, 816 S.W.2d 407,413 (Tex.Crim.App 1991). In 
fact, the issue of the authority for local peace officers to arrest 
illegal aliens without a warrant has come before the Attorney General 
of Texas who has issued an opinion that such arrests can only be made 
if a particular state warrantless arrest statute is satisfied. Op. Tex. 
Att'y Gen. No. H-1029 (1977). A Texas peace officer may not arrest 
without a warrant an alien solely upon the suspicion that he has 
entered the country illegally. Op. Tex. Att'y Gen. No. H-1029 (1977). 
It is also doubtful that a Texas peace officer could simply detain an 
illegal alien for federal authorities if no arrest was being made and 
turn that person over to federal authorities. This is because once the 
original purpose for the stop is concluded, the detention must end. 
Davis v. State, 947 S.W.2d 240, 245 (Tex.Crim.App. 1997). A detention 
may not be unnecessarily prolonged solely in hopes of finding evidence 
of some other crime. The stop may not be used as a ``fishing expedition 
for unrelated criminal activity.'' Davis v. State, 947 S.W.2d at 243. 
And, of course, Texas state and local law enforcement officers may not 
engage in racial, ethnic, or nationality profiling. Tex. Code Crim. 
Proc. Ann. arts. 2.131 and 2.132 (Vernon 2005). Thus, it is quite clear 
that Texas state and local law enforcement officers may not stop or 
apprehend persons solely because of any belief that the person is in 
this country illegally, Federal immigration authorities should only be 
contacted if the local law enforcement officer has arrested a person on 
a criminal charge and the officer knows the person is an illegal alien.
Status of Funding from the Federal Government for State and Local 
Assistance along the U.S./Mexico Border:
    In my community we work in partnership with the federal government 
through various initiatives such as the SWBPI (Southwest Border 
Prosecution Initiative) and SCAAP (State Criminal Alien Assistance 
Program). These initiatives differ from the current discussion where 
state and local agencies are asked to share the primary enforcement 
responsibility of federal immigration laws with the federal government.
    As early as 1998, myself and district attorneys along the southwest 
border from Brownsville, Texas, to San Diego, California, formed a 
coalition to alert the federal government that some of the poorest 
border counties were shouldering the financial burden for assisting the 
federal government with the prosecution of federally referred drug 
cases that were apprehended at the U.S./Mexico ports of entry and 
border checkpoints. For years it was the practice of state and local 
law enforcement and prosecutors to adjudicate the cases at a huge 
expense to the counties and municipalities, in effect double-taxing 
border residents. United States Attorneys and District Attorneys are in 
agreement that the partnership between federal, state, and local law 
enforcement offers efficiency and flexibility in the successful 
prosecution of these federally initiated drug cases. As of 2001, the 
federal government created the SWBPI (Southwest Border Prosecution 
Initiative) as a reimbursement program to counties that assisted with 
the prosecution of lower-level federally initiated drug cases. This 
reimbursement program was designed to facilitate an efficient use of 
the limited resources available to prosecute drug traffickers entering 
the country; however, during the last two years, the program has not 
received the funding needed to sustain this initiative. El Paso County 
received only fifty cents in reimbursement for every dollar billed 
under the program.
    The SCAAP (State Criminal Alien Assistance Program) monies that are 
received by my jurisdiction are also tenuous. We received $357,000 in a 
twelve-month period ending in June of 2005. The preceding twelve-month 
period we received even less: $150,000. We believe these amounts fall 
far short of the actual cost, which are borne by the taxpayers in my 
jurisdiction.
    Based on this experience with funding shortfalls in cooperative 
efforts between federal and local governments, I am doubtful that full 
funding would be secured for a cooperative effort for the enforcement 
of federal immigration law.

Public Safety Concerns
    Many communities in this nation, certainly including border 
communities, have a significant immigrant population. Police and 
prosecutors have worked hard to build trust and cooperation with 
immigrants and immigrant communities to assist them as victims of 
crimes and to obtain information them in prosecuting crimes they have 
witnessed. Focusing on illegal immigrants and enforcement of 
immigration law against them would undermine and negatively affect the 
trust and cooperation between police and prosecutors and immigrant 
communities. In fact, it is doubtful that enforcement of immigration 
laws against immigrant communities would sustain the same level of 
cooperation as previously experienced. In my opinion it would lead to 
crimes against immigrants not being reported, and these immigrants 
would likely not come forward regarding crimes they have witnessed. 
Furthermore, my grave concern is that it leaves an open door for these 
communities to be preyed upon at will and also could foster the rise of 
organized gangs purporting to protect illegal aliens due to the void 
left by the failure of trust in police and prosecution agencies who are 
mandated to protect all persons, legal or illegal, residing in this 
country.
    Presently, in my community, much attention has been focused on the 
local Sheriff and his border coalition and their policy to provide 
reinforcement to federal immigration law enforcement efforts. I know of 
instances where the Sheriffs policies have led to crimes against 
illegal aliens not being reported. This is alarming because it could 
lead to lawlessness in the community and hinder the prosecution of 
those who are a danger to the public. Too many resources and efforts 
have been committed to establish and practice community policing across 
this nation, and these positive effects are being reversed today due to 
the latest policies of the coalition of sheriffs in Texas. This has led 
to the underreporting of crimes committed in communities with large 
immigrant populations. Simply the perception by immigrant communities 
that law enforcement is ``out to get them'' creates a chilling effect 
on cooperation with local law enforcement. This is simply not good for 
society as a whole.
    This gives rise to the potential for significant disruption of the 
entire criminal justice process. This disruption could likewise provide 
organized criminal gangs the ability to exploit immigrant communities. 
Immigrant communities could easily turn to rogue criminal gang units to 
provide them with the protection they seek instead of traditional law 
enforcement agencies.
    There are many instances where it is vital that federal, state, and 
local law enforcement agencies collaborate and form partnerships. In 
that regard, there are cases where the primary arresting agency are 
federal law enforcement officers, and state prosecutors accept these 
cases for prosecution and the federal government reimburses local 
government for the criminal justice costs, as in the case of SWBPI. The 
federal government also reimburses local government for the cost of 
housing jail inmates who are charged with state criminal offenses and 
are illegal aliens. However, it is not a good idea for state and local 
agencies to share the primary responsibility for the enforcement of 
federal immigration law. Clearly, enforcement of immigration laws 
should remain the function of the federal government due to legal 
constraints in the State of Texas, budgetary concerns, and most 
importantly because it is sound public policy.

    Mr. McCaul. We will have one round of questioning, try to 
limit it as brief as possible.
    I do want to thank the victims who appeared here today to 
testify. Officer Stone and the Ruizes, I know how difficult it 
must be to retell the story and relive the agony and the pain 
that you experienced firsthand and that you experienced 
firsthand through your daughter's untimely death. As I 
mentioned earlier, I will pledge all my support to work with 
you to help bring this murderer, Mr. Salazar, to justice.
    Mrs. Ruiz. Thank you so much.
    Mr. McCaul. I personally sat down, as a prosecutor, with 
victims, but also, as a Congressman, I sat down with families 
of 42 U.S. citizens who had been kidnapped in Nuevo Laredo. I 
had to talk to the parents like yourself who lost their 
daughters. They said, help me, Congressman. What can you do to 
help me? As a Member of Congress, I have never felt so 
powerless, but I pledged to help them in any way I can.
    We are dealing with foreign nations, and it is very 
difficult. Extradition is a difficult thing to achieve. Again, 
42 U.S. citizens, 42 parents who have lost their children to 
this violence which has come into our country, I believe that 
is unacceptable, and we need to do something about that in this 
country and in this Congress.
    I just had a quick question about your particular story. 
Mr. Salazar was taken into custody for questioning?
    Mrs. Ruiz. Yes.
    Mr. McCaul. Okay. How long was heSec. 
    Mrs. Ruiz. They came--actually, he showed up at our house 
after our daughter was murdered, and he was trying to tell us 
that he didn't kill her, and we knew that he did. So we called 
the police. An HPD officer came out, and we told him we 
believed him to be involved in our daughter's murder, a 
suspect, and so they took himSec.  the officer called Homicide, 
and they told him to bring him in and they took him to 
Homicide. I guess he was probably down there maybe a couple of 
hours, if that long.
    Mr. McCaul. Do you know if any check was made as to his 
legal status in this country.
    Mrs. Ruiz. No, no. And I have spoken with Lieutenant Walker 
with Homicide who is handling our daughter's case.
    Mr. McCaul. Had that check been made and his status 
verified that he was here illegally? He could have been 
detained and possibly could have prevented him from leaving 
this country.
    Mrs. Ruiz. Yes, but nobody checked. Nobody bothered to 
check. And, you know, by the time the warrants did come out and 
they did go out to look for him, he was long gone. As a matter 
of fact, the apartment complex where he lived told Homicide 
that the mother and him moved out in the middle of the night 
and so--
    Mr. McCaul. I am so sorry. This is another example of our 
failed immigration policies resulting--
    Mrs. Ruiz. You know what is so bad about it, Mr. McCaul, is 
that Salazar ended up going to Miami, like I said, and his 
mother did send his passport to people there and she got it to 
him. But the fact that his father was able to fly from 
Venezuela, because he worked for a Venezuelan oil company, so 
he flew down from there to Miami in a company plane and picked 
him up. Now he was going to take Muerta with him, but because 
she was born here she couldn't go. They wouldn't let her. So 
she got on a bus and she went back to San Antonio, and she turn 
herself in 2 months later. But Salazar got on that plane, and 
his father knew and took him back to Venezuela, and he has been 
there ever since.
    Mr. McCaul. You have two former prosecutors up here who 
will be looking into this. I appreciate you coming forward 
today and telling your story, and Mr. Stone as well.
    Jaime, I just had a couple--hold the line in El Paso is, in 
my view, a tremendous success. Would you agree with that?
    Mr. Esparza. I agree. Congressman Reyes, back then Chief 
Reyes, it was a great idea. If you look statistically--I didn't 
talk about that because of time, but if you look statistically, 
our crime rate is one of the othersSec. 
    Mr. McCaul. Which is one of the reasons why I guess there 
is such a low crime rate, right.
    Mr. Esparza. Right. We dropped radically. If you went by El 
Paso just this afternoon and you went along the border, which I 
happen to drive to work every day, you would see the Border 
Patrol, their vehicles, I don't know, mile, quarter of a mile, 
whatever it is and they watch it vigilantly.
    Mr. McCaul. There is a law enforcement presence on the 
border where it actually does work. You got results, rightSec. 
    Mr. Esparza. I think it has made a big difference, yes.
    Mr. McCaul.--in El Paso. Of course, you put the finger in 
the dike, and it comes out elsewhere. You wouldn't deny there 
is violence all along our southern border.
    Mr. Esparza. No, I wouldn't.
    Mr. McCaul. You would agree to that.
    Mr. Esparza. I would agree there is.
    Mr. McCaul. I am interested. Because I, like you, value 
these collaborative task forces. Whether HIDTA, which I worked 
with you, joint terrorism task forces seem to work well. In the 
post-9/11 world, there is no reason why we should not be able 
to work together to prevent terrorism. That is just my view, as 
some of you worked in that field, but it has to be done in an 
integrated way that works. I think we have had models that seem 
to work, whether it be HIDTA or the JTTF.
    I introduced legislation, the Border Area Security 
Initiative, that tries to create a similar framework that would 
designate high-risk areas where you would have a collaborative 
arrangement between Federal, State and local, including the 
sheriffs, but you would have supervision and you would have 
accountability. I would ask that you take a look at that bill 
and give me your comments on that legislation. Obviously, it 
would be after the hearing.
    Mr. Esparza. I am a big believer in what HIDTA does. I am 
not sure if all of the committee has had an opportunity to tour 
what the HIDTAs are doing, but they invest a lot in 
intelligence. They spend a lot of time on different task 
forces. But I think the most important thing they do is, 
instead of just sending a pile of money to one agency, you send 
it to a group and force us to get along. The fact of the matter 
is we don't always get along.
    As a group, when I sit--when I used to sit either as the 
chairman of the Southwest Border HIDTA or as chairman of the 
West Texas HIDTA, we had to discuss what the strategy would be, 
we had to decide whether or not we were going to spend our 
limited resources in that area or not, and we took a vote. Not 
everybody was happy, not everyone left the table smiling, but 
we worked together, and we were forced to, and in that 
environment you understand it.
    Plus, you leverage. I believe you leverage the use of local 
and State officials in a really smart way. It is a smart use of 
your money to do that.
    It is exactly the same model that the Southwest Border 
Prosecutor Initiative does as well. It is allowing State 
prosecutors to prosecute these low-level drug dealers.
    It is a smart use of your money. It is less expensive. We 
take care of them. You do reimburse us, but a lot of the 
Federal Government--what I think a Federal prosecutor ought to 
be going after is the big guy. I don't mind going after the 
little guy. We have got to work together. I think that is the 
next idea.
    Mr. McCaul. I look forward to visiting with you some more 
about that.
    My time has expired.
    The Chair recognizes the gentlewoman from Texas, Ms. Sheila 
Jackson-Lee.
    Ms. Jackson-Lee. Let me offer to Mr. Stone and the Ruiz 
family a collective offer of sympathy and thank your 
Congressperson, Congressman Green, whose district you are in, 
for his leadership and offer, as a member of the House 
Judiciary Committee, we deal with a number of the criminal 
extradition cases, to be able to join in.
    I think it is important to note, and it gives you little 
comfort, that all of us have been frustrated by the extradition 
laws, and I would encourage your district attorney to accept 
the offer of providing the documentation so that Members of 
Congress can give the added support to the diplomatic role that 
we play, working with ambassadors, to encourage the Ambassador 
from Venezuela to act on his request.
    As I offer this evidence, it certainly will not be of 
comfort to the loss of a beautiful daughter, but this is the 
frustration we face, and I ask the chairman unanimous consent 
to put in the record an article about France postponing 
extradition. This is an epidemic.
    Mr. McCaul. Without objection.
    Ms. Jackson-Lee. This has to do with Ira Amhoff who 
murdered a young lady many, many years ago, and he still lives 
free in France that long ago. So this is an extradition 
question.
    I would also raise the dilemma, because as I was looking 
over the various provisions, when someone is in custody--and I 
am going to pose this question to Mr. Esparza. When police have 
someone in custody and have arrested someone and brought them 
from wherever they are, the perpetrators of this violent murder 
crime of this beautiful young lady, there is no prohibition now 
to prohibit any law enforcement from asking about status, is 
that not correct?
    Mr. Esparza. Once they have a State charge, they are free 
to ask them their citizenship, their status, if they like, but 
my reading of the law is they are not allowed to approach 
someone and simply ask them their status without something more 
than some unreasonable suspicion.
    Ms. Jackson-Lee. No, that is what I am saying. If you are 
now in custody.
    Mr. Esparza. The answer is yes.
    Ms. Jackson-Lee. No prohibition.
    Mr. Esparza. No prohibition.
    Ms. Jackson-Lee. So my understanding is that this 
individual had been brought into custody.
    Mrs. Ruiz. No, he had been brought in for questioning.
    Ms. Jackson-Lee. He was in custody; and, therefore, in 
questioning they could have asked.
    Mrs. Ruiz. They could have asked.
    Ms. Jackson-Lee. In questioning, Mr. Esparza, I don't 
believe there is any prohibition. You are in for questioning, 
that question could be asked because it related to an alleged 
criminal offense.
    Mr. Esparza. I believe they should have done that. I am 
sure Judge Poe ruled on that matter many times, but I believe 
they could have done that.
    Ms. Jackson-Lee. Mr. Stone, let me also thank you for your 
service.
    One of the, if you will, programs that I am a big supporter 
of is the Cops on the Beat program and, of course, the--what we 
call the Edward Byrne Memorial Justice Assistance Grants, and I 
believe will come to law enforcement agencies like yourself. 
Are you familiar with those programs?
    Mr. Stone. To be honest with you, ma'am, I am not.
    Ms. Jackson-Lee. It adds extra police, extra DPS. Would 
that help, by adding more local police, more DPS, funding from 
the Federal Government to be utilized for more local police and 
more local DPS officers? Would that be helpful.
    Mr. Stone. Ma'am, I think in all scenarios more manpower is 
always helpful.
    Ms. Jackson-Lee. You agree with boots on the ground.
    Mr. Stone. Yes, ma'am.
    Ms. Jackson-Lee. One of the terrible aspects of your 
tragedy is that individual had come back over and over again.
    Mr. Stone. Yes, ma'am. He had been criminally deported 
twice prior.
    Ms. Jackson-Lee. So the real question is that, when someone 
is found to be criminally deported, what happens on the other 
side? Why wasn't that person incarcerated? Why wasn't that 
person tried for some violation? This is the frustration we 
have in dealing with the barriers, countries that are around 
our area. I think that when we talk about immigration we need 
to separate out the bad guys and the lack of response to bad 
guys from issues that I think Mr. Nixon is speaking of.
    Mr. Nixon, might I just pose this question on what we do 
with this whole issue of 12 million undocumented? Remember, we 
are talking about comprehensive immigration reform, and I think 
one of your quotes was that you feel it is safe in Laredo, 
which I tried to distinguish from Nuevo Laredo versus Laredo, 
as you have ever experienced. You walk to your bank or around 
your bank, and you also feel safe on your ranch. Then how do we 
distinguish having a comprehensive reform plan, if you will, to 
address the question of the present status of immigration in 
our country and secure the border?
    Mr. Nixon. Well, I think you have to start by putting in 
place a comprehensive program that allows people that want to 
come here to work that we need to have here working.
    I don't think anybody makes a need for these workers. In 
fact, if we provide them attractive citizenship, which people 
don't like the word amnesty--I don't particularly like the word 
amnesty. I do like the word ``awarded'' citizenship. Someone 
comes in and registers, does not have a criminal record, abides 
by our laws and wants to work in a citizenship capacity, then 
we should permit them to be here because they are coming 
because of the demand for their work. I think we mix all the 
good with bad is when we have a problem trying to manage that 
process.
    So in our efforts to what should be--what you heard here 
today, I think if we allow this many of these people to enter 
our system and separated them from these people who come to 
commit crime, we have a much more manageable process. We can 
employ our resources more effectively to deal with a much 
smaller group of people.
    I think in any society there is a certain percentage of bad 
people. It doesn't matter what type of background you are. 
There is a percentage of the bad. So I think we have to 
separate the willing worker, person who wants to be a good 
citizen and come here and register and get them out of that pot 
that we are trying to manage that is too big and cumbersome. 
Our borders are too long and our resources are too small to be 
able to deal with. We just have to face up to reality.
    Ms. Jackson-Lee. Thank you very much, Mr. Nixon.
    Mr. Esparza, what would happen if we had an amendment in 
place that would, in essence, take Federal funding away from 
any jurisdiction that the Federal Government could claim was 
not asking the questions or going out aggressively throughout 
the city and bringing in individuals?
    Mr. Esparza. Well, we rely heavily on Federal funding not 
just in the criminal system. In El Paso, I am sure I could make 
a whole line of people who benefit, agencies who benefit, lots 
of our community that benefit from Federal funding that is 
provided by the government; and if they were to take that from 
us certainly it would impact my community seriously.
    Ms. Jackson-Lee. You have already testified that there is 
certainly no prohibition that someone is in custody to ask 
those questions. I would also imagine if you are familiar with 
the language that says if there was any sort of documenting 
process that the criminal background of the individual would be 
checked. Possibly the perpetrators that did this dastardly act 
either on Mr. Stone or the beautiful daughter of the Ruizes 
would have been discovered. Documenting or attempting to 
document weeds out the offenders, the criminals, the 
individuals who are here to do harm. Would that not have been a 
possibility?
    Mr. Esparza. It could have been a possibility, but I would 
just--on behalf of my community, I think it is bad policy to 
have State and local police officers enforcing immigration law. 
They could have asked--in the scenario you asked me, they could 
have asked that question, because I do believe they were in 
custody and maybe even to the level of an arrest. So they could 
have asked that question. But there is just too much trust 
between the community and the police and the most important 
issue of protecting each other, and if we start to enforce 
immigration law versus the Border Patrol, the Federal agencies, 
I think that it is extremely detrimental to our community.
    Mr. McCaul. The gentlewoman's time has expired.
    Ms. Jackson-Lee. Let me follow up.
    I agree with you. The question I posed was not what you 
just answered, which we have an agreement, but I wanted to be 
able to give an answer to those victims who can't understand 
why we didn't catch or hold those individuals. If there was a 
documentation process, the proposed legislation indicates no 
criminal background and, therefore, if that was a process and 
people got into the process, individuals with criminal 
backgrounds would obviously be detected. That is on the Federal 
side. So my question to you is that would be a more helpful 
process if you knew who was here and who was undocumented by 
way of detecting or having for them to represent what their 
backgrounds were. That is the Federal system.
    Mr. Esparza. Yes, ma'am, that would help.
    Ms. Jackson-Lee. That would be a helpful process.
    Mr. Esparza. Yes, ma'am.
    Mr. McCaul. The Chair now recognizes the judge.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Esparza, good to see you. Compliment you on your work, 
working here, of course, in Harris County and then moving out 
West and doing a great service for the people in El Paso, but 
it is good to see you.
    I want to thank all of you for being here. I am going to 
start on this end and, in as much time as I have got, I am 
going to go through all the witnesses.
    Trooper Stone and the Ruiz family, sympathies from 
everybody.
    Just a couple of issues, Trooper Stone. When I got to 
Congress, as Mr. Esparza has pointed out, victims don't have a 
lobbyist in Washington, D.C. It is not one of those items 
people get interested in. So I started the Victims Rights 
Caucus made up of Members of the Republican party and the 
Democratic party. Because criminals don't ask whether persons, 
a victim, is a Democrat or Republican. They just do what they 
do, as you know.
    So victims is a tremendous important issue to me based on 
my background as a judge for 22 years and then prosecuting 
outlaws right here in Harris County. I want to commend you on 
the work that you do and all the troopers in Texas do.
    But it seems to me if governments--foreign governments 
continue to promote illegal entry into this Nation, then people 
like yourself and the Ruiz family who become victims of crime 
should be able to sue in our Federal courts those foreign 
governments and have a cause of action against those 
governments for reparations, that those governments ought to 
pay at least financially for failure to secure their own 
citizens in their nation.
    So we are going to work on that project. The Victims Rights 
Caucus is promoting that idea where you have a cause of action 
against the nations of the individuals who committed these 
crimes against you.
    And to the Ruiz family, I, like the chairman here, have 
four kids, three of them girls, one of them a son, have four 
grandkids; and we have got one in the hopper, so to speak. No 
parent ever wants to see the death of their child, ever. That 
is the absolute worst thing that could happen to any parent 
anywhere in the world. So our sympathies are with you.
    And I suggest, just immediately, Andy Quan is here from the 
Mayor's Victims Service. You ought to talk to him, see if you 
can get this thing moving here in the county.
    We will see what we can do on the Federal law. We will 
bring the outlaw back, and he will be tried, and he will meet a 
Texas jury for the crimes he has committed. But thank you for 
being here and sharing that true story about the impact of 
crime by illegals that are in the United States.
    And that is the issue. It is not immigration. It is not 
lawful entry. It is not the legal immigrants. It is the people 
that are here illegally. And you have described in a very 
simplistic, powerful way how they come here and they flee back 
to their haven and nothing seems to happen. The Federal 
Government has a responsibility to work on that specific issue 
as well.
    Mr. Nixon, I was kind of stunned by your comments. I have 
been down to Laredo. I have been with Sheriff Flores and his 
deputies. You disagree with what he has to say about your Webb 
County community, I assume. I doubt if you are tracked and 
followed by GPS when you go to work, that your kids have to be 
taken to school by bodyguards, as many of the deputies do in 
south Texas because they are fearful of the drug cartels doing 
crimes against them.
    But I recall, of course, that you are in the banking 
business; and your bank, like many other banks, stands to make 
a lot of money off of people illegally in the United States 
that ship money back to their country. So this isn't a Chamber 
of Commerce meeting. This is an issue that has to deal with 
criminal conduct by illegals in the United States.
    So I was quite surprised by your analysis of the no crime 
in Laredo, the standard Chamber of Commerce statement that we 
heard while we were down there. But the sheriffs, nonpartisan, 
concerned about the safety of their citizens, seemed to take a 
completely different position.
    I have been all up and down the Texas border. I, like Ms. 
Jackson-Lee, have been to California and other States and you 
know the sheriffs all say the same thing. There is crime on the 
border, both sides, worse on the other side, but it is 
happening in America, too.
    So I will investigate more of your statements that you have 
made in writing to try to see where I can find out how can you 
differ so much from the border sheriffs, the Border Patrol, all 
Federal agencies. Every law enforcement group in the United 
States takes a different position than you, the banker, takes 
from Laredo, Texas.
    But we certainly have to work with other nations to get the 
criminals that flow back and forth from our open borders 
captured and put them in jail wherever they belong.
    But, once again, Mr. Chairman, I want to thank all of these 
witnesses for being here, especially this family, and Trooper 
Stone for the great work you do. We all appreciate what you do.
    One thing that I have learned today, though, it seems to be 
universal, across the board, with this panel and the other two 
panels, nobody trusts the Federal Government to do what they 
are supposed to be doing; and hopefully we can resolve that 
problem. So thank you very much.
    Ms. Jackson-Lee. Mr. Chairman, a question was posed to the 
witness, and I assume Congressman Poe would like an answer. He 
hasn't yielded to give Mr. Nixon an opportunity to respond. It 
is a fact-finding hearing.
    Mr. McCaul. Would the gentlelady yield to the Chair.
    Mr. Poe. So do you disagree with Sheriff Flores about the 
safety of Laredo, Texas? That was the question.
    Mr. McCaul. The witness may answer.
    Mr. Nixon. Yes.
    Mr. McCaul. Is that your answer.
    Mr. Nixon. I live in Laredo, Texas, and lived there for 36 
years; and I frequently move about my community. I am a high-
profile person, and I would be a target of crime. I don't 
believe I am unsafe.
    I do believe that crime exists in every city in America. We 
are no different than any other city. We need to enforce the 
laws. We need to protect our citizens as well. But we are 
mixing two issues up in one pot, and I think they need to be 
separated. The people who are here and want to work and earn a 
living I think should have a right and try to--
    Mr. Poe. I agree we ought to separate the issue of legal 
immigration from criminals that come here who are illegally in 
the country. I agree with that.
    I yield back the remainder of my time to the Chair.
    Mr. McCaul. The Chair thanks the members and the 
subcommittee and the witnesses.
    Ms. Jackson-Lee. Mr. Chairman, before we finish, I have 
some articles I need to put in the record.
    Mr. McCaul. Without objection, so ordered.
    Mr. McCaul. I want to thank the witnesses for being here to 
testify and particularly the victims who are here today.
    The record will be held open for 10 days, if you get 
additional questions from the members to respond to.
    Mr. McCaul. Without objection, the subcommittee stands 
adjourned.
    [Whereupon, at 2:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
